             U.S. Department of Housing
                and Urban Development

            Office of Inspector General




    Semiannual Report
           to Congress
                          i
April 1, 2007, through September 30, 2007
Profile of Performance
                                               Audit Profile of Performance
                                 for the period, April 1, 2007, through September 30, 2007
     Results                                                                                                            FY 07 Totals

    Recommendations That Funds Be Put to Better Use                                     $192,726,922                    $947,764,363
    Recommended Questioned Costs                                                        $49,073,613                      $68,061,089
    Collections from Audits                                                             $21,424,955                      $35,960,277
    Administrative Sanctions                                                                  2                                 8

                                            Investigation Profile of Performance
                                 for the period, April 1, 2007, through September 30, 2007
     Results                                                                                                            FY 07 Totals

    Funds Put to Better Use                                                             $14,738,892                     $56,964,264
    Recoveries/Receivables                                                              $84,833,879                     $275,010,163
    Indictments/Informations                                                                644                              1,338
    Convictions/Pleas/Pretrial Diversions                                                   493                              1,055
    Civil Actions                                                                            76                                107
    Administrative Sanctions1                                                                730                             1,780
    Personnel Actions                                                                        26                                50
    Arrests2                                                                                 907                             2,684
    Search Warrants                                                                          63                                93
    Weapons Seized                                                                            8                                15
    Subpoenas Issued                                                                        469                               902

                                              Hotline Profile of Performance
                                 for the period, April 1, 2007, through September 30, 2007
     Results                                                                                                            FY 07 Totals
    Funds Put to Better Use                                                              $2,638,958                       $5,155,154
    Recoveries/Receivables                                                               $258,341                          $438,161


1
 Personnel actions include reprimands, suspensions, demotions, or terminations of the employees of Federal, state, or local governments, or of
Federal contractors and grantees, as the result of OIG activities. In addition, this reporting category includes actions by Federal agencies to
suspend, debar, or exclude parties from contracts, grants, loans, and other forms of financial or non-financial transactions with the government,
based on findings produced by the OIGs.
2
    Included in the arrests is our focus on the nationwide Fugitive Felon Initiative.
Inspector General’s Message
                                      It is with great satisfaction that I present the U.S.
                                  Department of Housing and Urban Development
                                  Office of Inspector General (HUD OIG) Semiannual
                                  Report to the Congress for the second half of fiscal
                                  year 2007. HUD OIG employees - auditors, agents,
                                  attorneys, and support staff - have been in the thick
                                  of the issues that greatly affect our domestic life.
                                  Whether it is Gulf Coast disaster relief, single-family
                                  housing fraud, Section 8 rental subsidy fraud, or any
                                  fraud against HUD programs or operations, HUD OIG
                                  is engaged and garnering results, for which we are
                                  justly proud.

                                       This report marks the eleventh time I have
                                  reported on HUD OIG's extraordinary activities, and
                                  we just keep enhancing our efforts time after time.
During the reporting period, we had $210,104,772 in funds put to better use, questioned
costs of $49,073,613, and $85,092,220 in recoveries and receivables. This is exceptional
work by our staff that has resulted in significant positive impact on fraud and misuse of
taxpayer dollars. I am grateful to all of our staff nationwide who worked so hard this
year to achieve this milestone.

    The year 2007 marks the removal of HUD's single-family mortgage insurance and
rental housing assistance programs from the Government Accountability Office's list
of agencies with high-risk programs. HUD OIG's continued cooperation and oversight
of these programs was a contributing factor to this welcome action; however, we
continue to stress that the Department place a high priority on management efficiency
and effectiveness.

    I direct your attention to our high profile audits and investigations. HUD OIG staff
increased and improved their cooperation and collaboration with the Department and
as a result, developed and implemented better and more effective audit
recommendations. Agents from our Office of Investigation also enhanced their
cooperation with the Department as a new source for new investigative avenues.

    For example, homebuyers in Brooklyn, NY, are a little safer with the incarceration
of the branch officers of the Brucha Mortgage Bank. Using false documents and
appraisals, these individuals flipped properties and skimmed construction funds, causing
$11.6 million in losses to HUD after 58 mortgages defaulted. Homebuyers in the Los
Angeles area are less at risk with the sentencing of the owner and staff of the Atlas
Home Loan company. Using identity fraud, false Social Security numbers, and fraudulent
employment documents, they allowed unqualified and straw borrowers to get Federal
Housing Administration (FHA)-insured mortgages, resulting in losses to HUD and the
default of 42 mortgages.


Inspector General’s Message                                                              iii
     Public housing residents in Northern Illinois are better served with the conviction
of the owner of William Moorehead & Associates who embezzled nearly a million dollars
from properties the company was hired to manage. The waiting list for New York City
Housing Authority Section 8 vouchers became shorter when 31 people were arrested
for false income certifications and obtaining more than $1.1 million in housing assistance
they were not entitled to receive.

   In the Gulf States, Congress has authorized more than $16 billion dollars. As those
funds start to be used, HUD OIG will be increasing its scrutiny of how the monies are
spent.

    Significant HUD OIG audits show that HUD needs to improve controls over its
contract administration process and ensure that payments to contract administrators
were for work performed. An audit of manufactured housing loans showed that more
than 80 percent of recently insured Title II manufactured housing loans are on homes
with substandard foundations. In each of these audits, recommendations were made
that will significantly impact the efficiency and effectiveness of these programs and
protect the safety and financial investment of these occupants.

    HUD OIG is also dedicated and committed to becoming a more efficient and
effective organization itself, better at recovering taxpayer funds and bringing to justice
people who perpetrate crimes against the citizens and government of this country.

     It is with obvious and justifiable pride that I thank the staff of HUD OIG for their
tireless work in their struggle against waste, fraud, and abuse in the Nation's housing
and urban development programs.




     Kenneth M. Donohue
     Inspector General




iv                                                              Inspector General’s Message
                                   Audit Reports Issued by Program


                                              Other
                   Single-Family             Programs
                      Housing                                                              Community
                                                9%                                          Planning &
                        11%
                                                                                           Development
       Multifamily                                                                             26%
        Housing
          15%




                                                                                       Public and Indian
                                                                                           Housing
                                                                                              39%



                            Monetary Benefits Identified by Program

                       Community                                                  Single-Family
                        Planning &                                                   Housing
                       Development                                                    20%
                            11%




                                                                                         Multifamily
          Public & Indian
                                                                                          Housing
             Housing
                                                                                            18%
                51%



                      Monetary Benefits Identified in Millions of Dollars


                                                                $122.7
           140
           120

           100
           80
                                      $48.2       $42.1
           60
                                                                              $26.9
           40
           20
               0
                                    Single    Multifamily   Public &     Community
                                   Family      Housing       Indian       Planning &
                                   Housing                  Housing      Development




Audit Charts                                                                                               v
            Investigation Cases Opened by Program (Total: 596)

                                                     Community Planning
     Single-Family            Other                    & Development
        Housing              7% (43)                     17% (102)                       Multifamily
       12% (72)                                                                           Housing
                                                                                          9% (52)




                                                                   Public and Indian Housing
                                                                           55% (327)




         Investigation Recoveries by Program (Total: 84,833,879)


                       $64,050,725
     70,000,000
     60,000,000

     50,000,000
     40,000,000
     30,000,000

     20,000,000                      $6,052,765 $8,064,369
                                                             $2,221,943   $4,444,077
     10,000,000
             0
                       Single Multifamily Public & Community  Other
                      Family   Housing     Indian Planning & Programs
                      Housing             Housing Development




vi                                                                                     Investigation Charts
Acronyms List
AIGA            Assistant Inspector General for Audit
AIGI            Assistant Inspector General for Investigations
ARIGA           Assistant Regional Inspector General for Audit
ASAC            Assistant Special Agent in Charge
ATFE            Bureau of Alcohol, Tobacco, Firearms, and Explosives
CAS             Computer Audit Specialist
CDBG            Community Development Block Grants
CID             Criminal Investigation Division
CPD             Community Planning and Development
DAIGA           Deputy Assistant Inspector General for Audit
DAIGI           Deputy Assistant Inspector General for Investigation
DEA             Drug Enforcement Administration
DHS             Department of Homeland Security
DIG             Deputy Inspector General
DoD             Department of Defense
DOE             Department of Education
DOJ             U.S. Department of Justice
DROD            Disaster Relief Oversight Division
DUI             Driving Under the Influence
EIV             Enterprise Income Verification
FBI             Federal Bureau of Investigation
FDIC            Federal Deposit Insurance Corporation
FEMA            Federal Emergency Management Agency
FFMIA           Financial Management Improvement Act of 1996
FHA             Federal Housing Administration
FIRMS           Facilities Integrated Resources Management System
FISMA           Federal Information Security Management Act of 2002
FY              Fiscal Year
GAO             Government Accountability Office
GNND            Good Neighbor Next Door
HHS             U.S. Department of Health and Human Services
HOME            Home Ownership Made Easy
HOPWA           Housing Opportunities for Persons with AIDS
HUD             U.S. Department of Housing and Urban Development


Acronyms List                                                          vii
ICE         Immigration and Customs Enforcement
IG          Inspector General
IRS         Internal Revenue Service
KDHAP       Katrina Disaster Housing Assistance Program
MAP         Multifamily Accelerated Processing
MTW         Moving to Work
NAHRO       National Association of Housing and Redevelopment Officials
OA          Office of Audit
OI          Office of Investigation
OIG         Office of Inspector General
OMB         Office of Management and Budget
OTND        Officer/Teacher Next Door
PCIE/ECIE   President’s Council on Integrity and Efficiency/Executive Council on
            Integrity and Efficiency
PFCRA       Program Fraud Civil Remedies Act
PHA         Public Housing Authorities
PHSI        Public Housing Safety Initiatives
PIH         Office of Public and Indian Housing
REO         Real Estate Owned
RHIIP       Rental Housing Integrity Improvement Project
RIGA        Regional Inspector General for Audit
SA          Special Agent
SAC         Special Agent in Charge
SBA         Small Business Administration
SFA         Supervisory Forensic Auditor
SSA         Social Security Administration
SSN         Social Security Number
TSA         Transportation Security Administration
USAO        U.S. Attorney’s Office
USDA        U.S. Department of Agriculture
USMS        U.S. Marshals Service
USPS        U.S. Postal Service
USPIS       U.S. Postal Inspection Service
VA          U.S. Department of Veterans Affairs




viii                                                                Acronyms List
Table of Contents
Executive Highlights                                                     1
Chapter 1 - HUD’s Single Family Housing Programs                        7
     Audits                                                             8
     Investigations                                                    13
Chapter 2 - HUD’s Public and Indian Housing Programs                   25
     Audits                                                            26
     Investigations                                                    40
Chapter 3 - HUD’s Multifamily Housing Programs                         71
     Audits                                                            72
     Investigations                                                    78
Chapter 4 - HUD’s Community Planning and Development Programs          85
     Audits                                                            86
     Investigations                                                    96
Chapter 5 - Hurricane Relief Oversight                                103
     Introduction and Background                                      105
     Audits                                                           109
     Investigations                                                    111
Chapter 6 - Other Significant Audits and Investigations/OIG Hotline   119
     Audits                                                           120
     Investigations                                                   124
     OIG Hotline                                                      126
Chapter 7 - Outreach Efforts                                          129
     Single-Family Housing Programs                                   130
     Public Housing and Rental Assistance Programs                    133
     Community Planning and Development                               137
     Law Enforcement Outreach                                         138
     Audit Outreach                                                   140
     HUD Staff and Other Outreach                                      141
Chapter 8 - Review of Policy Directives                               145
     Proposed Legislation                                             146
     Final Rule                                                       147
     Proposed Rules                                                   147
Chapter 9 - Audit Resolution                                          149
     Significant Management Decision with Which OIG Disagrees         151
     Federal Financial Management Improvement Act of 1996             151
Appendix 1 - Audit Reports Issued                                     153
Appendix 2 - Tables                                                   161
Appendix 3 - Index                                                    181
HUD OIG Operations Telephone Listing                                  185

Table of Contents                                                       ix
Reporting Requirements
    The specific reporting requirements as prescribed by the Inspector General Act of
         1978, as amended by the Inspector General Act of 1988, are listed below:
Source/Requirement                                                                    Pages
Section 4(a)(2)-review of existing and proposed legislation and regulations.           144-148
Section 5(a)(1)-description of significant problems, abuses, and                 1-127, 144-148
deficiencies relating to the administration of programs and operations
of the Department.
Section 5(a)(2)-description of recommendations for corrective action with                7-127
respect to significant problems, abuses, and deficiencies.
Section 5(a)(3)-identification of each significant recommendation      Appendix 2, Table B
described in previous semiannual report on which corrective action has
not been completed.
Section 5(a)(4)-summary of matters referred to prosecutive authorities                   7-127
and the prosecutions and convictions that have resulted.
Section 5(a)(5)-summary of reports made on instances where information            No Instances
or assistance was unreasonably refused or not provided, as required by
Section 6(b)(2) of the Act.
Section 5(a)(6)-listing of each audit report completed during the                  Appendix 1
reporting period, and for each report, where applicable, the total dollar
value of questioned and unsupported costs and the dollar value of
recommendations that funds be put to better use.
Section 5(a)(7)-summary of each particularly significant report                          7-127
and the total dollar value of questioned and unsupported costs.
Section 5(a)(8)-statistical tables showing the total number of              Appendix 2, Table C
audit reports and the total dollar value of questioned and
unsupported costs.
Section 5(a)(9)-statistical tables showing the total number of audit        Appendix 2, Table D
reports and the dollar value of recommendations that funds be put
to better use by management.
Section 5(a)(10)-summary of each audit report issued before the             Appendix 2, Table A
commencement of the reporting period for which no management
decision had been made by the end of the period.
Section 5(a)(11)-a description and explanation of the reasons for                 No Instances
any significant revised management decisions made during the
reporting period.
Section 5(a)(12)-information concerning any significant management                         151
decision with which the Inspector General is in disagreement.
Section 5(a)(13)-the information described under section 05(b) of the                      151
Federal Financial Management Improvement Act of 1996.

x                                                                      Reporting Requirements
Executive Highlights
Strategic Initiative 1
HUD Strategic Goal: Increase Homeownership Opportunities
    OIG Strategy: Contribute to the Reduction of Fraud in Single-Family
    Insurance Programs through

    - Audits uncovering single-family and loan origination abuse
    - Audits of the U.S. Department of Housing and Urban Development's (HUD) internal
      policies to determine whether controls are adequate
    - Regional single-family mortgage fraud task forces
    - Inspections and evaluations of program areas
    - Outreach to industry and consumer groups and the Department

    Highlights: Results or Impact of Significant OIG Work
    - Recommended HUD correct program weaknesses to ensure that                    page 9
      manufactured housing foundations meet FHA requirements.
    - Recommended HUD initiate settlement negotiations with Suburban              page 10
      Mortgage for actual and potential losses on loans involving overvalued
      condominiums loans with significant underwriting deficiencies.
    - Recommended HUD establish and implement procedures to better                page 12
      accomplish HUD's goals regarding its real estate-owned properties.
    - $2.5 million forfeited and more than 2 years imprisonment imposed in a      page 14
      loan origination scam
    - Underwriter pleas guilty - HUD losses exceed $9.8 million                   page 14
    - HUD direct endorsement lender goes to prison                                page 19
    - Real Estate Settlement Procedures Act violators ordered to pay HUD          page 22
      more than $200,000
    - HUD issued a final rule regarding seller-funded downpayment assistance     page 147

    Areas of OIG Interest

    - FHA modernization program: risk and fraud potential
    - Downpayment assistance: seller-funded downpayments
    - Control of loan case binders: policy and procedure deficiency
    - Risk involved in zero downpayment
    - Challenges resulting from an increase in FHA-insured Home Equity Conversion
      Mortgages (also known as "reverse mortgages")
    - Risk-based premium pricing and FHA refinancing of subprime loans (FHA Secure)
    - Gulf Coast States Homeowner’s Assistance programs




Increasing
Homeownership Opportunities
2                                                                      Executive Highlights
Strategic Initiative 2
 HUD Strategic Goal: Promote Decent Affordable Housing
 OIG Strategy: Contribute to the Reduction of Erroneous Payments in Rental
 Assistance Programs through

  - Audits of Section 8 Housing Choice Voucher program activities
  - Investigative initiative against corruption in the management of troubled public
    housing authorities (PHA)
  - Regional Rental Assistance Fraud Initiative
  - Public Housing Fugitive Felon Initiative: identify, arrest, and remove
  - Sex Offender Initiative: identify, arrest, and remove
  - U.S. Department of Justice (DOJ) Public Housing Safety Initiative
  - Inspections and evaluations of program areas
  - Public and department-wide outreach initiatives

 Highlights: Results or Impact of Significant OIG Work
  - Identified excessive assistance payments due to payments for units not        page 27
    meeting minimum housing quality standards (HQS), errors in tenant files,
    and lack of controls
  - Property manager wearing prison garb after embezzling almost $1 million       page 41
  - 31 New York City Housing Authority tenants arrested for theft of              page 46
    government funds
  - Federal employees who bilk the system                                         page 66
  - You can run but you cannot reside: HUD OIG works with U.S. Marshals           page 68
    Task Force, arrests 676 fugitive felons; 64 in HUD-assisted housing

 Areas of OIG Interest

  - Nursing homes: equity skimming
  - Adequacy of HQS inspections
  - Public corruption and mismanagement in the operations of public housing and
    multifamily projects
  - Enterprise Income Verification System (EIV): long-term effectiveness
  - HUD oversight of performance-based contract administrators
  - Overpayments in Section 8 due to “Overhousing”: providing more bedrooms than
    needed
  - Disaster Housing Assistance Program (DHAP)




Promote
Decent Affordable Housing
Executive Highlights                                                                        3
Strategic Initiative 3
    HUD Strategic Goal: Strengthen Communities
    OIG Strategy:
    - Promote Integrity, Efficiency, and Effectiveness of Programs
    - Contribute to the Reduction of Fraud, Waste, and Abuse through

    - Audits of the Community Development Block Grant (CDBG), Supportive Housing
      Program, and HOME program
    - Investigative initiative against corruption in administration of State or local community
      planning and development programs in each OIG region
    - Nationwide Hurricane/Disaster Relief Fraud program
    - Inspections and evaluations of program areas
    - Public dissemination of HUD OIG activities and outreach activities with State and
      local government agencies
    - Department liaison
    - Audits of Gulf Coast activities

    Highlights: Results or Impact of Significant OIG Work
    - Health care officials cause HUD losses greater than $18.4 million                 page 79
    - Hidden costs to paint apartments                                                 page 79
    - Theft from the elderly                                                           page 80
    - Promissory notes hide scheme - HUD loss is $1.9 million                          page 83
    - Recommended grantees reimburse the CDBG program and provide                      page 87
      supporting documentation for unsupported expenditures
    - Former mayor admits to extortion                                                 page 99

    Areas of OIG Interest

    - Community planning and development performance monitoring
    - Matching funds: grantee misuse of Federal funds
    - Gulf Coast hurricane assistance fraud




Strengthen
Communities
4                                                                           Executive Highlights
Strategic Initiative 4
 HUD Strategic Goal: Embrace High Standards of Ethics,
 Management, and Accountability

 OIG Strategy:
 - Be a Relevant and Problem-Solving Advisor to the Department
 - Contribute to Improving HUD's Execution and Accountability of Fiscal
   Responsibilities through
  - Audits of HUD's financial statements
  - Audits of HUD's information systems and security management
  - Implementation of DOJ Procurement Fraud Task Force at HUD
  - Operation FedRent: identifying Federal employees improperly receiving rental
    assistance

 Highlights: Results or Impact of Significant OIG Work
  - Recommended HUD improve controls over it's contract administration        page 120
    processes
  - Recommended HUD implement adequate procedures and controls to             page 121
    ensure that program offices comply with HUD's succession plans.
  - Recommended HUD properly meets its information security                   page 123
    responsibilities.

 Areas of OIG Interest

  - Ethics and accountability in contracting
  - Security and data integrity
  - Management of human capital
  - Risks in information technology: vulnerabilities and security
  - FHA management controls
  - Funds control/budgeting for Section 8 project-based contracts
  - Monitoring of Ginnie Mae issuers for potential defaults




Embrace High Standards of Ethics,
Management, and Accountability
Executive Highlights                                                                     5
     Chapter 1




HUD’s Single-Family
 Housing Programs
    The Federal Housing Administration’s (FHA) single-family programs provide
mortgage insurance to mortgage lenders that, in turn, provide financing to enable
individuals and families to purchase, rehabilitate, and construct a home. In addition
to the audits and investigations described in this chapter, the Office of Inspector
General (OIG) has also conducted numerous outreach efforts. (see chapter 7, page 130)

Audits

                Strategic Initiative 1: Contribute to the Reduction of Fraud
                           in Single-Family Insurance Programs
     Key program results             Questioned costs             Funds put to better use
Audit            9 Audits                $1,640,674                    $46,387,668
                  page 9        - Title II Manufactured Housing Loans
     Our          page 9        - Mortgagees, Loan Correspondents, and Direct
    focus                         Endorsement Lenders
                  page 11       - Single-Family Real Estate-Owned Property Sales




                                 A Look Back for the Year
            Chart 2.1: Percentage of OIG Single-Family Housing Audit Reports,
                                      Performed FY 07
                                                                                       Region 1
                                                                                      Boston 6%

                                               Region 5              Region 2
                                              Chicago 6%           New York 0%
                         Region 7-8
                       Kansas City 28%




                                                                                     Region 3
                                                                                 Philadelphia 18%




       Region 9-10                                                        Region 4
     Los Angeles 18%                                                     Atlanta 6%
                                                 Region 6
                                              Fort Worth 18%




8                                                          HUD’s Single-Family Housing Programs
Title II Manufactured Housing Loans
    The U.S. Department of Housing and Urban Development (HUD) OIG, Kansas
City, MO, audited the HUD Title II manufactured housing loan program to determine
whether and to what extent the FHA Title II insured manufactured huosing loans meet
the foundation requirements.

    Of the FHA Title II insured manufactured housing loans that closed from 2003
through 2005, at least 50,000 (or more than 80 percent of the financed manufactured
homes) were installed on substandard foundations. As a result, FHA's insurance fund is
not adequately protected, homeowner equity and resale values are diminished, and the
structural integrity and safety of the homes is questionable.

    OIG recommended that HUD correct program weaknesses to ensure that Title II
manufactured housing foundations meet FHA requirements and avoid unnecessary
losses to the insurance fund of an estimated $44.9 million over the next year. (Audit
Report: 2007-KC-0004)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG, Kansas City, MO, reviewed 205 FHA loan files to determine whether
they included the required engineer's certification of the property foundation. FHA
rules require lenders to provide the certification confirming that the foundation
complies with FHA requirements.

   Lenders submitted 21 of the loans for endorsement without submitting the
engineer's certification.

    OIG recommended that HUD seek indemnifications and recovery of losses incurred
from the responsible lenders unless the lenders can provide the required certifications.
(Audit Report: 2007-KC-0801)

Mortgagees, Loan Correspondents, and Direct
Endorsement Lenders
    Audits to uncover single-family lenders and loan origination abuses continued to
be a priority during this semiannual period. Lenders are targeted for audit through the
use of data mining techniques, along with prioritizing audit requests from outside
sources. During this period, HUD OIG reviewed six FHA single-family mortgage
lenders. While OIG's objectives varied by auditee, the majority of the reviews were to
determine whether the mortgage lender complied with HUD's regulations, procedures,
and instructions for the underwriting of FHA loans and to determine whether the
mortgage lender's quality assurance plan met HUD's requirements. The following
section illustrates the audits conducted in the single-family mortgage lender area.

    HUD OIG audited Suburban Mortgage, Inc., a HUD-approved direct endorsement
lender in Phoenix, AZ. Special emphasis was placed on the adequacy of Suburban's
review of appraisals related to FHA-insured mortgages on individual units in two
condominium complexes.

HUD’s Single-Family Housing Programs                                                  9
    Suburban did not adequately review selected condominium appraisals and did not
comply with HUD requirements in the origination of FHA-insured single-family
mortgages. As a result, HUD insured mortgages on 38 properties that were overvalued
by approximately 40 percent, some of which did not have occupancy authorization
from the City of Phoenix. The property overvaluations resulted in a corresponding
overinsurance of the FHA-insured mortgages and an increased risk to HUD.
Additionally 7 of the 48 mortgages reviewed had significant underwriting deficiencies
that should have precluded their approval and submission to HUD for insurance.

    OIG recommended that HUD initiate settlement negotiations with Suburban,
requesting reimbursement and/or indemnification for HUD's actual and potential losses
on the 38 loans involving the overvalued condominiums and the seven loans that had
significant underwriting deficiencies. Additionally, OIG recommended that Suburban
be required to obtain new appraisals on other FHA-insured mortgages that it
originated, involving the two appraisers and the seller involved with the condominium
projects reviewed, and that appropriate administrative action be taken against the two
appraisers for their failure to follow HUD appraisal requirements. (Audit Report:
2007-LA-1011)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited single-family loan origination at the Renton, WA, branch of
Countrywide Home Loans, Inc. The Renton branch did not comply with HUD
requirements in originating 5 of 22 FHA-insured loans. By not establishing that the
borrowers had the ability and willingness to repay the mortgage debt and that the
insured property was sufficient collateral for the loan, the Renton branch exposed the
FHA insurance fund to an unnecessary risk of more than $740,000, the total insured
amount for the five loans.

    OIG recommended that HUD require Countrywide to correct the deficiencies or
indemnify HUD for the five loans with original insured amounts totaling more than
$740,000. The projected loss is nearly $208,000 or 29 percent of the total unpaid
balance on the five loans. (Audit Report: 2007-SE-1002)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Plymouth Meeting, PA, branch of Countrywide Home Loans,
Inc. The branch office generally complied with HUD regulations, procedures, and
instructions in the origination and quality control review of FHA-insured single-family
loans. However, it did not properly verify the borrower's assets for 2 of the 10 loans
reviewed, which were valued at nearly $257,000, causing an unnecessary risk to the FHA
insurance fund.

     OIG recommended that HUD require Countrywide to indemnify almost $257,000
for the two loans, which it issued contrary to HUD's loan origination requirements, and
develop internal procedures to more closely monitor its underwriting process. (Audit
Report: 2007-PH-1010)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○



10                                                    HUD’s Single-Family Housing Programs
   HUD OIG reviewed the operations at the Waters Edge branch of Alethes
Mortgage, LLC, located in Dallas, TX, due to its high default rate. The branch operated
under the name Waters Edge Mortgage, LLC.

    Alethes did not notify HUD about one loan that contained an irregularity,
conducted incomplete quality control reviews, and closed loans with underwriting
deficiencies. By not alerting HUD to potential fraud or serious violations, Alethes
increased the risk to the FHA insurance fund.

   OIG recommended that HUD require Alethes to indemnify one loan and
ensure that it complies with HUD's underwriting requirements. (Audit Report:
2007-FW-1010)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    During the audit of Alethes Mortgage, LLC, in Dallas, TX (Audit Report:
2007-FW-1010), HUD OIG noted that a loan that closed in November 2005 and
defaulted in April 2006 contained a questionable rent verification. While the loan was
originated by Alethes, it was underwritten by SecurityNational Mortgage Company.
Due to this condition and HUD's not being able to provide the case file, OIG did not
include this loan in the audit findings on Alethes. OIG requested that the HUD
review this loan and determine whether it should be indemnified. (Audit Report:
2007-FW-1801)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG reviewed branch number 358 of Countrywide Home Loans, Inc., a direct
endorsement lender in Houston, TX. The branch generally complied with HUD
regulations, procedures, and instructions in the origination of FHA-insured single-family
mortgages. Nine of the ten loan files reviewed contained minor deficiencies; however,
one of the files contained significant deficiencies, which placed the FHA insurance fund
at unnecessary risk.

    OIG recommended that HUD require the branch to indemnify it for one loan with
an original mortgage amount of more than $112,000 that contained significant
deficiencies and to improve its policies, procedures, and controls to ensure that FHA-
insured loans are originated, processed, and underwritten according to HUD
requirements. (Audit Report: 2007-FW-1009)

Single-Family Real Estate-Owned Property Sales
    HUD OIG audited HUD's oversight of management and marketing contractors
under the jurisdiction of HUD's Philadelphia Homeownership Center in Philadelphia,
PA, to determine whether HUD ensured that the contractors marketed HUD's real
estate-owned properties in accordance with their contract requirements.

   HUD's Philadelphia Homeownership Center's oversight of its contractors did not
ensure the effective marketing of HUD's real estate-owned properties. Its contractors
routinely failed to meet their marketing performance requirements. Marketing


HUD’s Single-Family Housing Programs                                                   11
performance failed to meet targets because the sales goals and other objectives
measured under contract terms were inconsistent with local market conditions and
inflexible. Center staff monitored performance monthly, as required, but without overall
positive impact on inventory reduction, improved return on sales, or increased owner
occupancy of HUD real estate-owned properties. As a result, the Philadelphia
Homeownership Center did not fully accomplish HUD's national goals to expand
homeownership opportunities, strengthen neighborhoods and communities, and
ensure a maximum net return to the mortgage insurance fund.

    OIG recommended that HUD establish and implement procedures to address cases
in which contractors demonstrate a pattern of not meeting their contract requirements,
assess its policies, and revise them as needed to improve the contractors' performance
and, thereby, better accomplish HUD's goals regarding its real estate-owned
properties. (Audit Report: 2007-PH-0002)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




12                                                    HUD’s Single-Family Housing Programs
Investigations
   Some investigations discussed in this report were generated from leads provided
by HUD single-family housing program staff or conducted jointly with Federal, State,
and local law enforcement agencies. The results of various significant investigations are
described below.

               Strategic Initiative 1: Contribute to the Reduction of Fraud
                          in Single-Family Insurance Programs
   Key program              Cases                 $                  Convictions/pleas/           Admin/civil
     results                closed            Recovered                  pretrials                  actions
  Investigations              171            $64,045,525                       102                       118
                           page 14       - Loan Origination Fraud
                           page 19       - Identity Fraud and False Social Security Numbers
     Our focus
                           page 22       - Bankruptcy Fraud
                           page 22       - Other Single-Family Fraud




                             A Look Back for the Year
    Chart 2.2: Percentage of OIG Single-Family Housing Closed Investigation
                             Cases, Performed FY 07*
                                                                                                        Region 1
                                                                                                       Boston 5%

                                                        Region 5                    Region 2
                                                       Chicago 22%                New York 14%
                            Region 7-8
                          Kansas City 12%




                                                                                                      Region 3
                                                                                                  Philadelphia 14%




      Region 9-10                                                                          Region 4
    Los Angeles 14%                                                                       Atlanta 7%
                                                           Region 6
                                                        Fort Worth 12%


* This does not include cases in which funds misused came from Congress for hurricane relief.
(see chapter 5 for these cases)




HUD’s Single-Family Housing Programs                                                                                 13
Loan Origination Fraud
    Donald Fazio, the former branch manager and loan officer at Brucha Mortgage Bank
(Brucha), was sentenced in U.S. District Court, Brooklyn, NY, to 30 months
incarceration and 3 years probation and ordered to forfeit nearly $2.6 million and pay
HUD $708,378 and Stewart Title $440,387 in restitution for his earlier guilty plea to
conspiracy and money laundering. In addition, Gary Konstantin, also a former branch
manager and loan officer at Brucha previously sentenced for his earlier guilty pleas to
conspiracy, money laundering, and wire and insurance fraud, was debarred from
procurement and nonprocurement transactions as a participant or principal with HUD
and throughout the Executive Branch of the Federal Government for an indefinite
period. Fazio, Konstantin, and others completed minimal property renovations and
submitted false loan documents and appraisals to obtain FHA-insured mortgages and
then flipped the properties and skimmed construction funds. HUD realized losses of
$11.6 million after 58 mortgages defaulted.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   JaVeena Harris, an underwriter at First National Funding Company, pled guilty in
U.S. District Court, Newark, NJ, to falsification of records. Harris falsified
employment documents used by borrowers who obtained FHA-insured mortgages.
HUD realized losses of more than $9.8 million after 66 mortgages defaulted.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Esperanza Espinoza, Jesus Jose Olivas, and Pedro Rodriguez, employees of Number
1 L.A. Real Estate, were each sentenced in U.S. District Court, Los Angeles, CA, for
their earlier guilty pleas to conspiracy, false statements, wire fraud, or money
laundering. Espinoza was sentenced to 3 years probation and 200 hours of community
service and ordered to pay HUD $301,608 in restitution, Olivas was sentenced to 4
months incarceration and 3 years supervised release and ordered to pay HUD $215,726
in restitution, and Rodriguez was sentenced to 3 months incarceration and 3 years
supervised release. Olivas purchased and resold properties to straw borrowers who
obtained FHA-insured mortgages, Espinoza prepared or purchased fraudulent
documents for unqualified borrowers who obtained FHA-insured mortgages, and
Rodriguez laundered property sales proceeds through a casino in Las Vegas, NV. HUD
realized losses in excess of $2.9 million after 189 mortgages defaulted.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Benedicta Gomez, owner of One Service, Inc., was sentenced in U.S. District Court,
Denver, CO, to 30 days incarceration and 3 years supervised release and ordered to pay
HUD $94,386 in restitution for her earlier guilty plea to wire fraud. Gomez prepared
fraudulent tax returns used by unqualified and undocumented immigrants who
obtained FHA-insured mortgages. HUD realized losses of $2.4 million after 51
mortgages defaulted.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




14                                                    HUD’s Single-Family Housing Programs
    Frank Mazzarese, a former loan officer at RBC Mortgage, and Raul Raygoza, an
employee of Friends Furniture, were each sentenced in U.S. District Court, Rockford,
IL, for their earlier guilty pleas to conspiracy. Mazzarese was sentenced to 4 years
probation and ordered to perform 150 hours of community service and pay HUD
$30,044 in restitution. Raygoza was sentenced to 5 years probation and ordered to
pay HUD $149,227 in restitution. Mazzarese, Raygoza, and others conspired to
provide or approve false employment, income, or other documents for unqualified
borrowers who obtained FHA-insured mortgages. HUD realized losses in excess of $2
million after more than 40 mortgages defaulted.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Trudy M. Peters, a former escrow officer at Ticor Title Agency; Tony Vasquez, a
former housing counselor at Chicanos Por La Causa; and Maria Felix, an assistant at
Sahara Investments, each pled guilty in U.S. District Court, Phoenix, AZ, to making
false statements to HUD or conspiracy to make false statements to defraud HUD.
Peters, Vasquez, Felix, and others conspired to defraud HUD's "preforeclosure"
program when they submitted fraudulent appraisals, falsified counseling certification
forms, or concealed debt encumbering properties. HUD realized losses in excess of
$1.8 million after 65 mortgages defaulted.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Nina Cameron, a former loan officer with Acclaim Mortgage; Odie Webster, a former
realtor with Metro Brokers; and Sandra Lindsey, a former FHA-insured mortgagor, were
each sentenced in U.S. District Court, Denver, CO, for their earlier guilty pleas to
conspiracy, making false statements, or aiding and abetting. Cameron was sentenced
to 6 months home detention and 60 months probation and ordered to pay HUD
$123,595 in restitution, Webster was sentenced to 4 months home detention and 60
months probation and ordered to pay HUD $75,551 in restitution, and Lindsey was
sentenced to 12 months probation. From February 1999 to July 2004, Cameron,
Webster, and others submitted or caused the submission of fraudulent documents for
Lindsey and other unqualified borrowers who obtained FHA-insured mortgages. HUD
realized losses in excess of $1.3 million after 40 mortgages defaulted.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Devon Bowie, the former president of Neighborhood Mortgage Bankers; Keith Miles,
owner of Mid-South Atlantic Asset Holding Company; and Peter Port, owner of Port
Abstract, each sentenced in U.S. District Court, Newark, NJ, for their earlier guilty
pleas to providing false statements, were debarred from procurement and
nonprocurement transactions as a participant or principal with HUD and throughout
the Executive Branch of the Federal Government for 3 to 5 years. Bowie, Miles, Port,
and others submitted false loan documents and appraisals for unqualified borrowers
who obtained FHA-insured mortgages. HUD realized losses in excess of $1.2 million
after 33 mortgages defaulted.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Single-Family Housing Programs                                               15
    Gilbert Lugo, a former owner of Benefit Escrow, was sentenced in U.S. District Court,
Los Angeles, CA, to 6 months home detention and 3 years probation and ordered to
pay HUD $972,162 in restitution for his earlier guilty plea to conspiracy, making false
statements, and aiding and abetting. Lugo conspired with others and provided
downpayment funds for unqualified borrowers who obtained FHA-insured mortgages.
HUD realized losses of $618,678 after 43 mortgages defaulted.

                                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Michael O'Keefe, Jr., owner of Citywide Mortgage Company,
was indicted in U.S. District Court, New Orleans, LA, for
conspiracy, money laundering, mail fraud, and aiding and
abetting. In addition, Calvin Davis, doing business as The
Cowboy Institute, Brothers Helping Brothers, and Dreamboat
Enterprises; Michelle Cochrane, a former loan processor and
underwriter at Citywide; Robert Green, doing business as
Parkway Tax Service and Fast Tax; and straw borrower Timothy
Falls each pled guilty to conspiracy or providing false statements
to HUD and the Internal Revenue Service. Falls was sentenced
to 6 months home confinement with electronic monitoring and
60 months probation and ordered to pay HUD $2,000 in
restitution. O'Keefe allegedly conspired with others to recruit
straw borrowers, inflate appraisals, and provide fraudulent
documents for unqualified borrowers who obtained FHA-
insured mortgages; Davis, Cochrane, and Green conspired with
others to recruit straw borrowers and underwrite FHA-insured
mortgages containing fraudulent documents; and Falls, acting
as a straw borrower, obtained and later defaulted on an FHA-
insured mortgage. HUD realized losses of $600,000 after 11
properties defaulted.

                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Alan Mason, a closing attorney doing business as Alan
Mason Legal Services, Inc., pled guilty in U.S. District Court,
Worcester, MA, to wire fraud and Federal income tax evasion.

                                                                            Copyright, 2007. The Times-
                                                                            Picayune - New Orleans, LA.
                                                                              Reprinted with permission.




       Copyright, 2007. Telegram & Gazette - Worcester, MA. Reprinted
       with permission.

16                                                            HUD’s Single-Family Housing Programs
Mason closed both FHA-insured and conventional loans, failed to pay more than $6.2
million to mortgage lien holders, and then used loan closing funds for business or
personal expenditures. HUD realized losses of $406,450 after Mason failed to
eliminate three FHA-insured liens.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Mario Mendoza, a former real estate broker at Weichart Realty sentenced in U.S.
District Court, Newark, NJ, for his earlier guilty plea to theft by deception, was
debarred from procurement and nonprocurement transactions as a participant or
principal with HUD and throughout the Executive Branch of the Federal Government
for 3 years. Mendoza and others submitted fraudulent loan documents for unqualified
borrowers who obtained FHA-insured mortgages. HUD realized losses in excess of
$349,000 after 12 mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Calvin Dalton, president of RETI Relocation Services; Larry Frazier, owner of Larry
Frazier Realty; certified appraisers Demetri Coffee, Paul Jaretsky, Rhonda Kent, and
David Bobo; and closing attorney James Stovall III each pled guilty in U.S. District Court,
Atlanta, GA, to conspiracy, money laundering, misprision of a felony, or bank or wire
fraud. From April 2000 to September 2001, the above defendants and others created
or submitted false documents or appraisals to assist straw borrowers who obtained
more than $20 million in mortgage loans. HUD realized losses of $300,000 after two
FHA-insured mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Peter Gatsch and David Sonner, former owners or officers of Illinois Energy
Contractors Inc. (IECI), each agreed to perform 100 hours of community service in
pretrial diversion agreements filed in U.S. District Court, Chicago, IL. Gatsch and
Sonner admitted to paying approximately $200,000 in kickbacks to property owners
who contracted home improvement services through IECI after the homeowners
obtained FHA-insured home improvement loans.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Pam Joi Smith, a loan officer at Countrywide Home Loans, Inc., pled guilty in U.S.
District Court, Newark, NJ, to wire fraud. Smith processed FHA-insured and
conventional mortgage loan applications that contained false income or asset
information. HUD realized losses of $197,643 after eight FHA-insured mortgages
defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Morgan Haines, a real estate investor sentenced in U.S. District Court, Buffalo, NY,
for his earlier guilty plea to conspiracy to provide false statements to HUD, was
debarred from procurement and nonprocurement transactions as a participant or
principal with HUD and throughout the Executive Branch of the Federal Government


HUD’s Single-Family Housing Programs                                                     17
for 3 years. In addition, Theodore Antonucci, Jr., a real estate investor sentenced for his
earlier guilty plea to conspiracy to commit bank fraud, was debarred from
procurement and nonprocurement transactions as a participant or principal with HUD
and throughout the Executive Branch of the Federal Government for 10 years. Haines,
Antonucci, Jr., and others purchased homes in the Rochester, NY, area, flipped the
properties to each other at inflated values, and then provided false documents to
secure and later default on FHA or conventional mortgages. HUD realized losses of
$186,475 after two FHA-insured mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Angela Sommers, owner of Sommers Financial, was sentenced in U.S. District Court,
Los Angeles, CA, to 5 months incarceration and 3 years supervised probation for her
earlier guilty plea to wire fraud and aiding and abetting. Sommers and others
purchased and used fraudulent documents to assist unqualified borrowers in obtaining
FHA-insured mortgages. HUD realized losses of $185,818 after 26 mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Laura Jeanne Barlow, a former underwriter at Main Street Mortgage Service and
Ark Mortgage, sentenced in U.S. District Court, Newark, NJ, for her earlier guilty plea
to conspiracy to provide false statements, was debarred from procurement and
nonprocurement transactions as a participant or principal with HUD and throughout
the Executive Branch of the Federal Government for 3 years. Barlow used her position
and in exchange for compensation, approved unqualified borrowers for FHA-insured
mortgages. HUD realized losses in excess of $76,000 after six mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    David M. Sutton, Jr., pled guilty in U.S. District Court, Richmond, VA, to making
false statements to HUD. Sutton submitted false income documents to obtain and
later default on an FHA-insured mortgage. HUD realized a loss of $58,000 after his
mortgage defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    James Boyle, a loan officer at RBC Mortgage, pled guilty in U.S. District Court,
Rockford, IL, to mail fraud. Boyle created and supplied fraudulent brokerage account
statements or falsified employment documents for unqualified borrowers who obtained
FHA-insured mortgages. HUD realized losses of $52,648 after two mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Michael Lock and Jerhonda McCray, owners of World Financial Mortgage; Kevin
Slamann, Lisa Colella, and Nicole Brown, closing agents at Excell Closing Services,
Harvard Title, Metro Title, or Nations Title; Monique Dunlop and Krista Jeray, loan
officers at Mortgage Exchange; Ruben Fields, an appraiser at Express Valuation;
Chianti Clay; and Marcus Leonard were each indicted in U.S. District Court,
Milwaukee, WI, for committing wire, mail, and bank fraud. The above defendants


18                                                     HUD’s Single-Family Housing Programs
allegedly provided fraudulent loan documents and appraisals for straw borrowers who
obtained FHA-insured or conventional mortgages on properties they leased to
Milwaukee Housing Authority Section 8 tenants. HUD losses are not yet determined.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    John Morris, a former appraisal coordinator for now-defunct N.J. Affordable Homes
(NJAH), and William Page, an NJAH appraiser, each pled guilty in U.S. District Court,
Newark, NJ, to conspiracy to commit wire or mail fraud. Morris retained NJAH
appraisers who prepared false appraisals for nominee properties, and Page provided
false appraisals for borrowers who obtained FHA-insured or conventional mortgages.
HUD losses are not yet determined.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Corwin Johnson pled guilty in U.S. District Court, Buffalo, NY, to bank fraud,
aiding in the preparation of a fraudulent Federal income tax return, and violating his
supervised probation. Johnson and others prepared and submitted false Federal
income tax returns and other documents for unqualified borrowers who obtained
FHA-insured mortgages. HUD losses are not yet determined.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Laura Figueroa, owner of Rough Edges, LLC, and
other businesses, pled guilty in U.S. District Court,
Bristol, CT, to mail fraud and conspiracy to file false
claims for Federal income tax refunds. Figueroa and
others prepared false employment documents for
unqualified borrowers who obtained FHA-insured
mortgages and submitted false Federal income tax
returns using the identities of others. HUD losses are
not yet determined.

Identity Fraud and False Social
Security Numbers
     David Calderon, owner of Atlas Home Loans, a
HUD direct endorsement lender; his wife and Atlas
office manager Baneza Calderon; his brother and Atlas
loan officer Carlos Calderon; and Atlas loan processor
Robert Cardenas were each sentenced in U.S. District
Court, Grand Terrace, CA, for their earlier guilty pleas
to making false statements, conspiracy, or misprision
of a felony. David Calderon was sentenced to 24
months incarceration and 36 months supervised release        Copyright, 2007. Hartford Courant -
and ordered to pay HUD more than $1.8 million in             Hartford, CT. Reprinted with
restitution, Baneza Calderon was sentenced to 36             permission.




HUD’s Single-Family Housing Programs                                                               19
months supervised release and ordered to perform 360 hours of community service
and pay HUD $370,354 in restitution, Carlos Calderon was sentenced to 10 months
incarceration and 36 months supervised release and ordered to pay HUD $273,690 in
restitution, and Cardenas was sentenced to 36 months supervised probation and
ordered to pay HUD $720,278 in restitution. David, Baneza, and Carlos Calderon and
Cardenas created fraudulent identification and employment documents for
unqualified or straw borrowers who obtained FHA-insured mortgages. HUD realized
losses in excess of $2.7 million after 42 mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Rosemary Diaz, a real estate agent at Familia Realty, pled guilty in U.S. District
Court, Los Angeles, CA, to mail fraud and aiding and abetting. From September 1998
to January 2002, Diaz and others created or provided false identification, employment,
credit, and other information to assist unqualified borrowers who obtained FHA-
insured mortgages. HUD realized losses greater than $900,000 after 18 mortgages
defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Edgar De la Rosa, Maria de los Angeles Mendez, Manuel Barron-Salcido, and Ruben
Magdaleno Martinez each pled guilty in Colorado State District Court, Golden, CO, to
forging checks or commercial instruments or attempted forgery. De La Rosa,
Barron-Salcido, and Martinez were each sentenced to 36 months incarceration and 36
months probation, and Mendez was sentenced to 45 days each incarceration and
probation. The above defendants provided false SSNs and forged documents to obtain
and later default on FHA-insured mortgages. HUD realized losses of $400,000 after
nine mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Seven FHA-insured mortgagors were charged in Collin, Rockwall, or Ellis County
District Courts, Rockwall or Collin County, TX, with securing execution of
documents by deception. The above defendants allegedly used false SSNs and other
documents to obtain and later default on FHA-insured mortgages. In addition, Ignacio
Juan Jasso, a real estate broker and former loan officer at JR Mortgage, pled guilty in
U.S. District Court, Dallas, TX, to making false Federal credit institution entries,
reports, and transactions; and six FHA-insured mortgagors pled guilty to securing
execution of documents by deception and were each sentenced to 24 months
probation and collectively fined more than $3,060. Jasso assisted unqualified
borrowers who obtained FHA-insured mortgages, and the remaining defendants used
false SSNs and other documents to obtain and later default on FHA-insured mortgages.
HUD realized losses in excess of $285,845 after six mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Sonia Toledo, a former loan officer at Building & Loan Mortgage Company, and
Doris and Sylvia Toledo, realtors doing business as El Grupo Toledo, were each charged
in Kansas District Court, Olathe, KS, with theft, making a false writing, conspiracy, and


20                                                     HUD’s Single-Family Housing Programs
computer crimes. From 2002 to 2005, Sonia, Doris, and Sylvia Toledo allegedly
assisted undocumented immigrants who used false SSNs and obtained FHA-insured
mortgages. HUD realized losses of $131,385 after three mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Claudia Hernandez-Martinez, also known as Claudia Hernandez or Claudia
Martinez, and Concepcion Hernandez-Herrera, also known as Claudia Hernandez or
Claudia Hernandez H, each pled guilty in Colorado District Court, Brighton, CO, to
conspiracy to offer a false instrument for recording. The above defendants provided
fraudulent SSNs to obtain and later default on FHA-insured mortgages. HUD realized
losses in excess of $120,000 after both mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Rudean Cooper was sentenced in Montgomery County Circuit Court, Rockville,
MD, to 36 months supervised probation and ordered to perform 240 hours of
alternative community service and pay court costs for her earlier guilty plea to identity
theft. Cooper also provided $25,000 to HUD as settlement for a Program Fraud Civil
Remedies Act lawsuit. Cooper used a fraudulent SSN to obtain and later default on an
FHA-insured mortgage. HUD realized a loss of $58,742 after his mortgage defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Yolanda Weatherspoon was indicted in Franklin County Circuit Court, Rocky
Mount, VA, for making false statements, forgery, and obtaining a Department of
Motor Vehicle document by fraud. Weatherspoon allegedly used a fraudulent SSN to
obtain and later default on an FHA-insured mortgage. HUD realized a loss of $37,000
after her mortgage defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Rodolfo Campos, Orlando Garcia, and Norma Cortez were each indicted in U.S.
District Court, Plano, TX, for making false statements to HUD, use of fraudulent
identification documents, and Social Security Administration (SSA) fraud. Campos,
Garcia, and Cortez allegedly used false SSNs to obtain and later default on an
FHA-insured mortgage. HUD realized a loss of $35,000 after their mortgage defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Gennaro Thompson was sentenced in Prince George’s County District Court,
Upper Marlboro, MD, to 20 years incarceration (suspended except for one day) and 3
years probation and ordered to pay HUD $4,426 in restitution for his earlier guilty
plea to aggravated theft over $500 and identity fraud. Thompson used the identity of
his son and provided fraudulent documents to obtain and later default on an
FHA-insured mortgage. HUD realized a loss of $4,426 after his mortgage defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Single-Family Housing Programs                                                   21
   Undocumented immigrants Alberto and Mabel Gutierrez were each sentenced in
U.S. District Court, Harrisonburg, VA, to 6 months incarceration and 12 months
probation, fined $3,000, and ordered to eliminate their FHA-insured mortgage and
undergo deportation hearings for their earlier guilty pleas to making false statements
to HUD. Alberto and Mabel Gutierrez used false SSNs or Immigration and
Naturalization resident alien cards to obtain and later refinance an FHA-insured
mortgage.

Bankruptcy Fraud
    Donna Renae Woods Lawrence, also known as Donna Willis, the former president
of Assurety Mortgage Group, Inc. (Assurety), pled guilty in U.S. District Court,
Atlanta, GA, to conspiracy and false bankruptcy declarations. Lawrence used a stolen
SSN and obtained HUD approval to originate FHA-insured mortgages through Assurety,
fraudulently eliminated the security interest of prior lenders and received proceeds
from multiple loans on the same properties, and then filed false bankruptcy petitions
to delay lender foreclosures on mortgages valued at approximately $3.6 million. HUD
realized losses in excess of $330,000 after five mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    John Cash, also known as Typhon Ra and doing business as Lake Shore Group, was
sentenced in U.S. District Court, Chicago, IL, to 135 months incarceration and 6 years
probation and ordered to pay numerous homeowners $187,604 in restitution for his
earlier guilty plea to bankruptcy and wire fraud. Cash collected monthly mortgage
payments from more than 30 distressed FHA, Department of Veterans Affairs (VA), or
conventional mortgagors and then failed to make their mortgage payments and filed
fraudulent bankruptcy petitions unbeknownst to the homeowners. HUD realized losses
of approximately $125,000 after five FHA-insured mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Carlos Castelan pled guilty in U.S. District Court, Salt Lake City, UT, to making
false statements and destroying, altering, or falsifying records in a bankruptcy or
Federal investigation. Castelan used a false SSN when he obtained an FHA-insured
mortgage and filed for bankruptcy. HUD realized a loss of $62,000 after his mortgage
defaulted.

Other Single-Family Fraud
    Real estate investors Jill and Colin Reilly and Alexis and Josh Smith each pled guilty
in U.S. District Court, Tucson, AZ, to submitting false statements to HUD and FHA
Preforeclosure Real Estate Settlement Procedure Act violations. The above defendants
were each sentenced to one year probation, and Colin Reilly was ordered to pay HUD
$238,283 in restitution. Jill and Colin Reilly and Alexis and Josh Smith failed to report
payments to and from homeowners on HUD-1 settlement statements.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




22                                                     HUD’s Single-Family Housing Programs
    Steven Marquez, a former loan officer at Primera Mortgage Company, pled guilty
in Cook County Circuit Court, Chicago, IL, to theft. Marquez was sentenced to 3
years probation and ordered to pay HUD $70,000 in restitution. Marquez deceived
two property owners and acquired ownership rights to their properties and then sold
the properties to borrowers who obtained new FHA-insured mortgages. The original
property owners believed they were refinancing their mortgages when they signed
documents and assigned their homeownership rights to Marquez. HUD realized losses
of $70,000 after both mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Carlos West, a teacher and HUD Officer/Teacher Next Door (O/TND) program
participant, entered into a civil settlement agreement filed in U.S. District Court,
Chicago, IL, and agreed to pay the U.S. Department of Justice $45,000. West
obtained a HUD-owned property through the O/TND program but failed to report his
ownership of additional real estate leased to Chicago Housing Authority Section 8
tenants on HUD certifications.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Annabel Villalobos, a correctional officer for the California Department of
Corrections and HUD Good Neighbor Next Door (GNND) program participant,
entered into a civil settlement agreement filed in U.S. District Court, Bakersfield, CA,
and paid HUD $29,000, the discounted amount for property she obtained through the
GNND program. From September 2003 to January 2006, Villalobos failed to report
her nonresidency in her GNND property on HUD certifications.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Lamont Harris, a former public school guidance counselor and HUD O/TND
program participant, was sentenced in U.S. District Court, Norfolk, VA, to 3 months
home detention and 3 years probation, fined $2,500, and ordered to pay HUD $23,500
in restitution for his earlier guilty plea to making false statements to HUD. Harris failed
to report his nonresidency in his O/TND property on HUD certifications.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Kristine Knowles, a teacher and HUD O/TND program participant, was named in a
civil complaint filed in U.S. District Court, Chicago, IL. Knowles allegedly failed to
report her ownership of additional real estate and her nonresidency in her O/TND
property on HUD certifications. HUD loss is estimated at $17,500.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Terry January, a Los Angeles County deputy sheriff and HUD O/TND program
participant, was convicted in U.S. District Court, Los Angeles, CA, of making false
statements. January failed to report his ownership of additional residential real estate
and his nonresidency in his O/TND property on HUD certifications. HUD loss is
estimated at $16,000.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

HUD’s Single-Family Housing Programs                                                    23
    Real estate consultant Donovan Gilpin, doing business as Pre Amble Properties,
and realtor Rohan A. Johnson, also known as Ato Ra Ajah El, were each sentenced in
U.S. District Court, Central Islip, NY, for their earlier guilty pleas to theft of
government property, conspiracy to commit mail fraud, or converting and conveying
property owned by HUD without authority. Gilpin was sentenced to 38 months
incarceration and 36 months supervised release and ordered to pay the victim $116,500
in restitution. Johnson was sentenced to 46 months incarceration and 36 months
supervised release and ordered to pay the above restitution jointly and severally with
Gilpin. Gilpin and Johnson, members of an antigovernment Moorish rights group, filed
fraudulent real estate deeds transferring the ownership of three HUD-owned, one
VA-owned, and one bank-owned property to Pre Amble Properties; illegally resided in
two HUD-owned properties; and then sold the bank-owned property to an
unsuspecting buyer and attempted to sell HUD- and VA-owned properties to
undercover operatives. The fraudulent deeds prevented HUD from selling its
properties to legitimate buyers and banks from deeding foreclosed properties to HUD.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Real estate investor Dariusz Przybylek, sentenced in U.S. District Court, Chicago,
IL, to 21 months incarceration and 3 years supervised release for his earlier guilty plea
to wire fraud, was arrested for failing to report to serve his sentence. Przybylek
attempted to use a straw buyer to purchase a HUD-owned property for 150 percent of
the HUD appraised value by submitting fraudulent contractor affidavits and loan
documents and an inflated appraisal provided by previously indicted Erwin Espe, a
former HUD-approved appraiser. Przybylek attempted to complete the above
transaction to facilitate his receipt of $113,000 in rehabilitation funds through a straw
contractor.




24                                                     HUD’s Single-Family Housing Programs
       Chapter 2




HUD’s Public and Indian
  Housing Programs
    The U.S. Department of Housing and Urban Development (HUD) provides grants
and subsidies to 4,111 public housing agencies (PHA) nationwide. Many PHAs
administer both public housing and Section 8 programs. HUD also provides assistance
directly to PHAs' resident organizations to encourage increased resident management
entities and resident skills programs. Programs administered by PHAs are designed to
enable low-income families, the elderly, and persons with disabilities to obtain and
reside in housing that is safe, decent, sanitary, and in good repair. In addition to the
audits and investigations described in this chapter, the Office of Inspector General (OIG)
has also conducted numerous outreach efforts. (see chapter 7, page 133)

Audits
           Strategic Initiative 2: Contribute to the Reduction of Erroneous
                             Payments in Rental Assistance
     Key program results             Questioned costs            Funds put to better use
 Audit         30 Audits                 $16,659,793                  $105,843,606
                 page 27        - Section 8 Housing Choice Voucher Program Activities
  Our                             at PHAs
 focus
                 page 34        - Public Housing Program Activities



                             A Look Back for the Year
      Chart 3.1: Percentage of OIG Public and Indian Housing Audit Reports,
                                 Performed FY 07
                                                                                       Region 1
                                                                                      Boston 3%

                                               Region 5              Region 2
                                              Chicago 21%          New York 7%
                         Region 7-8
                       Kansas City 10%




                                                                                     Region 3
                                                                                 Philadelphia 14%




       Region 9-10                                                       Region 4
     Los Angeles 19%                                                    Atlanta 12%
                                                  Region 6
                                               Fort Worth 14%




26                                                     HUD’s Public and Indian Housing Programs
Section 8 Housing Choice Voucher Program Activities at
PHAs
    Audits of the Section 8 Housing Choice Voucher program were a priority during
this semiannual reporting period. PHAs were selected for audit based on risk analysis
and/or hotline complaints. While OIG's objectives varied by auditee, the majority of
the reviews were to determine whether the units met housing quality standards, whether
the PHA managed the program according to HUD requirements, and whether the
eligibility of the tenants was correctly determined. The following section illustrates
the audits conducted in the Section 8 Housing Choice Voucher program area.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG, Washington, DC, conducted a nationwide audit of the Housing Choice
Voucher program to determine the extent to which PHAs paid excessive subsidies for
families that were housed in rental units with more bedrooms than authorized
(overhousing). OIG also wanted to identify the causes of such overhousing and to
evaluate HUD's approach to reducing the frequency and extent of overpayments that
can result.

   PHAs nationwide paid excess subsidies totaling an estimated $20 million for more
than 16,500 families to reside in assisted units with more bedrooms than people in the
family.

    OIG recommended that HUD issue additional guidance to address evaluating
reasonable accommodations requests and submitting accurate data to HUD. OIG also
recommended that HUD incorporate data analysis designed to identify and correct
overhousing and related data errors into its risk assessment and monitoring
methodologies. (Audit Report: 2007-FW-0001)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Section 8 housing quality standards inspections of the
Housing Authority of the County of Los Angeles, Los Angeles, CA. The Authority did
not complete timely housing quality standards inspections. Of 68 program units
reviewed, 50 did not meet HUD's housing quality standards.

    OIG recommended that HUD require the Authority to (1) implement adequate
procedures and controls to ensure that units meet HUD's housing quality standards to
prevent $11.5 million in program funds from being spent on units that are in material
noncompliance, (2) verify and certify that the owners took appropriate corrective
actions for all applicable housing quality standards violations and abate the rents or
terminate the housing assistance payments contracts if appropriate actions were not
taken, and (3) develop adequate controls to enforce implementation of policies and
procedures to ensure that program units are inspected at least annually to meet HUD's
housing quality standards before housing assistance payments are dispersed. (Audit
Report: 2007-LA-1007)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


HUD’s Public and Indian Housing Programs                                           27
     HUD OIG audited the Section 8 Housing Choice Voucher program of the Newport
News Redevelopment and Housing Authority, Newport News, VA,. The Authority did
not operate its program in accordance with HUD requirements and regulations. It
failed to ensure that its program housing stock met housing quality standards, did not
adequately support housing assistance payments, and incorrectly calculated housing
assistance payments. Of the 66 housing units inspected, 54 did not meet HUD's
housing quality standards, and 28 had 98 violations that existed at the time of the
Authority's previous inspection. This condition resulted in almost $111,000 in housing
assistance payments and administrative fees paid by HUD for units that were not
decent, safe, and sanitary. Additionally, 48 of the 74 tenant files reviewed did not
contain the documentation required by HUD and the Authority's program
administrative plan, resulting in more than $262,000 in unsupported housing
assistance payments and administrative fees. The Authority also incorrectly calculated
housing assistance payments, resulting in almost $8,000 in overpayments and more
than $7,000 in underpayments.

    OIG recommended that HUD require the Authority to (1) ensure that housing units
inspected during the audit are repaired to meet HUD's housing quality standards, (2)
implement adequate procedures and controls to ensure that program units meet
housing quality standards to prevent an estimated $4 million from being spent on units
with material housing quality standards violations, (3) reimburse its program from
nonfederal funds for the improper use of program funds, (4) provide documentation
or reimburse its program from nonfederal funds for unsupported housing assistance
payments and administrative fees, and (5) repay housing assistance overpayments
and reimburse tenants for housing assistance underpayments. (Audit Report:
2007-PH-1009)




     Copyright, 2007. Daily Press - Newport News, VA. Reprinted with permission.

                                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




28                                                           HUD’s Public and Indian Housing Programs
    HUD OIG audited the Housing Authority of the City of North Las Vegas, North
Las Vegas, NV. The Authority did not follow HUD requirements when administering
its Section 8 Housing Choice Voucher program funds. Although the Authority had
$4.4 million in program funds and related interest to house additional eligible
participants, its Section 8 program was significantly underleased. As a result, eligible
Section 8 participants were denied the opportunity to seek safe, decent, and quality
housing under the program.

   OIG recommended that HUD require the Authority to implement adequate
controls and procedures to ensure that it does not underlease its Section 8 Housing
Choice Voucher program. (Audit Report: 2007-LA-1015)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG reviewed the Housing Choice Voucher program of the Housing
Authority of the County of San Mateo, Belmont, CA. The Authority did not use HUD
program funds in accordance with requirements. It used more than $573,000 in
Housing Choice Voucher program funds to overlease the Moving to Work
Demonstration (MTW) program and improperly implemented an MTW preference in
its Housing Choice Voucher program that impacted 71 families on the Housing Choice
Voucher program waiting list. The Authority improperly loaned $1.4 million in
Housing Choice Voucher program funds to pay for construction costs of the El Camino
Village low-rent public housing project and $500,000 in Midway Village
Comprehensive Improvement Assistance Program grant funds to reimburse the
Housing Choice Voucher program for its El Camino Village project construction cost
overruns. In addition, it transferred nearly $116,000 in portability administrative fees
to its nonfederal account and overdrew its Housing Choice Voucher program
operating reserve.

    OIG recommended that HUD require the Authority to (1) reimburse the Housing
Choice Voucher program from the MTW program or from nonfederal funds for the
overleasing of the MTW program and reimburse more than $1.23 million used to house
MTW program participants moved to the Housing Choice Voucher program, (2)
reimburse the Housing Choice Voucher program $1.4 million plus interest from
nonfederal funds, (3) reimburse Midway Village $500,000 plus interest from nonfederal
funds, (4) reimburse the Housing Choice Voucher program nearly $116,000 plus
interest from nonfederal funds, and (5) implement controls and establish policies and
procedures for the accounting and use of Housing Choice Voucher program operating
reserves. (Audit Report: 2007-LA-1014)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Housing Choice Voucher program of the Dayton
Metropolitan Housing Authority, Dayton, OH. None of the 59 housing units selected
for inspection met HUD's housing quality standards, and 56 of the units had 214
violations that existed at the time of the Authority's previous inspections. OIG
estimates that over the next year, HUD will pay nearly $1.8 million in housing
assistance payments for units with material housing quality standards violations. In
addition, five units that failed quality control inspections also failed reinspections, but


HUD’s Public and Indian Housing Programs                                                29
the Authority failed to abate the program rents for the units, resulting in an improper
payment of nearly $3,900 in housing assistance and administrative fees. The Authority
also incorrectly calculated households' payments, resulting in nearly $39,000 in
overpayments and more than $1,500 in underpayments. OIG estimates that over the
next year, when corrective actions are taken, the Authority will overpay more than $1
million in housing assistance and utility allowances. Further, of the 67 household files
reviewed, 37 did not contain documentation required by HUD and the Authority's
program administrative plan to support more than $254,000 in housing assistance and
utility allowances.

    OIG recommended that HUD require the Authority to reimburse its program from
nonfederal funds for the improper use of more than $63,000 in program funds, provide
documentation or reimburse its program more than $282,000 from nonfederal funds
for the unsupported housing assistance payments and administrative fees, and
implement adequate procedures and controls to address the findings identified to
prevent nearly $1.8 million from being spent on units with material housing quality
standards violations and more than $1 million in excessive housing assistance. (Audit
Report: 2007-CH-1008)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Housing Choice Voucher program of the Housing
Commission of Anne Arundel County, Glen Burnie, MD. The Commission did not
always operate its program in accordance with HUD requirements and regulations. It
did not always ensure that its program housing stock met housing quality standards.
Of the 61 units inspected, 35 did not meet HUD's housing quality standards, and 30
had 117 material violations that existed on or before the Commission's previous
inspections. The Commission paid nearly $117,000 in housing assistance for the 30
units with material violations. The Commission also did not always properly perform
rent reasonableness determinations for units it owned and, therefore, could not
support more than $733,000 in housing assistance payments. Lastly, the Commission
did not properly administer its Family Self-Sufficiency program and as a result, did not
ensure that more than $215,000, which it paid to program participants, was proper.

    OIG recommended that HUD require the Commission to reimburse its program
from nonfederal funds for the improper use of funds paid for 30 units with 117 material
violations of housing quality standards and provide documentation or reimburse its
program from nonfederal funds for unsupported housing assistance payments and for
improper escrow payments made to participants in the Family Self-Sufficiency
program. OIG also recommended that HUD require the Commission to ensure that
program housing units inspected during the audit are repaired to meet HUD's housing
quality standards and implement adequate procedures and controls to ensure that
program units meet housing quality standards to prevent an estimated $2.1 million from
being spent on units with material housing quality standards violations. (Audit
Report: 2007-PH-1011)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




30                                                HUD’s Public and Indian Housing Programs
    HUD OIG audited the Housing Choice Voucher program of the Indianapolis
Housing Agency, Indianapolis, IN. The Agency failed to comply with HUD's
requirements and its cost allocation plan regarding the allocation of administrative
expenses. It did not document its initial allocation analysis in 2005, base allocations on
actual historical data, or update its allocation percentages for 2006. It used its restricted
program administrative fees to pay more than $1.6 million for expenses that exceeded
the program's reasonable fair share, allocated expenses that were unrelated to the
program's operation, and lacked documentation to support expenses incurred. OIG
estimates that over the next year the Agency will use more than $855,000 in fees for
expenses not related to its program.

    OIG recommended that HUD require the Agency to (1) reimburse its program
administrative fee reserve for the improper use of fees, (2) provide documentation to
support the reasonableness of the allocation of vehicle costs to its program or
reimburse its program administrative fee reserve from nonfederal funds for the improper
use of fees, and (3) implement adequate procedures and controls to ensure that it uses
an appropriate basis for allocating administrative expenses to its program and that
adequate expense documentation is maintained. (Audit Report: 2007-CH-1011)

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Housing Choice Voucher program of the Plymouth
Housing Commission, Plymouth, MI. The Commission's program administration
regarding documentation to support households' eligibility for housing assistance,
housing assistance and utility allowance payments calculations, the Family Self-
Sufficiency program, household portability, and the cost allocation plan for indirect
costs was inadequate. The Commission was unable to support more than $138,000 in
housing assistance and utility allowance payments, overpaid nearly $10,000 and
underpaid nearly $9,000 in housing assistance and utility allowances, lacked adequate
documentation to support nearly $1,900 in reduced housing assistance and utility
allowance payments, and failed to remove from its program households that did not
receive housing assistance for more than 180 days.

    Further, the Commission failed to administer its and the Dearborn Heights
Housing Commission's Family Self-Sufficiency programs according to the applicable
requirements and its family self-sufficiency action plan. As a result, the Commission
had nearly $930,000 in escrow funds that should have been paid to program
participants or reimbursed to the applicable program, misused $53,000 in Housing
Choice Voucher/Family Self-Sufficiency Program Coordinators funds, inappropriately
paid more than $14,000 in final escrow payments, could not support more than $13,000
in participants' escrow accounts, and overfunded and underfunded participants'
escrow accounts by more than $2,000.

   The Commission had weaknesses in the accuracy of housing assistance and
program administrative fee payments it made to receiving housing authorities for port-
out households. It also failed to establish an adequate cost allocation plan and
appropriately allocate indirect costs shared by all of the housing programs it
administered.



HUD’s Public and Indian Housing Programs                                                   31
    OIG recommended that HUD require the Commission to reimburse its program
from nonfederal funds for the improper use of program funds, reimburse its
Coordinators funds from nonfederal funds for incorrectly administering its Family Self-
Sufficiency program, provide support or reimburse its program from nonfederal funds
for the unsupported payments, and implement adequate procedures and controls to
address the findings identified. (Audit Report: 2007-CH-1012)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG completed a second audit of the Housing Choice Voucher program of
the Plymouth Housing Commission, Plymouth, MI. The Commission's program
administration regarding housing unit conditions, the effectiveness of its abatement
process, rent reasonableness determinations, zero-income households, and the
procurement of consulting services was inadequate. Of 61 units inspected, 42 did not
meet HUD's housing quality standards, and 38 had 181 health and safety violations that
existed at the time of the Commission's previous inspections.

    In addition, the Commission did not comply with its abatement process. Of the 40
program units that failed an annual housing or quality housing standards inspection
between October 2006 and April 2007, 13 units had emergency health and safety
violations that were not corrected in a timely manner. The Commission also failed to
abate the housing assistance for nine units and improperly abated the housing
assistance payments for eight units.

    The Commission also did not properly determine the reasonableness of program
rents before approving housing assistance contracts for all 66 household files reviewed
and did not adequately determine income for 7 of 25 households that reported zero
income. Further, it did not follow its own procurement policy when it acquired the
consulting services of The Schiff Group for the administration of its program.

    OIG recommends that HUD require the Commission to reimburse its program
from nonfederal funds for the improper use of nearly $61,000 in program funds and
implement adequate procedures and controls to address the findings cited. These
procedures and controls should help ensure that more than $1.4 million in program
funds is spent on housing units that meet HUD's requirements. We also recommend
that HUD restrict the Commission's ability to administer other HUD-funded programs
until the Commission substantially improves its program administration to ensure
compliance with applicable requirements. (Audit Report: 2007-CH-1016)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Housing Choice Voucher program at the Holyoke Housing
Authority, Holyoke, MA. The Authority generally administered the program
according to its administrative plan but not always in accordance with its annual
contributions contracts and HUD requirements. It did not (1) ensure that the required
documentation was maintained to support the eligibility of each tenant and its housing
assistance payments, (2) conduct rent reasonableness determinations according to HUD
requirements, (3) follow a prudent personnel practice regarding payment for unused



32                                                HUD’s Public and Indian Housing Programs
sick leave upon the death or retirement of an employee, and (4) always properly
allocate costs or account for interfund transfer transactions.

    OIG recommended that HUD require the Authority to (1) implement adequate
procedures and controls over its housing assistance payments, (2) establish controls to
ensure that rent reasonableness determinations are completed in accordance with HUD
requirements, (3) revise its sick leave policy with regard to its federal programs and
reimburse its programs nearly $398,000 in unreasonable costs for employees' unused
sick leave, and (4) provide support for or reimburse to HUD more than $354,000 in
unsupported administration costs and nearly $557,000 in interprogram transactions.
OIG also recommended that HUD recapture from the Authority nearly $107,000 in
administrative fees for not performing rent reasonableness determinations in
accordance with HUD's requirements. (Audit Report: 2007-BO-1008)

                                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Housing Choice Voucher program of the Peoria Housing
Authority, Peoria, IL. The Authority's program administration regarding housing unit
conditions and timeliness of annual housing unit inspections was inadequate. Of the 59
housing units inspected, 58 did not meet HUD's housing quality standards, and 28 had
88 exigent health and safety violations that existed at the time of the Authority's
previous inspections. The Authority also failed to ensure that its housing unit
inspections were conducted in a timely manner. Of the 3,062 unit inspections
conducted by the Authority from January 1, 2005, through January 31, 2007, 823 (26.8
percent) inspections were not conducted within the required one year of the previous
inspections. The number of days late ranged from 1 to 488, and 402 of the late
inspections were more than 30 days late.

    OIG recommended that HUD require the Authority to reimburse its program from
nonfederal funds for the improper use of nearly $107,000 in program funds and
implement adequate procedures and controls to address the issues identified. These
procedures and controls should help ensure that more than $1 million in program funds
is spent on housing units that meet HUD's requirements. (Audit Report:
2007-CH-1014)




  Copyright, 2007. The Peoria Journal Star - Peoria, IL. Reprinted with permission.

                                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○



HUD’s Public and Indian Housing Programs                                              33
    HUD OIG audited the Housing Choice Voucher program of the Madison County
Housing Authority, Collinsville, IL. Of the 48 housing units inspected, 40 did not
meet HUD's housing quality standards, and 35 had 264 violations that existed at the
time of the Authority's previous inspections. The Authority incorrectly calculated
households' payments, resulting in more than $39,000 in overpayments and $13,000 in
underpayments. It did not ensure that its households' files contained required
documentation to support housing assistance and utility allowance payments. Of the
88 files reviewed, 20 did not contain documentation required by HUD and the
Authority's program administrative plan to support more than $126,000 in housing
assistance payments. The Authority also failed to adequately use HUD's Enterprise
Income Verification system to determine that reported zero-income households had
unreported income, resulting in more than $14,000 in improper housing assistance
payments.

   OIG recommended that HUD require the Authority to (1) reimburse its program
from nonfederal funds for the improper use of program funds, (2) provide
documentation or reimburse its program from nonfederal funds for the unsupported
housing assistance payments and administrative fees, and (3) implement adequate
procedures and controls to address the findings identified to prevent more than
$784,000 from being spent on units with material housing quality standards violations
and excessive housing assistance. (Audit Report: 2007-CH-1010)

Public Housing Program Activities
   HUD OIG audited the Navajo Housing Authority's, Window Rock, AZ, use of
subgrantees for housing development projects to determine whether the Authority's
procedures for selecting and monitoring subgrantees were adequate to ensure
compliance with Native American Housing and Self-Determination Act (NAHASDA)
program requirements.

    The Authority's procedures for selecting and monitoring subgrantees failed to
ensure that NAHASDA funds were used in accordance with program requirements and
that housing production goals were achieved. As a result, the Authority failed to
prevent recurring problems, including extended project delays, unnecessary project
expenses, and misuse of NAHASDA grant funds by subgrantees and/or their
construction contractors. These failures resulted in increased costs, inefficient
housing production, and, ultimately, significantly fewer housing opportunities for the
intended program beneficiaries, Navajo citizens. For at least 14 housing projects, for
which more than $53 million has been allocated, the projects were either not started or
not finished, funds were misused by subgrantees and/or their contractors, or
construction or management problems threaten the long-term viability of the projects.

    OIG recommended that HUD require the Authority to (1) consider discontinuing
the use of subgrantees for housing development activities and establish a new strategy
for more efficient and effective housing development or (2) implement additional
controls to ensure that funds provided to subgrantees are used in accordance with
NAHASDA requirements and in a manner that will ensure performance and
management goals are achieved. (Audit Report: 2007-LA-1008)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

34                                                HUD’s Public and Indian Housing Programs
    HUD OIG audited the Housing Authority of the City of Asbury Park, Asbury Park,
NJ, to determine whether (1) capital funds were properly expended and obligated in
accordance with HUD requirements, (2) salaries and related benefits allocated to
different programs were reasonable and supported, and (3) controls over maintenance
and repairs were adequate.

    The Authority did not adequately administer its capital grant program. It did not
(1) disburse funds for administrative costs within budget limitations, (2) obligate
capital grant funds in a timely manner, and (3) use prudent procurement practices. In
addition, the Authority's employee compensation cost was not always reasonable and
supported, and it could not ensure that its preventive maintenance program was
effective. As a result, it did not operate in a manner that promoted the serviceability of
the projects.

    OIG recommended that HUD instruct the Authority to (1) reimburse HUD
for nearly $693,000 in excess administrative fees charged to the capital fund grant,
(2) reimburse HUD almost $722,000 related to the untimely obligation of capital funds,
(3) comply with Federal procurement requirements to ensure that the Authority
procures its goods and services in the most economical manner, (4) repay HUD more
than $190,000 for excessive employee compensation from nonfederal funds, and
(5) develop and implement procedures to ensure that units meet uniform physical
condition standards and repairs are completed and inspected before the work order is
closed. (Audit Report: 2007-NY-1006)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Housing Authority of the City of Hoboken, Hoboken, NJ,
to determine whether (1) the Authority administrated its capital grant program in
accordance with applicable HUD laws and regulations and (2) payments to the City of
Hoboken for police services were reasonable and supported.

   The Authority did not adequately administer its capital grant program. It used
almost $819,000 of its fiscal years 2000 through 2003 capital grant funds to pay
administrative and management improvement costs in excess of the limitations
imposed by HUD and transferred a total of more than $637,000 from its fiscal years
2003-01, 2004, and 2005 capital grants to pay operating expenses for its low-rent
public housing program. Further, the Authority made total payments of more than
$333,000 to the City for police services without obtaining or maintaining adequate and
complete documentation to support the payments.

    OIG recommended that HUD instruct the Authority to (1) reimburse the capital
fund program almost $819,000, (2) reduce the Authority's future capital grants by more
than $632,000, (3) transfer $5,000 from the low-rent public housing program to the
capital fund program, (4) establish and implement internal control policies and
procedures that will prevent funds allocated to site and unit improvements from being
used to pay the Authority's operating expenses, (5) provide HUD with adequate and
compete documents to support the total payments made to the City for police
services and have the City reimburse the Authority or provide the Authority with



HUD’s Public and Indian Housing Programs                                               35
comparable future services for any payments determined to be unsupported,
(6) establish and implement adequate internal control procedures to ensure that
contracts are conducted in compliance with HUD's requirements and Federal
regulations, and (7) ensure the accuracy of financial information entered into HUD
systems. (Audit Report: 2007-NY-1011)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Wilmington Housing Authority, Wilmington, NC, to
determine whether it violated requirements when it noncompetitively procured
services from its affiliate, Housing and Economic Opportunities, Inc., and whether it
returned program income to HUD in accordance with its up-front grant special
warranty deed.

    The Authority did not follow requirements for selection of its affiliated nonprofit
entity to be a development partner for two of its development projects. As a result, it
inappropriately paid its affiliate more than $296,000 in HOPE VI funds. Also, in
violation of its special warranty deed with HUD's Multifamily Property Disposition
Center, the Authority inappropriately allowed its affiliate to retain more than $1.2
million in program income it received from home sales.

    OIG recommended that HUD require the Authority to (1) repay $296,655 from
nonfederal funds to its HOPE VI program, (2) implement procedures to ensure that it
follows Notice: PIH-2007-15 for transactions with its affiliate, (3) return to HUD $1.2
million in program income received by its affiliate, and (4) implement procedures to
ensure that the affiliate recaptures home sales proceeds and returns the appropriate
amount to the Federal Housing Administration (FHA) insurance fund. OIG also
recommended that HUD take appropriate administrative action against the Authority
and affiliate for not complying with up-front grant special warranty deed requirements.
(Audit Report: 2007-AT-1011)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Harrisburg Housing Authority, Harrisburg, PA, to
determine whether it administered its low-rent public housing program in accordance
with HUD regulations.

    The Authority did not administer its low-rent public housing program in
accordance with HUD regulations. It improperly disbursed nearly $835,000 in
operating funds from its low-rent public housing program to open and support the
Greater Harrisburg Community Credit Union and allowed a related conflict-of-
interest situation to exist.

    OIG recommended that HUD review the issues and if appropriate, initiate action
to declare the Authority in substantial default of its consolidated annual contributions
contract and take appropriate administrative action as detailed in the contract. OIG
also recommended that HUD direct the Authority to repay its low-rent public housing
program from nonfederal funds for the ineligible disbursements related to the credit
union; develop and implement controls to ensure that disbursements of operating funds


36                                                HUD’s Public and Indian Housing Programs
are eligible and supported; and develop and implement controls to detect, prevent,
and resolve future conflict-of-interest situations. (Audit Report: 2007-PH-1013)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the District of
Columbia Housing Authority's, Washington,
DC, administration of its leased housing under
its MTW program to determine whether the
Authority adequately determined tenant
eligibility and properly calculated and
supported its leased housing assistance
payments.

    The Authority did not adequately
determine tenant eligibility and did
not properly calculate and support its
leased housing assistance payments. There
were problems in all 34 tenant files
reviewed. The files did not contain many of
the key documents required by HUD
and the Authority's administrative plan,
resulting in unsupported payments totaling
nearly $310,000. The Authority also failed          Copyright, 2007. The Washington Times -
to perform 5,038 (57 percent) of the 8,835       Washington, DC. Reprinted with permission.
tenant reexaminations required for fiscal year
2006 and incorrectly calculated housing assistance payments, resulting in more
than $25,000 in overpayments and more than $4,000 in underpayments.

     OIG recommended that HUD require the Authority to (1) support or reimburse
its program from nonfederal funds for the unsupported housing assistance payments
and administrative fees and reduce the Authority's fiscal year 2008 administrative
fees by an appropriate percentage for failing to perform the reexaminations and
(2) implement adequate procedures and controls to ensure that it follows HUD
requirements, performs required quality control reviews, and assigns sufficient staff to
administer its leased housing. OIG also recommended that the Authority reimburse
its program from nonfederal funds for the overpayment of housing assistance and
reimburse applicable tenants for housing assistance underpayments, thereby putting
these funds to better use. (Audit Report: 2007-PH-1008)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   HUD OIG audited the Butler Metropolitan Housing Authority's, Hamilton, OH,
5(h) homeownership and Turnkey III Homeownership Opportunity programs to
determine whether the Authority properly accounted for and used its programs'
proceeds in accordance with HUD requirements.

   The Authority failed to properly account for nearly $400,000 of the programs'
proceeds for more than 5 years because it commingled the proceeds with funds in its


HUD’s Public and Indian Housing Programs                                                37
retained earnings account. The $400,000 consisted of more than $166,000 in 5(h) sales
proceeds and nearly $232,000 in Turnkey III proceeds. The Authority also did not use
the 5(h) proceeds in a timely manner. As a result, the programs' proceeds were not
used to assist low- and moderate-income families.

    OIG recommended that HUD require the Authority to transfer from its retained
earnings account to the applicable accounts the 5(h) and Turnkey III proceeds plus
earned interest, submit a proposal(s) for HUD's approval on how the programs'
proceeds will be used, and implement procedures and controls to ensure that the
proceeds are used to support the development of affordable housing for low- and
moderate-income families in accordance with HUD requirements. (Audit Report:
2007-CH-1013)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Boyne City Housing Commission's, Boyne City, MI,
nonprofit development activities to determine whether the Commission diverted or
pledged resources subject to its annual contributions contract, other agreement, or
regulation for the benefit of non-HUD developments.

    The Commission defaulted substantially on its contract when it improperly pledged
resources for the benefit of the Boyne City Nonprofit Housing Corporation and the
Boyne City Housing Commission Limited Dividend Housing Association Limited
Partnership, organizations created by the Commission, without HUD approval. The
Commission obtained two bank loans to purchase 13.47 acres of land. The loans'
promissory notes included a provision that allowed the bank to set off the amounts
owed on the loans against any and all accounts the Commission had with the bank. As
of April 2007, the Commission owed more than $137,000 on two loans.

    The Commission failed to file a declaration of trust on the land to protect HUD's
interest and prevent a conveyance or encumbrance without HUD approval. It also did
not obtain HUD's approval to sell 4.82 acres of the land at more than $51,000 below fair
market value. Further, the Commission managed Deer Meadows, a 30-unit senior
housing project receiving Section 8 housing assistance from the Commission that the
Limited Partnership owned, and the Commission performed unit inspections, thus
creating a conflict of interest.

    OIG recommended that HUD require the Commission to (1) amend its
promissory notes to eliminate the setoff provision to prevent the seizure of the
Commission's funds in case of default on the notes, (2) file a declaration of trust on the
remaining land to protect HUD's interest, (3) reimburse the applicable program for
the sale of part of the land at below fair market value and the improper Section 8
administrative fees received related to Deer Meadows, (4) contract with an
independent third party to perform housing quality standards inspections of Deer
Meadows as required by HUD, and (5) implement adequate procedures and controls
to address the findings identified. OIG also recommended that HUD take appropriate
action against the Commission. (Audit Report: 2007-CH-1009)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○



38                                                 HUD’s Public and Indian Housing Programs
    HUD OIG audited the Housing Authority of DeKalb County's, Decatur, GA,
administration of its procurement and financial management systems to determine
whether the Authority has complied with its low-income program contractual and
regulatory requirements since being released from its memorandum of agreement with
HUD.

    The Authority did not adequately monitor contract payments and did not comply
with Federal requirements or its financial management policies. Its staff did not ensure
that its financial management policies were followed, nor did all staff follow the
established procedures for processing contract payments. As a result, the Authority
incurred more than $47,000 in ineligible costs and more than $36,000 in unsupported
public housing funds.

    OIG recommended that HUD require the Authority to repay its public housing
program for ineligible contract payments from nonfederal funds and either support
the unsupported contract payments or repay its public housing program from
nonfederal funds. HUD should also require the Authority to develop and implement
internal controls to ensure that contract payments are complete, accurate, and in
accordance with established procedures. In addition, HUD should ensure that the
financial management policies are followed and that all Authority staff follow the
established procedures when processing contract payment requests. (Audit Report:
2007-AT-1006)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Public and Indian Housing Programs                                             39
Investigations
    Some investigations discussed in this report were generated from leads provided
by HUD public and Indian housing program staff or conducted jointly with Federal,
State, and local law enforcement agencies. The results of various significant
investigations are described below.


            Strategic Initiative 2: Contribute to the Reduction of Erroneous
                              Payments in Rental Assistance
     Key program            Cases                $                 Convictions/pleas/            Admin/civil
       results              closed           Recovered                 pretrials                   actions
  Investigations              519            $7,939,052                       312                        578
                           page 41       - Public Housing Authority Theft/Embezzlement
                           page 46       - Rental Assistance Fraud
      Our focus
                           page 66       - Fed Rent Initiative
                           page 68       - Fugitive Felon Initiatives
                           page 70       - Other Fraud/Crimes




                           A Look Back for the Year
 Chart 3.2: Percentage of OIG Public and Indian Housing Closed Investigation
                           Cases, Performed FY 07*
                                                                                                        Region 1
                                                                                                       Boston 13%

                                                        Region 5                    Region 2
                                                       Chicago 14%                New York 10%
                             Region 7-8
                           Kansas City 7%




                                                                                                     Region 3
                                                                                                 Philadelphia 13%




       Region 9-10                                                                        Region 4
     Los Angeles 20%                                                                     Atlanta 12%
                                                           Region 6
                                                        Fort Worth 11%

* This does not include cases in which funds misused came from Congress for hurricane relief.
(see chapter 5 for these cases)


40                                                                HUD’s Public and Indian Housing Programs
Public Housing Authority Theft/Embezzlement
    William Moorehead, doing business as William Moorehead and Associates, was
sentenced in U.S. District Court, Chicago, IL, to 48 months incarceration and 36 months
supervised release and ordered to pay Marion Stamps Memorial Charity Fund $19,000
for his earlier guilty plea to wire fraud. Moorehead also agreed to pay to the U.S.
Treasury $2.8 million in restitution. Moorehead, a property manager for numerous
housing authorities and privately owned Section 8 housing developments, created
fraudulent records and money transfers to hide $995,000 in embezzled or misused HUD
funds.

                                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Carl Payne, the suspended Harrisburg Housing Authority (HHA) executive
director and Greater Harrisburg Community Credit Union (HCCU) president and chief
executive officer, was indicted in U.S. District Court, Harrisburg, PA, for making false
statements, providing false and misleading information, and obstruction of justice. Payne
allegedly diverted about $500,000 in HHA public housing funds to subsidize HCCU
without authorization or disclosure. HUD's Enforcement Center suspended Payne after
his indictment.

                                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Dora Perez, the former San Benito Housing Authority (SBHA) low-rent manager,
was sentenced in U.S. District Court, Brownsville, TX, to 24 months incarceration and
36 months probation and ordered to pay SBHA $273,591 in restitution for her previous
conviction of theft from a federally funded program. From 1998 to 2006, Perez
embezzled approximately $273,591 in tenant rents from Palmville I & II, SBHA senior
and disabled housing developments.




Copyright, 2007. San Benito News - San Benito, TX. Reprinted with permission.

                                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   William Dearman, the former Alexandria Redevelopment and Housing Authority
(ARHA) executive director, entered into a pretrial diversion agreement with the U.S.
Attorney's Office in Alexandria, VA, and admitted to violating HUD regulations and
the Virginia Public Procurement Act. Dearman circumvented procurement

HUD’s Public and Indian Housing Programs                                               41
regulations and awarded more than $190,000 in roofing contracts without
competition and then falsely certified ARHA annual contributions contracts. The
pretrial diversion agreement defers Dearman's prosecution for 24 months; prohibits
him from seeking or obtaining employment with any HUD-funded, -sponsored,
or -administered employer for 3 years; requires him to perform 50 hours of community
service; and orders him to pay the cost of prosecution.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Rebecca Sargeant, a former Springfield Housing Authority (SHA) accounts
receivable clerk, was indicted in U.S. District Court, Springfield, IL, for embezzlement
and theft of public monies. Sargeant allegedly prepared, endorsed, and negotiated
$168,000 in SHA checks for her personal use without authorization.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Eric Hurt, a former Hoboken Housing Authority (HHA) accounting manager, was
sentenced in U.S. District Court, Newark, NJ, to 41 months incarceration and 3 years
probation and ordered to pay HHA $111,083 and Montessori Day School $157,085 in
restitution for his earlier guilty plea to theft concerning programs receiving Federal
funds, filing false Federal income tax returns, and wire fraud. From July 2002 to
December 2003, Hurt embezzled $111,083 when he issued HHA checks to himself
without authorization, deposited the checks into his personal bank accounts, and then
used HHA funds for personal expenditures. Hurt also failed to report the embezzled
funds on his Federal income tax returns.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Brent Williams, the former Crow Creek Housing Authority (CCHA) executive
director; Alyce McGhee, the former CCHA finance officer; and former CCHA
employees Carla Big Eagle, Velsworth Hawk, and Terra Thompson were each indicted
in U.S. District Court, Sioux Falls, SD, for theft and conspiracy to embezzle from an
Indian tribal organization. From November 2004 through December 2005, the above
defendants allegedly submitted fictitious receipts and fabricated invoices to embezzle
$96,403 in CCHA funds.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Tracy Pewo, the former Kiowa Tribal Housing Program (Kiowa) executive
director, and Charles Stickler, a former Kiowa commissioner, were each indicted in U.S.
District Court, Oklahoma City, OK, for theft from an Indian tribal organization and
aiding and abetting. Stickler and Pewo allegedly took three motor vehicles purchased
with HUD funds and owned by the Kiowa Tribe of Oklahoma. HUD loss is estimated at
$87,455.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Ronnie Trahan, a former Opelousas Police Department (OPD) major, was sentenced
in U.S. District Court, Opelousas, LA, to 10 months home confinement and 60 months
probation and ordered to pay HUD $36,955 in restitution for his earlier conviction for

42                                                HUD’s Public and Indian Housing Programs
aiding and abetting in the filling of a false claim. From August 2000 through June 2003,
Trahan and previously convicted OPD chief Larry Caillier, while under a bicycle patrol
contract with Opelousas Housing Authority (OHA), submitted false time and
attendance reports to OHA and obtained $63,255 in HUD funding they were not
entitled to receive.

                                       ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Barbara Rawls-Ivy, the former executive director of Alliance for Strong
Communities (ASC), a Housing Authority for the City of New Haven (HANH)
nonprofit organization, was sentenced in U.S. District Court, Bridgeport, CT, to 30
days incarceration, 5 months home detention, and 3 years probation and ordered to
pay HANH $49,059 in restitution for her earlier guilty plea to theft from a program
receiving Federal funds. From 2001 through 2003, Rawls-Ivy prepared, endorsed, and
negotiated more than $49,000 in ASC checks for her personal use.




Copyright, 2007. New Haven Register - New Haven, CT. Reprinted with permission.

                                       ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Betty Trent, the former Brooksville Housing Authority (BHA) executive director,
was convicted in U.S. District Court, Tampa, FL, of conspiracy to defraud the U.S.
Government, wire fraud, theft concerning programs receiving Federal funds,
embezzlement of public money, making false claims and statements, and falsification of
Federal records in an investigation. From December 2001 to September 2006, Trent
and former BHA project manager Jo Ann Bennett created fabricated invoices and




Copyright, 2007. St. Petersburg Times - St. Petersburg, FL. Reprinted with permission.



HUD’s Public and Indian Housing Programs                                                 43
obtained more than $40,000 in BHA funds. Bennett was sentenced to 12 months and
one day incarceration and 36 months supervised release and ordered to pay BHA $40,650
in restitution for her earlier guilty plea to conspiracy to defraud the U.S. Government.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Faye Nystrom, the former Benson County Housing Authority (BCHA) executive
director, was sentenced in U.S. District Court, Grand Forks, ND, to 6 months
incarceration and 3 years probation and ordered to pay BCHA $82,558 in restitution
for her earlier guilty plea to embezzlement. From 2002 to 2004, Nystrom embezzled
$40,547 in BCHA funds and $23,983 in U.S. Department of Agriculture Rural
Development funds managed by BCHA. Nystrom's actions also caused BCHA to
expend $18,000 for audit expenses.

                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Anslem, Karen, and Rachelle Thompson, former employees
of Lukachukai Chapter Veterans Organization Service
Development, Inc., a nonprofit organization receiving Indian
Housing Block Grant funds from the Navajo Housing
Authority (NHA), were each indicted in U.S. District Court,
Phoenix, AZ, for conspiracy and embezzlement or theft from
an Indian tribal organization. From March 2000 through
November 2002, the above defendants allegedly embezzled
more than $42,000 in NHA funds for their personal use.

                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Frank Giannoccaro, a former Rochester Housing Authority
(RHA) contractor and owner of Plumbing and Construction,
Inc., pled guilty in U.S. District Court, Rochester, NY, to theft
of government funds. Giannoccaro submitted more than
$36,000 in fraudulent work orders and completion certifications
to RHA.

                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Cherilyn Bahe, a former administrative assistant for
Dzilna'adilii Management Corporation (DMC), a Navaho
Housing Authority contractor, pled guilty in U.S. District Court,
Albuquerque, NM, to forging endorsements on a private
entity check. Bahe forged authorized signatures on 31 DMC              Copyright, 2007. The Gallup
checks totaling $23,957 and then negotiated the checks                  Independent - Gallup, NM.
and used DMC funds for personal expenses.                               Reprinted with permission.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




44                                                   HUD’s Public and Indian Housing Programs
    Rosemary Kappes, the former Housing
Authority of Salt Lake City (HASLC)
executive director, was indicted in U.S.
District Court, Salt Lake City, UT, for
theft concerning programs receiving
Federal funds and mail and health care
fraud. Kappes allegedly used $22,000
in HASLC funds to obtain health insurance
benefits for her former spouse.

         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Guy Copes, the former Housing
Authority of the Town of Beaufort (HATB)
executive director, was charged in
Carteret County Superior Court, Beaufort,
NC, with larceny by an employee,
malfeasance of a corporate officer,
and embezzlement. Copes allegedly used
about $10,000 in HATB funds for personal
expenses.                                                 Copyright, 2007. The Salt Lake Tribune - Salt
                                                            Lake City, UT. Reprinted with permission.


                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Angelene Gaskins, a former Tampa Housing Authority (THA) project manager, was
arrested and charged in the Tenth Judicial Circuit County Court, Tampa, FL, with grand
theft and committing a scheme to defraud. Gaskins allegedly negotiated about $3,945
in THA tenant money orders or checks and used THA funds for personal expenses.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Tonya Cramier-Oncza, a former Westland Housing Commission (WHC)
bookkeeper, pled guilty in Wayne County Circuit Court, Detroit, MI, to
embezzlement and uttering and publishing a false document. Cramier-Oncza was
sentenced to 3 years supervised probation and ordered to pay WHC and the court
$1,140. Cramier-Oncza embezzled WHC funds when she diverted WHC tenant rents
into her personal bank account.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Bertha Muniz, the former Bayard Housing Authority (BHA) executive director, pled
guilty in Grant County State Court, Silver City, NM, to embezzlement. Muniz was
sentenced to 18 months probation and ordered to pay BHA $1,126 in restitution. Muniz
authorized BHA maintenance personnel to perform repairs at her and other BHA
employees' residences using materials purchased with BHA funds.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Public and Indian Housing Programs                                                           45
     Princess Reaves, a City of Paterson (Paterson) deputy court administrator, and
Victor Ortiz, a Paterson employee, were each indicted in U.S. District Court, Newark,
NJ, for soliciting and accepting bribes. In addition, Paterson Housing Authority
Section 8 caseworkers Marisol Cortez, Flora Cruz, and Elisa Griffin; Paterson
employees Marie Rosa, Yolanda Lane, and Javier Nunez; Paterson building inspector
Standley Williams; and Passaic Valley Water Commission employees Robert
Schweiderick and George Morgan each pled guilty to soliciting and accepting cash
payments intending to be influenced in connection with transactions of a local
government or agency or soliciting and accepting corrupt payments under color of
official right. Reaves and Ortiz allegedly and the remaining defendants admittedly
solicited and accepted bribes from an unnamed conspirator in exchange for steering
Section 8 tenants to specific properties, expediting building inspections, or rejecting
tenant complaints filed in municipal court. HUD losses are not yet determined.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Spencer Jenkins, owner of JP Services, a property management agent for Johnston
County Housing Authority (JCHA), and Patsy L. Narron, a mortgage loan settlement
agent, were each indicted in the Eleventh Judicial District Court, Smithfield, NC, for
obtaining property by false pretenses. Narron was also charged with larceny by an
employee. Jenkins and Narron allegedly provided false information and documents to
obtain mortgage loans on properties purchased through a straw borrower, and then
Jenkins allegedly placed JCHA Section 8 tenants in three of the fraudulently acquired
properties. HUD losses are not yet determined.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    James Lozano, a former project manager for Columbia Highlands Company, a
Housing Authority of New Orleans (HANO) subcontractor through Honore
Construction Company, was sentenced in U.S. District Court, New Orleans, LA, to 3
months incarceration and 9 months home confinement with electronic monitoring,
fined $5,000, and ordered to perform 100 hours of community service and pay Habitat
for Humanity $15,000 in restitution for his earlier guilty plea to soliciting and
accepting bribes. Lozano solicited and accepted bribes while working on a HANO
construction project.

Rental Assistance Fraud
     Thirty-one New York City Housing Authority (NYCHA) Housing Choice Voucher
program participants were arrested after their indictments in U.S. District Court,
New York City, NY, for theft of government funds. The above defendants
allegedly failed to report income on NYCHA certifications and obtained more than
$1.1 million in NYCHA housing assistance they were not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Anthony Morman, Keith Thacker, Lawrence Howard, John White, Corey Jones,
Jason Boyd, John Williams, Walter Powell, and Kameron Beckum, Indianapolis
Housing Authority (IHA) Section 8 landlords, were each charged in Marion County

46                                                HUD’s Public and Indian Housing Programs
Superior Court, Indianapolis, IN, with conspiracy to commit welfare fraud, welfare
fraud, and theft. The above defendants allegedly failed to report their criminal
histories or true property ownership, fraudulently purchased properties leased to IHA,
or omitted IHA housing contract payments on bankruptcy petitions. In addition,
Kimberly McGuire and Willie Ferrell, also IHA Section 8 landlords, were each charged
in Indiana Superior Court with welfare fraud and theft. McGuire and Ferrell allegedly
failed to report vacant, fire damaged, or ownership transfers of properties they leased
to IHA Section 8 tenants. Collectively, the above defendants obtained $677,634 in IHA
housing assistance contract payments they were not entitled to receive.

                                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Jozef Hajeczka, Etta May Morrison, and Blanca Martinez, also known as Mabel
Medina, former Yonkers Municipal Housing Authority (YMHA) Section 8 tenants, were
each arrested and charged in New York State Court, New York City, NY, with grand
larceny. Hajeczka, Morrison, and Martinez allegedly used false Social Security
numbers on YMHA certifications and obtained $127,640 in YMHA housing assistance
they were not entitled to receive. In addition, Denise Hendrickson-Peterkin, a former
YMHA Section 8 tenant, and her husband, Gary Peterkin, each pled guilty in
Westchester County Court to grand larceny and agreed to pay YMHA $64,000 in
restitution. Hendrickson-Peterkin failed to report her actual marital status or the
residency of her husband on YMHA certifications and obtained $64,000 in YMHA
housing assistance she was not entitled to receive. Collectively, the above defendants
caused HUD losses of $191,640.




Copyright, 2007. The Journal News - New York, NY. Reprinted with permission.
                                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    David Braun, Joseph Berger, Michael and Reizel Herman, and Moshe and Rachel
Huss, Kiryas Joel Housing Authority (KJHA) Housing Choice Voucher program
participants, were each arrested and charged in New York State Court, Monroe, NY,


HUD’s Public and Indian Housing Programs                                            47
with grand larceny. The above defendants allegedly failed to report income or assets on
KJHA certifications and collectively obtained about $181,000 in KJHA housing
assistance they were not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Ernestine Lewis and Julie Harris, former Chicago Housing Authority (CHA)
Section 8 tenants, were each sentenced in U.S. District Court, Chicago, IL, for their
earlier guilty pleas to theft or making false statements. Lewis was sentenced to 4 years
probation and ordered to pay HUD $38,679 in restitution. Harris was sentenced to 5
years probation and ordered to pay HUD $32,272 in restitution. Lewis, a Chicago
Police Department employee, simultaneously applied for and obtained about $66,014
in CHA public housing and Section 8 housing assistance, and Harris failed to report
income on CHA certifications and obtained $32,272 in CHA housing assistance she was
not entitled to receive. In addition, former CHA Section 8 tenant Lilia Pabon was
ordered to pay HUD $130,257 in a civil judgment arising from her previous conviction
for making false statements. Pabon failed to report income on CHA certifications and
obtained $75,572 in CHA housing assistance she was not entitled to receive.
Collectively, the above defendants caused HUD losses of $141,586.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Shannon Larkin, Carmaline Stewart, Maria Guadalupe Moreno, Dexter Prather,
Patricia Cooney, Roberta Martin, Sanya Smith, Barbara Robinson, and Rose Pires, San
Diego Housing Commission (SDHC) Section 8 tenants, were each charged in San Diego
County Superior Court, San Diego, CA, with making false statements and grand theft.
The above defendants allegedly failed to report employment, income, or unauthorized
residents on SDHC certifications and collectively obtained $122,795 in SDHC housing
assistance they were not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Ayub Abdul Aziz Smith, also known as Robert Smith; Tina Harring; Barbara
Singleton-Pradia; and Larry Pradia, former Rochester Housing Authority (RHA)
Section 8 tenants or landlord, were each sentenced in U.S. District Court, Rochester,
NY, for their earlier guilty pleas to conspiracy to commit HUD and Social Security
Administration (SSA) fraud or theft of government funds. Smith was sentenced to 5
years probation and ordered to pay HUD $14,163 and SSA $23,442 in restitution, Harring
was sentenced to 5 years probation and ordered to pay HUD $22,202 in restitution,
Singleton-Pradia was sentenced to 6 months home confinement and 5 years probation
and ordered to pay HUD $55,933 in restitution, and Pradia was sentenced to 5 years
probation and ordered to pay the above restitution jointly and severally with
Singleton-Pradia. The above defendants failed to report income or accurate household
composition on RHA certifications and collectively obtained $107,202 in RHA
housing assistance they were not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




48                                                HUD’s Public and Indian Housing Programs
     Mayra Montano, a former Islip Housing Authority (IHA) Section 8 tenant, pled
guilty in New York State Superior Court, Central Islip, NY, to grand larceny. Montano
failed to report her ownership of her IHA subsidized property and obtained $107,000
in IHA housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Diane Griggs, Tamika Issac, Emma Florence, and Koreen Scott, former Georgia
Department of Community Affairs (DCA) Section 8 tenants, were each indicted in U.S.
District or Coweta or Douglas County Courts, Macon, Newnan, or Douglas County,
GA, for false statements, theft by deception, or committing fraud in obtaining public
assistance. The above defendants allegedly failed to report income on DCA
certifications and obtained $73,809 in DCA housing assistance they were not entitled
to receive. In addition, Richard Swindle and Betty Jenkins, former DCA Section 8
tenants, each pled guilty to making false statements, theft by deception, and
committing fraud in obtaining public assistance. Swindle and Jenkins failed to report
income or actual household composition on DCA certifications and obtained $28,895
in DCA housing assistance they were not entitled to receive. Collectively, the above
defendants caused HUD losses of $102,704.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Niasha King, a St. John the Baptist Housing Authority (SJBHA) public housing
tenant; Joseph Pierre; and Orlando and B.J. Brown were each arrested and charged in St.
John Parish District Court, LaPlace, LA, with simple arson and conspiracy to commit
arson. King allegedly conspired with Pierre and Orlando and B.J. Brown to set a fire in
her SJBHA public housing unit. HUD realized losses in excess of $100,000 after the
fire destroyed two SJBHA public housing units.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Glory Ann Davenport, a former Tampa Housing Authority (THA) Section 8 tenant,
pled guilty in U.S. District Court, Tampa, FL, to theft of government funds. In
addition, THA Section 8 tenants Tara Roberts, Sherrine Roberts, and Damaryes
Villanueva were each sentenced for their earlier guilty pleas to committing public
assistance or organized fraud or a pretrial diversion agreement. Tara Roberts was
sentenced to 12 months house arrest and 14 years probation and ordered to perform 20
months community service and pay THA $21,548 in restitution, Sherrine Roberts was
sentenced to 60 months probation and ordered to pay THA $21,815 in restitution, and
Villanueva agreed to pay THA $7,181 in restitution. The above defendants failed to
report employment, income, accurate marital status, or their nonresidency in a
subsidized unit on THA certifications and collectively obtained $95,817 in THA
housing assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Henrietta Hartshorn, Belinda De Leon Gortarez, and Ernesto Rodriguez, former
Garden Grove Housing Authority (GGHA) Section 8 tenants, were each charged in



HUD’s Public and Indian Housing Programs                                            49
Orange County Superior Court, Westminster, CA, with grand theft. Gortarez pled
guilty and was sentenced to 6 months incarceration and ordered to pay the City of
Garden Grove $50,756 in restitution. Hartshorn and Rodriguez allegedly and Gortarez
admittedly failed to report their previous criminal history on GGHA certifications and
collectively obtained more than $90,000 in GGHA housing assistance they were not
entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Eleven Lucas County Metropolitan Housing Authority (LCMHA) Section 8
tenants and James Foster, an LCMHA landlord, were each charged in Lucas County
Court of Common Pleas, Toledo, OH, with theft, grand theft, and tampering with
records. The LCMHA Section 8 tenants allegedly failed to report income, accurate
household composition, or subleasing of their subsidized units on LCMHA
certifications; and Foster allegedly failed to report his residency in his leased LCMHA
subsidized unit. Collectively, the above defendants obtained $85,800 in LCMHA
housing assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Tawanda Gulley, a former Pinellas County Housing Authority (PCHA) Section 8
tenant, entered into a pretrial diversion agreement filed in U.S. District Court, Tampa,
FL, and agreed to 9 months of supervised probation and to pay HUD $12,319 in
restitution. In addition, Lucner St. Louis, an unauthorized resident in both PCHA and
Clearwater Housing Authority (CHA) public housing units, pled guilty to reentry of
an undocumented immigrant after deportation, immigration document fraud, and
aggravated identity theft; and former PCHA Section 8 tenant Lamesha Ware was
sentenced to 5 years probation and 6 months home detention and ordered to pay HUD
$36,997 in restitution for her earlier guilty plea to making false statements. Gulley
failed to report assets on PCHA certifications; St. Louis resided with his spouse in both
PCHA and CHA public housing units without authorization; and Ware obtained two
Florida drivers licenses showing different addresses and then conspired with her mother,
previously sentenced Saint Petersburg Housing Authority Section 8 tenant Mary
Martin, to obtain $16,900 in PCHA and $36,997 in Saint Petersburg housing assistance
they were not entitled to receive. Collectively, the above defendants caused HUD losses
in excess of $74,122.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Bonnie Thomas, a King County Housing Authority (KCHA) Section 8 tenant, and
Terrell Dorsey, an unauthorized resident in her KCHA subsidized unit, were each
charged in King County Superior Court, Seattle, WA, with theft. Thomas allegedly
failed to report Dorsey's residency or income on KCHA certifications and obtained
$16,680 in KCHA housing assistance she was not entitled to receive. In addition, Toma
Lelea, a former KCHA Section 8 tenant, pled guilty in U.S. District Court to
committing SSA fraud and theft of public money. Lelea failed to report income or
assets on KCHA and SSA certifications and obtained $53,009 in KCHA housing




50                                                 HUD’s Public and Indian Housing Programs
assistance and $29,735 in SSA benefits he was not entitled to receive. Collectively, the
above defendants caused HUD losses of $69,689.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Brenda Duke and Douglas Cronin, former California Department of Housing and
Community Development (CHCD) Section 8 landlord and tenant, were each indicted
in U.S. District Court, Sacramento, CA, for theft of government property or making
false statements to HUD. Cronin and Duke allegedly failed to report their joint
residency in Cronin's CHCD subsidized unit and together obtained $68,837 in CHCD
housing assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Nancy Vu and her husband Chien Van Nguyen, former Anaheim Housing
Authority (AHA) Section 8 recipients, were each charged in Orange County Superior
Court, Santa Ana, CA, with grand theft and perjury. Vu and Nguyen allegedly failed to
disclose investment income on AHA certifications and together obtained more than
$66,000 in AHA housing assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Baneta Martin-Williams, a former Charlotte Housing Authority (CHA) Housing
Choice Voucher program participant, was arrested after her indictment in U.S.
District Court, Charlotte, NC, for theft of government funds and making false
statements to HUD. In addition, Kawanna Rucker and Sonya Douglas, former CHA
Housing Choice Voucher program participants, each pled guilty to making false
statements to HUD or theft of government funds. Martin-Williams allegedly and Rucker
and Douglas admittedly failed to report employment or income on CHA certifications
and collectively obtained $63,451 in CHA housing assistance they were not entitled to
receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Kim Johnson, Loretta Sullivan, and Lisa Foster, former Lake County Housing
Authority (LCHA) Section 8 tenants, each pled guilty in Lake County Circuit Court,
Chicago, IL, to forgery, theft, or state benefits fraud. Johnson was sentenced to 30
months probation and ordered to perform 100 hours of community service and pay
HUD $31,689 in restitution, Sullivan was sentenced to 30 days incarceration and 30
months probation and ordered to pay HUD $4,987 in restitution, and Foster was
sentenced to 30 months probation and ordered to perform 200 hours of community
service and pay HUD $26,000 in restitution. The above defendants failed to report
income on LCHA certifications and collectively obtained $62,676 in LCHA housing
assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Mercy Stringfield and Bing King, Housing Authority of the City of Los Angeles
(HACLA) Section 8 tenants, were each arrested and charged in Los Angeles County


HUD’s Public and Indian Housing Programs                                              51
Superior Court, Los Angeles, CA, with welfare fraud, perjury, grand theft, or making
false statements and representations. Stringfield allegedly used several aliases, and King
allegedly failed to report his undocumented immigrant status on HACLA certifications.
Together they obtained about $61,650 in HACLA housing assistance they were not
entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Latisha Green, Israel Bonilla Hernandez, and Lonnie Brown, former Las Vegas
Housing Authority (LVHA) Section 8 tenants, were each charged in Clark County
Justice Court, Las Vegas, NV, with theft by misrepresentation or possession of a
document to establish a false identity or status. From 2002 to 2007, Green, Hernandez,
and Brown allegedly failed to report income or actual household composition on LVHA
certifications and collectively obtained $58,765 in LVHA housing assistance they were
not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Carla Francis, a City of Oceanside Housing and Neighborhood Services
Department (OHND) Section 8 tenant, was charged in San Diego County Superior
Court, San Diego, CA, with making false statements and grand theft. Francis allegedly
failed to report assets owned by household members on OHND certifications and
obtained $51,981 in OHND housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Gladys Cabrera, a former Revere
Housing Authority (RHA), Boston
Housing Authority (BHA), and
Metropolitan Boston Housing Partnership
(MBHP) Section 8 tenant, pled guilty in
U.S. District Court, Boston, MA, to
conspiracy, bank and mail fraud, theft and
receipt of stolen mail, and theft of
government benefits. Cabrera and
previously indicted Esther Arias allegedly
took U.S. mail belonging to others and
then used stolen identifications to obtain
$51,916 in RHA, BHA, and MBHP housing
assistance they were not entitled to
receive.

                                                          Copyright, 2007. The Brockton Enterprise -
                                                           Brockton, MA. Reprinted with permission.
                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Angela Mendieta, a Hawthorne Housing Authority (HHA) Section 8 tenant, pled
guilty in Los Angeles County Superior Court, Hawthorne, CA, to grand theft. Mendieta
was sentenced to 3 years probation and ordered to pay HHA restitution in an amount


52                                                 HUD’s Public and Indian Housing Programs
not yet determined. Mendieta failed to report employment or income on HHA
certifications and obtained more than $50,000 in HHA housing assistance she was not
entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Julie Delgado, Marie Lucero, and Flora Gallegos, Bernalillo County Housing
Authority (BCHA) Housing Choice Voucher program landlord or participants, were
each charged in Bernalillo County State Court, Albuquerque, NM, with fraud. Delgado,
her sister Lucero, and Gallegos allegedly failed to report familial relationships or
income on BCHA certifications and collectively obtained $49,287 in BCHA housing
assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Sima Noor, a Torrance City Housing Authority (TCHA) Housing Choice Voucher
program participant, was convicted in Los Angeles County Superior Court, Torrance,
CA, of attempting to file a false or forged instrument. Noor was sentenced to 5 years
probation and ordered to pay TCHA $27,034 in restitution. From 1992 to 2006, Noor
provided false information on TCHA applications and obtained more than $48,000 in
TCHA housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Pamela Jenkins, a former Hampton Redevelopment and Housing Authority (HRHA)
Section 8 tenant, pled guilty in Hampton Circuit Court, Hampton, VA, to welfare fraud
and making false statements to obtain public assistance. Jenkins was sentenced to 5
years probation and ordered to pay the Virginia Department of Social Services $16,468
in restitution. Jenkins failed to report the residency or income of her spouse on HRHA,
SSA, or Virginia Department of Social Services certifications and obtained about $43,000
in HRHA housing assistance and $21,220 in SSA and other benefits she was not entitled
to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Charlene Philbrook, a former Malden Housing Authority (MHA) public housing
tenant, pled guilty in Malden District Court, Malden, MA, to larceny. Philbrook was
sentenced to 5 years probation and ordered to pay MHA $41,691 in restitution. From
September 2000 through September 2005, Philbrook failed to report income on MHA
certifications and obtained $41,691 in MHA housing assistance she was not entitled to
receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Aserine Blevins and Terry Ann Littlepage, former Cook County Housing Authority
(CCHA) Section 8 tenant and fictitious landlord, were each sentenced in U.S. District
Court, Chicago, IL, to 3 years probation and ordered to pay HUD $36,800, jointly and
severally, for their earlier guilty pleas to making false statements and theft of public
monies. Blevins was also ordered to serve 6 months home confinement. Blevins and


HUD’s Public and Indian Housing Programs                                             53
Littlepage hid Blevins ownership interest in her CCHA subsidized property and
together obtained $36,800 in CCHA housing assistance they were not entitled to
receive. In addition, Eugene and Wilma Hardney, former CCHA Section 8 landlords
previously convicted of making false statements and barred from conducting business
with HUD, each pled guilty in Cook County Circuit Court to committing loan fraud,
deceptive practices, and theft. The Hardneys were sentenced to 2 and 4 years
incarceration, respectively. Eugene and Wilma Hardney provided false information
and documents to obtain conventional mortgages on two properties and then leased
the properties to CCHA Section 8 tenants and collected $4,000 in CCHA housing
assistance contract payments after one property went into foreclosure and became
lender owned. Collectively, the above defendants caused HUD losses of $40,800.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Blondine Wynn and La'Vine Reid, former Greensboro Housing Authority (GHA)
Housing Choice Voucher program participants, were each sentenced in U.S. District
Court, Greensboro, NC, for their earlier guilty pleas to making false statements to HUD
or the U.S. Department of Health and Human Services. Wynn was sentenced to 5 years
probation and ordered to pay GHA $14,461 in restitution. Reid was sentenced to 2
days incarceration, 8 months home confinement, and 3 years supervised release and
ordered to pay GHA $26,145 in restitution. Wynn and Reid failed to report income or
accurate household composition on GHA certifications and together obtained more
than $40,000 in GHA housing assistance they were not entitled to receive. In addition,
Johnnie Mae Brooks, a former GHA Section 8 tenant sentenced for her earlier guilty
plea to false statements, was arrested after violating the terms of her probation.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Elaine Pritchett and Walter Melton, former Cleveland Metropolitan Housing
Authority (CMHA) Section 8 tenant and landlord, were each indicted in U.S. District
Court, Cleveland, OH, for theft. Pritchett allegedly failed to report her familial
relationship to Melton or her previous ownership interest in her CMHA subsidized
property on CMHA certifications, and Melton allegedly failed to report his familial
relationship to Pritchett or his prior criminal history. Collectively, the above
defendants allegedly obtained about $38,300 in CMHA housing assistance they were
not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Rochelle Varner, a Cuyahoga Metropolitan Housing Authority (CMHA) Section 8
tenant, pled guilty in Cuyahoga County Court of Common Pleas, Cleveland, OH, to
securing writings by deception and tampering with records. Varner used the identity
of her minor child to obtain an ownership interest in real property, failed to report her
property ownership on CMHA certifications, and obtained $38,211 in CMHA housing
assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




54                                                 HUD’s Public and Indian Housing Programs
    Sharon Diggs and Antionette Smith, former Clark County Housing Authority
(CCHA) Section 8 tenants, were each charged in Clark County Justice Court, Las
Vegas, NV, with theft by misrepresentation. In addition, Youland Criggley, a former
CCHA Section 8 tenant, was sentenced in Clark County District Court to 12 months
incarceration (suspended) and 36 months probation and ordered to perform 20 hours
of community service per month (if not employed full time) and pay CCHA $11,881 in
restitution for her earlier guilty plea to fraudulently obtaining public assistance. Diggs
and Smith allegedly and Criggley admittedly failed to report income or actual
household composition on CCHA certifications. Collectively, the above defendants
obtained $38,145 in CCHA housing assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Darlyn Cooper, a former Santa Monica Housing Authority (SMHA) Housing Choice
Voucher program participant, pled guilty in Los Angeles Superior Court, Santa Monica,
CA, to grand theft. Cooper was sentenced to 2 years probation and ordered to
perform 60 days of community service and pay SMHA $13,027 in restitution. From
July 2005 through March 2006, Cooper failed to report income on SMHA
certifications and obtained $34,493 in SMHA housing assistance she was not entitled
to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Erica Wren, Tiffany Miles, Connie Terrell, and Joy Parker-Stapleton, former
Kankakee Housing Authority (KHA) Section 8 tenants, were each charged in Kankakee
County Circuit Court, Kankakee, IL, with theft by deception. The above defendants
allegedly failed to report income on KHA certifications and collectively obtained $33,877
in KHA housing assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Emad Duar, a San Francisco Housing Authority (SFHA) Section 8 tenant, pled guilty
in U.S. District Court, San Francisco, CA, to theft of government funds. From
October 2001 through November 2003, Duar failed to report income on SFHA
certifications and obtained $33,000 in SFHA housing assistance he was not entitled to
receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Wilhermina Rodriguez, also known as Muriel Rodriguez, a former Portland
Housing Authority (PHA) Section 8 tenant, pled guilty in Cumberland County
Superior Court, Portland, ME, to theft by deception and making unsworn
falsifications. Rodriguez agreed to pay PHA $32,928 in restitution. Rodriguez failed to
report income on PHA and other certifications and obtained $32,928 in PHA housing
assistance and $44,461 in welfare and food stamp benefits she was not entitled to
receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Public and Indian Housing Programs                                               55
    Jean Andrews, a Chester County Housing Authority (CCHA) public housing
tenant, was charged in Chester County Court of Common Pleas, Phoenixville, PA, with
theft by deception and unsworn falsifications. Andrews allegedly failed to report
income on CCHA certifications and obtained $32,591 in CCHA housing assistance she
was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    As a result of "Operation Raincheck," 59 Michigan State Housing Development
Authority or Lansing, Benton Harbor, Kalamazoo, Battle Creek, Holland, Eaton County,
or Dowagiac Housing Commission Section 8 tenants were each charged in their
respective County District Courts in Kalamazoo, Battle Creek, Benton Harbor, or
Lansing, MI, with larceny by conversion and false pretenses. The above defendants
allegedly failed to report income on housing certifications and collectively obtained
more than $30,000 in housing assistance they were not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Laura Rivas, a former Housing Authority of the County of Santa Clara (HACSC)
Section 8 tenant, was charged in Santa Clara County Superior Court, San Jose, CA,
with grand theft. Rivas allegedly failed to report the unauthorized residency of her
spouse on HACSC certifications and obtained $29,127 in HACSC housing assistance
she was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Carolyn Brown, Maurice Bennett, and Bonny Morgan, Montgomery County
Housing Opportunities Commission (MHOC) Section 8 tenants, were each charged in
Montgomery County District Court, Silver Spring or Rockville, MD, with theft by
deception and making false statements. Brown, Bennett, and Morgan allegedly failed
to disclose the registered sex offender status of Bennett or another unauthorized
resident on MHOC certifications and collectively obtained $28,819 in MHOC housing
assistance they were not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Alfred Filion, a former Schuylkill County Housing Authority (SCHA) Housing
Choice Voucher program participant, was indicted in U.S. District Court, Scranton,
PA, for making false statements. Filion allegedly failed to report his prior criminal
history or registered sex offender status on SCHA certifications and obtained $3,200
in SCHA housing assistance he was not entitled to receive. In addition, former SCHA
Housing Choice Voucher program participant Tarkita Reeves was sentenced to 3 years
probation and ordered to pay HUD $23,811 in restitution for her earlier guilty plea to
making false statements. Reeves failed to report an unauthorized resident on SCHA
certifications and obtained $23,811 in SCHA housing assistance she was not entitled to
receive. Collectively, the above defendants caused HUD losses of $27,011.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




56                                                HUD’s Public and Indian Housing Programs
    Dris Mitchell, a former Mississippi Regional Housing Authority (MRHA) Section 8
tenant and employee of the Mississippi Attorney General's Office, was sentenced in
U.S. District Court, Jackson, MS, to 36 months probation and ordered to pay HUD
$3,750 in restitution for her earlier guilty plea to filing a false claim. In addition, former
MRHA Section 8 tenant Denice Peters was sentenced to 10 months probation and
ordered to perform 40 hours community service and pay MRHA $23,106 in restitution
for her earlier guilty plea to making false statements. Mitchell and Peters failed to
report income on MRHA certifications and together obtained $26,865 in MRHA
housing assistance they were not entitled to receive.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Suezanne Bruce, a Boston Housing Authority (BHA) Section 8 tenant, was charged
in Roxbury District Court, Boston, MA, with larceny. Bruce allegedly failed to report
income on BHA certifications and obtained $26,382 in BHA housing assistance she was
not entitled to receive.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Michele Verrall, a former Butte Housing Authority (BHA) public housing tenant,
pled guilty in U.S. District Court, Missoula, MT, to making false statements to HUD.
From December 1998 to December 2005, Verrall failed to report income on BHA
certifications and obtained $26,000 in BHA housing assistance she was not entitled to
receive.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Serena Priddy, a former Maricopa County Housing Authority (MCHA) Section 8
tenant, was sentenced in Maricopa County Superior Court, Phoenix, AZ, to 36 months
probation and ordered to pay MCHA $25,620 in restitution for her earlier guilty plea
to attempted fraudulent schemes and practices. From March 2002 through April 2005,
Priddy failed to report income on MCHA certifications and obtained $25,620 in MCHA
housing assistance she was not entitled to receive.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Antonio Carter, a Seattle Housing Authority (SHA) public housing tenant, was
charged in King County Superior Court, Seattle, WA, with theft. Carter allegedly failed
to report income on SHA certifications and obtained about $25,000 in SHA housing
assistance he was not entitled to receive.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Kynia Morris, a former North Las Vegas Housing Authority (NLVHA) Section 8
tenant, was sentenced in Clark County District Court, Las Vegas, NV, to 12 months
incarceration (suspended) and 3 years probation and ordered to perform 20 hours of
community service and pay NLVHA and Nevada Welfare $26,017 in restitution for her
previous conviction for attempted theft. From 2003 to 2006, Morris failed to report



HUD’s Public and Indian Housing Programs                                                   57
income or accurate household composition on NLVHA certifications or other
documents and obtained $22,762 in NLVHA housing assistance and $4,255 in welfare
benefits she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Abbie Richardson, a Tri County Community Council (TCCC) Section 8 tenant,
was sentenced in U.S. District Court, Pensacola, FL, to 5 years probation and ordered
to pay HUD $21,101 in restitution for her earlier guilty plea to theft of government
funds. Richardson failed to report income on TCCC certifications and obtained $21,101
in TCCC housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Krista James, a former Davis County Housing Authority (DCHA) Housing Choice
Voucher program participant, pled guilty in Utah State Court, Farmington, UT, to
fraudulently obtaining housing benefits. James was sentenced to 36 months probation
and ordered to pay HUD $15,817 in restitution. In addition, former DCHA Housing
Choice Voucher program participant Mckenzie Davis was sentenced to 36 months
probation and ordered to perform 50 hours community service and pay HUD $4,818 in
restitution for her earlier guilty plea to fraudulently obtaining housing benefits. James
failed to report an unauthorized resident, and Davis failed to report a registered sex
offender residing in their DCHA subsidized units. Together they obtained $20,635 in
DCHA housing assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Shannon French, a former Richland Housing Authority (RHA) Section 8 tenant,
was charged in Benton County Superior Court, Pasco, WA, with theft. From
September 2000 to September 2005, French allegedly failed to report income or
actual household composition on RHA certifications and obtained $20,256 in RHA
housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Shari Hunter, a former Fayette County Housing Authority (FCHA) Section 8
tenant, pled guilty in Fayette County Court, Connersville, IN, to welfare fraud. Hunter
was sentenced to two concurrent terms of 8 years incarceration (suspended) and 4
years probation and ordered to pay FCHA $19,997 in restitution. Hunter failed to
report income or her actual marital status on FCHA certifications and obtained $19,997
in FCHA housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Teresa Pearson, a former Montgomery County Housing Authority (MCHA)
Housing Choice Voucher program participant, was sentenced in U.S. District Court,
Philadelphia, PA, to 5 years probation and ordered to pay MCHA $19,606 in
restitution for her previous conviction of making false statements to HUD. Pearson



58                                                 HUD’s Public and Indian Housing Programs
failed to report employment or income on MCHA certifications and obtained $19,606
in MCHA housing assistance she was not entitled to receive.

                                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Elaine Close, a Johnstown Housing Authority (JHA) Section 8 tenant, was
indicted in U.S. District Court, Johnstown, PA, for making false statements.
From 2003 to 2005, Close allegedly failed to report income on JHA certifications
and obtained more than $18,000 in JHA housing assistance she was not entitled
to receive.

                                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Wilhemenia Jefferson, a former Bucks County Housing Authority (BCHA)
Housing Choice Voucher program participant, was convicted in Bucks County Court
of Common Pleas, Doylestown, PA, of theft by deception and receiving stolen
property. Jefferson was sentenced to 36 months probation and ordered to pay BCHA
$17,406 in restitution. From 2001 to 2006, Jefferson omitted income on BCHA
certifications and obtained $17,406 in BCHA housing assistance she was not entitled to
receive.

                                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Kenneth Christenot, a former Billings
Housing Authority (BHA) Section 8 landlord,
was sentenced in U.S. District Court,
Billings, MT, to 18 months incarceration
and 3 years probation and ordered to
pay HUD $19,382 in restitution for
his previous conviction for making false
statements and theft. Christenot failed to
report his residency in his BHA subsidized
property and obtained $19,382 in BHA
housing contract payments he was not entitled
to receive.

          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Cathleen Farnham and her mother, Beverly
Shier, Taylor Housing Commission (THC)
Section 8 tenant and landlord, were each
charged in Monroe County Court, Taylor, MI,
                                                 Copyright, 2007. Billings Gazette - Billings, MT.
with theft. Farnham allegedly failed to report
                                                                      Reprinted with permission.
Shier's residency in or her purchase of real
estate and subsequent abandonment of her
subsidized unit. Shier allegedly failed to report her familial relationship to and
residency with Farnham or the subsequent subleasing of Farnham's subsidized unit to




HUD’s Public and Indian Housing Programs                                                       59
others. Collectively, Shier and Farnham obtained about $17,000 in THC housing
assistance they were not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Nancy Savitch, a former Fall River Housing Authority (FRHA) Section 8 tenant,
was sentenced in U.S. District Court, Boston, MA, to 3 years probation and ordered to
pay HUD $16,411 and SSA $39,956 in restitution for her earlier guilty plea to theft of
government funds and SSA fraud. Savitch failed to report income on FRHA and SSA
certifications and obtained $16,411 in FRHA housing assistance and $39,956 in SSA
benefits she was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Luzcelenia Watson and Kristal Allen, former Worcester Housing Authority (WHA)
Section 8 tenant and landlord, each pled guilty in Worcester District Court,
Worcester, MA, to conspiracy and making false claims or larceny over $250. Watson
was sentenced to 12 months probation and ordered to pay WHA $3,500 in restitution.
Allen was sentenced to 5 years probation and ordered to pay WHA $9,000 in
restitution. Watson, while receiving WHA Section 8 housing assistance, obtained an
ownership interest in a WHA subsidized property and, in conjunction with the former
owner, concealed her property ownership and failed to report rental income on WHA
certifications. Allen failed to report income on WHA certifications and obtained $9,000
in WHA housing assistance she was not entitled to receive. Collectively, the above
defendants caused HUD losses of $16,070.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Jesenia Sosa, a City of Buenaventura Housing Authority (CBHA) Housing Choice
Voucher program participant, was arrested and charged in Ventura County Superior
Court, Ventura, CA, with grand theft and welfare fraud. Sosa allegedly failed to report
income or an unauthorized resident on CBHA certifications and obtained $16,044 in
CBHA housing assistance she was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Dawn Maniscalco, a former Belmont Shelters Corporation (BSC) Housing Choice
Voucher program participant, was sentenced in U.S. District Court, Buffalo, NY, to 3
years probation and ordered to pay HUD $15,898 in restitution for her earlier guilty
plea to making false entries involving HUD transactions. Maniscalco failed to report
income on BSC certifications and obtained $15,898 in BSC housing assistance she was
not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Chantira Watkins, a former DuPage Housing Authority (DHA) Section 8 tenant,
pled guilty in DuPage County Circuit Court, DuPage, IL, to attempted forgery. Watkins
was sentenced to 24 months probation and ordered to pay HUD $13,700 in restitution.



60                                                HUD’s Public and Indian Housing Programs
Watkins failed to report income on DHA certifications and obtained $15,718 in DHA
housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Tirania Swann, a Baltimore City Housing Authority (BCHA) public housing
tenant, was charged in Baltimore Circuit Court, Baltimore, MD, with theft. Swann
allegedly failed to report income or assets on BCHA certifications and obtained $15,528
in BCHA housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Joseph and Jasmine Landrin, former Massachusetts Department of Housing and
Community Development (DHCD) landlords, were each charged in Gardner District
Court, Gardner, MA, with larceny over $250 by false pretense and making false claims
to a government agency. From August 2005 to August 2006, Joseph and Jasmine Landrin
allegedly concealed their familial relationship to the DHCD Section 8 tenant leasing
their property and obtained $14,666 in DHCD housing contract payments they were
not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Philomina Shalo, a former Olathe Housing Authority (OHA) Section 8 tenant, pled
guilty in Johnson County District Court, Olathe, KS, to stealing. Shalo was sentenced
to 180 days confinement and 12 months probation and ordered to pay HUD $2,439 in
restitution. Shalo failed to report income on OHA certifications and obtained $13,738
in OHA housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Bunnie Light, a former Rural Resources Community Action (RRCA) Section 8
tenant, was charged in Stevens County Superior Court, Colville, WA, with theft.
Michael Bouchard, a fictitious RRCA Section 8 landlord, pled guilty to theft and was
sentenced to 12 months incarceration and ordered to pay RRCA $1,000 in restitution.
From April 2004 to May 2005, Light allegedly failed to report income or Bouchard's
residency in her RRCA subsidized unit, and Bouchard fraudulently claimed he was a
landlord of Light's RRCA subsidized property and hid his relationship to and residency
in her RRCA subsidized unit. Collectively, Light and Bouchard obtained $13,602 in
RRCA housing assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Samantha Boyd, a former Maryland Department of Housing and Community
Development (MHCD) Housing Choice Voucher program participant, was charged in
Maryland District Court, Salisbury, MD, with theft by deception and making false
statements. Boyd allegedly failed to report employment or income on MHCD
certifications and obtained $13,085 in MHCD housing assistance she was not entitled
to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


HUD’s Public and Indian Housing Programs                                             61
    Linda Hill and Lewis Lacy, former Fluvanna-Louissa Housing Foundation (FLHF)
Section 8 tenant and landlord, each pled guilty in Fluvanna County Circuit Court,
Fluvanna County, VA, to welfare fraud. Hill and Lacy were each sentenced to 5 years
incarceration (suspended) and ordered to pay FLHF $12,994 in restitution. Hill and
Lacy failed to report their joint residency on FLHF certifications and together obtained
$12,994 in FLHF housing assistance they were not entitled to receive.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Michelle Legette, a former Housing Authority of Winston Salem (HAWS) Section
8 tenant and Forsyth County detention officer, was arrested after her indictment in
U.S. District Court, Greensboro, NC, for making false statements to HUD and theft of
government funds. From March 2005 to August 2006, Legette allegedly failed to
report income on HAWS certifications and obtained $11,880 in HAWS housing
assistance she was not entitled to receive.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Freddie Maestes, a Taos County Housing Authority (TCHA) Section 8 tenant, pled
guilty in Taos County State Court, Taos, NM, to failure to disclose facts to obtain
public assistance. Maestes was sentenced to 3 years deferred adjudication and
supervised probation. From August 2003 to August 2004, Maestes and his previously
convicted wife, Patricia Maestes, failed to report income on TCHA certifications and
together obtained $11,718 in TCHA housing assistance they were not entitled to
receive.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Charlotte Washington, a former Alexandria Housing Authority (AHA) Section 8
tenant, was sentenced in U.S. District Court, Lafayette, LA, to 3 years probation, fined
$1,000, and ordered to perform 100 hours of community service and pay AHA $7,952
in restitution for her earlier guilty plea to making false statements. Washington failed
to report income on AHA certifications and obtained $11,664 in AHA housing
assistance she was not entitled to receive.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Toy Cook, a Sacramento Housing and Redevelopment Agency (SHRA) Housing
Choice Voucher program participant, pled nolo contendre in Sacramento County
Superior Court, Sacramento, CA, to violating welfare and institutional codes. In
addition, La Mica Barnett, a former unauthorized resident in a SHRA subsidized unit,
was sentenced to 365 days incarceration and 5 years probation and ordered to pay HUD
$12,541 in restitution for her earlier nolo contendre plea to grand theft and welfare fraud.
Cook allegedly failed to report income, and Barnett allegedly failed to report her
unauthorized residency or the authorized tenant's abandonment of the SHRA
subsidized unit on SHRA certifications. Together they obtained about $16,220 in SHRA
housing assistance they were not entitled to receive.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




62                                                  HUD’s Public and Indian Housing Programs
    Gail Bush, a former Area Housing Authority of the County of Ventura (AHACV)
Housing Choice Voucher program participant, was sentenced in Ventura County
Superior Court, Thousand Oaks, CA, to 5 months incarceration and 36 months
supervised release and ordered to pay AHACV $10,587 in restitution for her earlier
guilty plea to grand theft and perjury. From June 2002 to February 2003, Bush
reported false income amounts on AHACV certifications and obtained $10,587 in
AHACV housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Nichole Harrison and Tina Schavers, former Pomona Housing Authority (PHA)
Section 8 tenants, were each sentenced in Los Angeles County Superior Court, Pomona,
CA, for their earlier guilty pleas to making false statements, grand theft, or welfare
fraud. Harrison was sentenced to 3 months incarceration and 36 months probation
and ordered to pay PHA $200 in restitution. Schavers was sentenced to 3 years
probation and ordered to perform 30 days community service and pay PHA $7,630 in
restitution. Harrison and Schavers omitted income or accurate household
compositions on PHA certifications and together obtained $10,438 in PHA housing
assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Michelle Palardy, a Southern Middlesex Opportunity Council (SMOC) Section 8
tenant, was charged in Middlesex District Court, Framingham, MA, with larceny and
forgery. Palardy allegedly failed to report income on SMOC and SSA certifications and
obtained $10,007 in SMOC housing assistance and $6,125 in SSA benefits she was not
entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Kathy Frazier, a former Richmond Redevelopment and Housing Authority (RRHA)
public housing tenant, pled guilty in Richmond Circuit Court, Richmond, VA, to petit
larceny. Frazier was sentenced to 5 years probation and ordered to pay RRHA $9,352
in restitution. Frazier failed to report income on RRHA certifications and obtained
more than $9,352 in RRHA housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Bernadette Wagner, a former Emmons County Housing Authority (ECHA) public
housing tenant, pled guilty in U.S. District Court, Bismarck, ND, to making false
statements to HUD. From November 1993 to September 2005, Wagner failed to
report income on ECHA certifications and obtained $9,000 in ECHA housing
assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Harold and Donna Owen, former Brunswick Housing Authority (BHA) Section 8
tenants, were each charged in Cumberland County Superior Court, Portland, ME, with
theft. From June 2001 through March 2005, Harold and Donna Owen allegedly failed


HUD’s Public and Indian Housing Programs                                           63
to report welfare benefits on BHA certifications and together obtained $7,257 in BHA
housing assistance they were not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    William Foster, Jr., an authorized aide for a former Kentucky Housing Corporation
(KHC) Section 8 tenant, now deceased, pled guilty in U.S. District Court, Louisville,
KY, to wire fraud. From June 2004 to June 2005, Foster claimed the deceased KHC
Section 8 tenant on KHC certifications and obtained $7,196 in KHC housing assistance
he was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Candy McCourt, a former Salina Housing Authority (SHA) public housing tenant,
was charged in Salina County Court, Salina, KS, with making false statements and theft.
McCourt allegedly failed to report an unauthorized resident or the resident's income
on SHA certifications and obtained $7,129 in SHA housing assistance she was not
entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Teresa Reid, a former Franklin Housing Authority (FHA) employee and Section 8
tenant, pled guilty in Virginia Circuit Court, Franklin, VA, to forging a public record.
Reid was sentenced to 5 years incarceration (suspended) and 5 years probation and
ordered to pay FHA $4,918 in restitution. Reid omitted income on FHA certifications
and then fraudulently recertified herself and obtained more than $7,000 in FHA
housing assistance she was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Kristie and Dale Weinand, former Minot Housing Authority (MHA) Section 8
tenants, were each sentenced in U.S. District Court, Bismarck, ND, to 36 months
probation and ordered to pay HUD $2,000 in restitution, jointly and severally, for their
earlier guilty pleas to making false statements to HUD. Kristie and Dale Weinand failed
to report income on MHA certifications and together obtained $6,826 in MHA
housing assistance they were not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Tamicka Janigan, a former Auburn Housing Authority (AHA) Section 8 tenant, was
charged in Lee County Court, Auburn, AL, with intentionally obtaining by deception
services known by her to be available only for compensation. Janigan allegedly failed to
report income on AHA certifications and obtained $3,924 in AHA housing assistance
she was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Mehdi Ghaemi, owner of Arborz Real Estate Company, and Hamidullah Sarwary, a
former Littleton Housing Authority (LHA) Section 8 tenant, each pled guilty in
Colorado State District Court, Englewood, CO, to fraudulently obtaining housing

64                                                HUD’s Public and Indian Housing Programs
benefits. Ghaemi was sentenced to 24 months deferred adjudication and ordered to
pay LHA $3,760 in restitution. Sarwary was sentenced to 24 months probation and
ordered to perform 96 hours of community service and pay LHA $3,760 in restitution,
jointly and severally with Ghaemi. Ghaemi assisted Sarwary in hiding his property
ownership from LHA, and Sarwary failed to report his property ownership on LHA
certifications and obtained $3,760 in LHA housing assistance he was not entitled to
receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Mary Lesher, a former Atchison Housing Authority (AHA) Housing Choice Voucher
program participant, pled guilty in Atchison County Court, Atchison, KS, to theft.
Lesher was ordered to pay AHA $3,242 in restitution. From July 2005 to October
2006, Lesher failed to report income on AHA certifications and obtained $3,242 in
AHA housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Gloria Dutton, a former Augusta Housing Authority (AHA) Section 8 tenant, pled
guilty in Kennebec County Superior Court, Augusta, ME, to theft by deception. Dutton
failed to report her ownership interest in her AHA subsidized property and obtained
$3,028 in AHA housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Maria Mireles, a former Harlingen Housing Authority (HHA) low-rent tenant, was
sentenced in Cameron County State Court, Harlingen, TX, to 12 months probation
and ordered to perform 125 hours of community service and pay HHA $2,062 in
restitution for her earlier guilty plea to committing fraud. Mireles failed to report
income on HHA certifications and obtained $2,062 in HHA housing assistance she was
not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Dondi Morrell, a former Enfield Housing Authority (EHA) Section 8 tenant, was
arrested and charged in Superior Court, Enfield, CT, with committing forgery and
larceny. Morrell allegedly altered and negotiated an EHA check and obtained $2,286 in
EHA funds she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Felix Ortiz-Garcia, a Harrisburg Housing Authority (HHA) public housing tenant,
was indicted in U.S. District Court, Harrisburg, PA, for the sale and distribution of
narcotics, making false statements, and possession of a firearm. Ortiz-Garcia and
others allegedly distributed heroin and other illegal narcotics from his HHA public
housing unit, caused the drug-overdose deaths of four individuals, and failed to report
either his drug trafficking operation or income on HHA certifications. HUD losses are
not yet determined.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


HUD’s Public and Indian Housing Programs                                            65
    Wesley Thompson, a former Auburn Housing Authority (AHA) Section 8 tenant
previously indicted in U.S. District Court, Portland, ME, for theft of public funds and
fraud against both HUD and SSA, was ordered to refrain from contacting a government
witness who testified against him in an ongoing criminal matter.

     Fed Rent Initiative
    Constituting its primary appropriated activity, HUD's housing assistance programs
served more than 4.8 million households and expended more than $24 billion in fiscal
year 2003. Recent studies indicate that an estimated 60 percent of all subsidized
housing rents are miscalculated, and approximately $3.2 billion in erroneous payments
and $2 billion in net annual subsidy overpayments are a result of both errors in
program administration and tenants underreporting income.

     In an effort to combat administrative and tenant subsidy overpayments, HUD and
HUD OIG commenced "Operation FedRent," a joint effort to address rental assistance
fraud in HUD's public or Section 8 and Housing Choice Voucher programs by Federal
employees. Operation FedRent compares HUD tenant information to Federal employee
and retiree data maintained by the U.S. Office of Personnel Management. After the
comparison, an income eligibility determination is made and Social Security numbers
for family members six years of age and older are verified. If a discrepancy exists, an
investigation is opened, and appropriate administrative or legal actions are initiated to
collect any overpaid housing assistance. Results of Operation FedRent during this
semiannual reporting period are described below.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Lauton Joshua, a U.S. Army employee, and her grandmother Helen Lowe, former
San Francisco Housing Authority (SFHA) Section 8 tenant and landlord, were each
indicted in U.S. District Court, San Francisco, CA, for mail fraud. Joshua and Lowe
allegedly failed to report employment, income, assets or their familial relationship on
SFHA certifications and obtained about $127,000 in SFHA housing assistance they were
not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Sahia Seaman, a U.S. Postal Service (USPS) employee and former Charlotte
Housing Authority (CHA) Housing Choice Voucher program participant, was arrested
after her indictment in U.S. District Court, Charlotte, NC, for making false statements
and theft of government funds. In addition, Temeria Alexander, Lavoris McIver, and
Victoria Walker, also USPS employees and former CHA Housing Choice Voucher
program participants, each pled guilty to making false statements or theft of govern-
ment funds. Seaman allegedly and Alexander, McIver, and Walker admittedly failed to
report employment or income on CHA certifications and collectively obtained $72,249
in CHA housing assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




66                                                 HUD’s Public and Indian Housing Programs
    Marjorie Chatman, an SSA employee and former Richmond Housing Authority
(RHA) Section 8 tenant, pled guilty in U.S. District Court, Oakland, CA, to theft of
government funds. From April 1997 through November 2006, Chatman failed to
report income on RHA certifications and obtained $64,000 in RHA housing assistance
she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Chanel Brown, Towanda Good, Darlene Thomas, and Erica Anthony, SSA or
Department of Veterans Affairs employees and Baltimore City Housing Authority
(BCHA) Housing Choice Voucher program participants, were each charged or pled
guilty in Maryland State Court, Baltimore, MD. Brown and Good were charged with
theft, and Thomas and Anthony each pled guilty to theft. Thomas was sentenced to 3
years supervised probation, and Thomas and Anthony were collectively ordered to pay
BCHA $13,128 in restitution. Brown and Good allegedly and Thomas and Anthony
admittedly failed to report income on BCHA certifications and collectively obtained
$61,147 in BCHA housing assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Ramona Cushenberry, a U.S. Department of Homeland Security employee and
Housing Authority of the County of Los Angeles (HACOLA) Section 8 tenant, was
indicted in U.S. District Court, Los Angeles, CA, for making false statements.
Cushenberry allegedly failed to report income or disability benefits on HACOLA
certifications and obtained about $25,000 in HACOLA housing assistance she was not
entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Audrey Boyd, a USPS employee and Baltimore County Housing Authority (BCHA)
Housing Choice Voucher program participant, pled guilty in Maryland Circuit Court,
Baltimore, MD, to theft. Boyd was sentenced to 5 years probation and ordered to pay
BCHA $24,382 in restitution. Boyd failed to report employment or income on BCHA
certifications and obtained $24,382 in BCHA housing assistance she was not entitled
to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Shellette Jackson, a U.S. Department of State employee and former Washington,
DC, Housing Authority (DCHA) Section 8 tenant, pled guilty in U.S. District Court,
Washington, DC, to making false claims and fraudulently obtaining public assistance.
Jackson failed to report income on DCHA and DC Department of Human Services
certifications and obtained $22,705 in DCHA housing assistance and $27,679 in
Medicaid, food stamps, and other benefits she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Public and Indian Housing Programs                                          67
    Denise Mayes, a USPS employee and former Detroit Housing Commission (DHC)
Section 8 tenant, entered into a pretrial diversion agreement in U.S. District Court,
Detroit, MI, and agreed to pay HUD $19,356 in restitution. Mayes failed to report
income on DHC certifications and obtained $19,356 in DHC housing assistance she was
not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Andres DeZubiria, a Transportation Security Administration security screener and
former Seattle Housing Authority (SHA) public housing tenant, was charged in King
County Superior Court, Seattle, WA, with theft. DeZubiria allegedly failed to report
income on SHA certifications and obtained $16,242 in SHA housing assistance he was
not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Judy Bell, a USPS employee and former Greensboro Housing Authority (GHA)
Housing Choice Voucher program participant, was sentenced in U.S. District Court,
Greensboro, NC, to 3 years supervised probation and ordered to pay GHA $10,659 in
restitution for her earlier guilty plea to making false statements to HUD. Bell failed to
report income on GHA certifications and obtained more than $10,000 in GHA housing
assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Shavonne Coleman-Modest, an Internal Revenue Service employee and former
Michigan State Housing Development Authority (MSHDA) Section 8 tenant, entered
into a pretrial diversion agreement filed in U.S. District Court, Detroit, MI. She agreed
to perform 40 hours of community service and pay HUD $8,498 in restitution.
Coleman-Modest failed to report income on MSHDA certifications and obtained $8,498
in MSHDA housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Marietta Sims, a USPS employee and former Houston Housing Authority (HHA)
Section 8 tenant, was sentenced in 174th District Court, Houston, TX, to 5 years
deferred adjudication and ordered to pay HUD $3,957 and the U.S. Department of
Health and Human Services $1,116 in restitution for her earlier guilty plea to theft. Sims
failed to report employment or income on HHA certifications and obtained $5,073 in
HHA housing assistance and $1,463 in food stamp benefits she was not entitled to
receive.

Fugitive Felon Initiatives
   Enacted into law in 1996, Section 903 of Public Law 104-193, "Elimination of
Housing Assistance with Respect to Fugitive Felons and Probation and Parole
Violators," allows for the termination of housing subsidies for public or assisted
housing tenants who flee to avoid prosecution, avoid confinement after conviction of a



68                                                 HUD’s Public and Indian Housing Programs
felony, or violate conditions of their parole or probation. The law also authorizes
Federal, State, and local law enforcement agencies to exchange information and
perform data matches.

    OIG supports a Fugitive Felon Initiative (FFI) by matching HUD
housing assistance information with crime data from the National Crime
Information Center, U.S. Marshals Service (USMS), and other participating
law enforcement data banks. In addition, OIG special agents actively
participate in the USMS "Operation FALCON," a joint Federal, State, city, and
county law enforcement effort to locate and apprehend fugitive felons wanted
for violent crimes. Conducted in most major cities throughout the United
States and its territories, Operation FALCON places a strong emphasis on
apprehending fugitive felons involved in gangs, homicides, sexual assaults,
or crimes against the elderly and children. Since the inception of OIG's
FFI, hundreds of cases have been opened and closed resulting in more
than 8,092 arrests. OIG strongly supports Operation FALCON in an effort
to make HUD public and assisted housing safe places for families to live.
FFI results during this semiannual reporting period are described below.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG participated in Operation FALCON IV, a USMS action
initiated to identify, locate, and apprehend violent fugitives, including those
charged with sex crimes, in Essex and Hudson Counties, NJ; Dallas, TX; Kansas
City, KS; and Kansas City, MO. As a result, 676 individuals were arrested
on outstanding felony warrants, 64 of whom resided in HUD-assisted housing.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Staniford Griswold was indicted in U.S. District Court, Kansas City, MO,
for assaulting a Federal officer and unlawful transportation of a firearm.
Griswold allegedly assaulted a HUD OIG special agent during Operation
FALCON IV.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Todd Jefferson, Gene Stone, Robert Castello, and Jose Santos, public housing
or Section 8 tenants at Bayonne, Union County, North Bergen, or Weehawken
Housing Authorities, were each arrested in Hudson County, NJ, on outstanding
State or local warrants issued for burglary, domestic violence, or parole violations.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Jeffrey Brooks, an unauthorized resident in a Housing Authority of New
Orleans (HANO) subsidized unit, was arrested in New Orleans, LA, on an outstanding
felony warrant for simple battery.




HUD’s Public and Indian Housing Programs                                          69
Other Fraud/Crimes
    Douglas and Cassandra Williams, doing business as WET National Relocation
Services, each pled guilty in Clark County District Court, Las Vegas, NV, to theft or
conspiracy to commit theft. From July 2006 through January 2007, Douglas and
Cassandra Williams created and sold fraudulent Section 8 vouchers to numerous
victims, and then Douglas Williams, a former Las Vegas Housing Authority inspector,
conducted unauthorized inspections to further their scheme.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Rex Wetzel, a Blackfeet Housing Authority (BHA) homeownership program
participant, pled guilty in U.S. District Court, Great Falls, MT, to theft. Wetzel
obtained $12,000 from BHA to use as a downpayment on the purchase a home, but
instead of purchasing the property, Wetzel forged the seller's signature, negotiated
the check, and used the BHA funds for personal expenditures.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Phyllis Moor, the former Lakeland Housing Authority (LHA) land acquisition
director, pled guilty in the Tenth Judicial Circuit Court, Bartow, FL, to making false
statements. Moor was sentenced to 12 months probation and ordered to perform 100
hours of community service. Moor concealed her criminal history and falsified her LHA
employment application to obtain LHA employment.




70                                                HUD’s Public and Indian Housing Programs
    Chapter 3




HUD’s Multifamily
Housing Programs
   In addition to multifamily housing developments with U.S. Department of Housing
and Urban Development (HUD)-held or HUD-insured mortgages, the Department
owns multifamily projects acquired through defaulted mortgages, subsidizes rents for
low-income households, finances the construction or rehabilitation of rental housing,
and provides support services for the elderly and handicapped.



Audits
           Strategic Initiative 2: Contribute to the Reduction of Erroneous
                             Payments in Rental Assistance
     Key program results             Questioned costs               Funds put to better use
Audit           12 Audits                $9,743,360                       $31,671,293

  Our            page73         - Project-Based Section 8 Contract Administrators
 focus
                 page 74        - Multifamily Accelerated Processing Procedures
                 page 74        - Owner and Management Agent Operations
                 page 77        - HUD Mortgage Insurance Program




                              A Look Back for the Year
          Chart 4.1: Percentage of OIG Multifamily Housing Audit Reports,
                                   Performed FY 07
                                                                                         Region 1
                                                                                        Boston 16%

                                               Region 5                Region 2
                                              Chicago 6%             New York 16%
                         Region 7-8
                       Kansas City 17%




                                                                                        Region 3
                                                                                    Philadelphia 11%




       Region 9-10                                                          Region 4
     Los Angeles 11%                                                       Atlanta 6%
                                                 Region 6
                                              Fort Worth 17%




72                                                             HUD’s Multifamily Housing Programs
Project-Based Section 8 Contract Administrators
    The HUD Office of Inspector General (OIG) reviewed HUD's payments to project-
based Section 8 contract administrators relating to three incentive-based performance
standards. The audit objectives were to determine whether HUD (1) acted
appropriately when it allowed contract administrators to bill for tasks for which HUD
no longer required activity, (2) had adequate procedures in place to ensure that
Federal advances made for housing assistance payments were invested in interest-
bearing accounts, and (3) had adequate procedures in place to recover interest earned
on Federal advances.

    HUD paid contract administrators $27.2 million during fiscal year 2006 for work
that HUD had eliminated, but which was still included in the contracts. Additionally,
HUD did not ensure that housing assistance payment advances were kept in
interest-bearing accounts, resulting in more than $54,000 in interest not earned, and
did not recover almost $133,000 in interest earned on advances kept in interest-
bearing accounts.

    OIG recommended that HUD (1) revise the annual contributions contract when
renewing contracts so that it properly reflects the work required to be performed,
(2) include in the revised annual contributions contract a method for adjusting fees
when HUD modifications change or eliminate work for which contract administrators
are specifically paid, (3) develop and implement procedures for monitoring the use of
interest-bearing accounts, (4) ensure that contract administrators are told that they
are still required to use an interest-bearing account when HUD waives the contract
requirement for use of a depository agreement, and (5) develop and implement
procedures to recover interest earned on housing assistance payment advances. (Audit
Report: 2007-SE-0001)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Trumbull Metropolitan Housing Authority's, Warren, OH,
project-based Section 8 housing assistance activities with its related nonprofit
organizations.

    The Warren Housing Development Corporation, a nonprofit entity created by the
Authority, received more than $2.2 million in housing assistance payments from July 1,
2005, through February 28, 2007, contrary to HUD's requirements. The Corporation
was created in May 1977 as a nonprofit instrumentality of the Authority. However, it
revised its articles of incorporation in June 2005 and was no longer an instrumentality
of the Authority. According to HUD's regulations, the project must be owned by a
public housing agency (instrumentality) throughout the term of the housing assistance
payments contract. The Authority revised the Corporation's articles of incorporation
on March 13, 2007, to reinstate the Corporation as an instrumentality of the Authority.

    OIG recommended that HUD require the Authority to implement procedures and
controls to ensure that it follows HUD's requirements regarding Section 8 housing
assistance payments to its instrumentality. (Audit Report: 2007-CH-1007)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

HUD’s Multifamily Housing Programs                                                  73
Multifamily Accelerated Processing Procedures
    OIG audited Capmark Finance, Inc.'s underwriting and processing of the mortgage
loan for Asbury Square Apartments, located in Tulsa, OK, to determine whether
Capmark followed multifamily accelerated processing (MAP) and HUD requirements
when underwriting and processing the Asbury loan.

    Capmark misrepresented Asbury's financial and physical situation to HUD in its
underwriting narrative. Further, it did not exercise the amount of due diligence
required to support its recommendation for HUD endorsement. The Asbury
mortgage loan, as recommended by Capmark, did not provide enough funds to restore
the project to a financially viable condition. While Capmark complied with most MAP
requirements when underwriting the loan, its underwriting narrative lacked material
financial information and analysis. In addition, Capmark did not perform its property
site inspection in keeping with MAP requirements. As a result, Asbury defaulted on
the loan before final closing, causing HUD a possible loss of more than $5.9 million.

    OIG recommended that HUD (1) refer Capmark to the Mortgagee Review Board
for appropriate action and (2) establish a MAP Lender Review Board that would
address and resolve violations by Capmark, which could cause losses exceeding $5.9
million to HUD's Federal Housing Administration (FHA) insurance fund, and
deficiencies in Capmark's quality control plan. (Audit Report: 2007-FW-1011)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     HUD OIG reviewed HUD's MAP procedures to determine how effectively HUD
has implemented processes for reviewing and monitoring MAP lenders' underwriting
of loans.

    MAP is an effective way of processing multifamily mortgage insurance applications.
HUD has maintained a careful balance between expedited processing and ensuring an
acceptable level of risk for its mortgage insurance programs. However, it has not
processed MAP applications within established timeframes, and the MAP Guide is not
current.

    OIG recommended that HUD examine the MAP processing timeframes to
determine what practical improvements it can make to achieve faster processing and
implement the improvements. OIG also recommended that HUD update and issue a
revised MAP Guide and implement a system to ensure that new requirements are
implemented formally. (Audit Report: 2007-BO-0002)

Owner and Management Agent Operations
   Over the past 6 months, OIG has audited owner and management agent operations
with an emphasis on combating equity skimming. While OIG's objectives varied by
auditee, the majority of the reviews were to determine whether the owner and/or
management agent used the project funds in compliance with the regulatory



74                                                      HUD’s Multifamily Housing Programs
agreement and HUD requirements. The results of OIG's more significant audits are
described below.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Cathedral Foundation of Jacksonville, Inc., Jacksonville, FL,
concerning its involvement as owner and/or manager of four elderly multifamily
housing projects. The Foundation used more than $2.65 million in project funds for
questioned costs while the projects had no surplus cash and without the required HUD
approval. The questioned amount included $1.35 million, which the Foundation repaid
itself without HUD approval for project advances, and $1.3 million for questioned
salaries, fringe benefits, janitorial services, a retirement plan, parking fees, and other
costs. The questioned costs violated Federal statutes, regulations, contracts, and other
HUD requirements. The Foundation and subsidized project owners also collected nearly
$94,000 in prohibited parking fees from tenants, placing an unjustified financial
burden on the tenants.

    OIG recommended that HUD (1) require the Foundation and project owners to
deposit into the project's residual receipts accounts more than $2.5 million for
ineligible, unreasonable, or unnecessary costs and repay any portion of the more than
$147,000 in unsupported costs that it cannot document as reasonable and necessary
costs for the projects; (2) require the Foundation and the owners of the projects to
reimburse tenants who paid prohibited parking fees; and (3) take appropriate
administrative action against the Foundation and project owners for not complying
with requirements. (Audit Report: 2007-AT-1010)

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited Elders Place II, Incorporated, Philadelphia, PA, the owner of a
40-unit housing project funded under the Section 202 program. Elders Place II did not
(1) maintain complete and accurate books and records to support the receipt and
disbursement of HUD funds, (2) deposit all HUD funds intended for the construction
of the project into the project's construction account, (3) maintain adequate control
over the disbursement of project funds, (4) establish an escrow account to cover
additional construction costs, and (5) submit an acceptable cost certification to bring
the project to final closing. As a result, it made ineligible disbursements of nearly $88,000
and unsupported disbursements totaling more than $605,000 and drastically delayed
the process of bringing the project to final closing.

   OIG recommended that HUD direct Elders Place II to repay the project from
nonfederal funds for the ineligible costs identified by the audit, provide
documentation to support the questioned costs or reimburse the project for any
unsupported costs from nonfederal funds, deposit more than $95,000 into an escrow
account to cover the additional construction costs, and develop and implement
written procedures to ensure that disbursements of HUD funds are eligible and
consistent with applicable HUD and Federal regulations, thereby preventing nearly
$46,000 from being disbursed improperly over the next year. (Audit Report:
2007-PH-1006)

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

HUD’s Multifamily Housing Programs                                                        75
     HUD OIG audited the records for Moosup Gardens Apartments, Moosup, CT, a
HUD-insured multifamily project. OIG identified questioned costs and opportunities
for funds to be put to better use totaling more than $730,000. These cost exceptions
were due to weak internal controls, a lack of policies for related company transactions,
and inadequate accounting procedures. As a result, the owners (1) repaid advances when
the project was in a non-surplus-cash position, charged ineligible costs, and did not
adequately support payments to their related company; (2) paid their related
company more than $230,000 in unreasonable and unsupported relocation services
costs when the project was in a non-surplus-cash position; (3) included more than
$280,000 in unreasonable and unsupported expenses in their HUD-insured mortgage
cost certification; and (4) did not properly manage the HUD-assisted learning center.

    OIG recommended that HUD require the owners to (1) repay the project for
ineligible use of operating funds while the project was in a non-surplus-cash position
and pay down the project's mortgage for unsupported development costs, (2) repay
the project for unreasonable and unsupported relocation costs, (3) make a principal
payment to pay down the project's mortgage for unreasonable relocation costs and
provide support for or make a principal payment to pay down the project's mortgage
for unsupported operations expenses included in the mortgage amount HUD insured,
and (4) establish and implement a business plan which ensures that the project's
learning center delivers effective programs in an economical and efficient manner and
becomes self-sufficient without HUD funding. Further, OIG recommended that HUD
pursue administrative sanctions as appropriate against the responsible parties for the
unreasonable and unsupported disbursements identified. (Audit Report:
2007-BO-1006)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the owner and previous management agent of Fallbrook
Apartments in Houston, TX. The owner and/or previous management agent made
unauthorized distributions of the project's funds, totaling more than $367,000, when
the project was in a non-surplus-cash position and could not adequately support six
disbursements totaling nearly $32,000. However, the previous management agent did
not fully pay itself nearly $68,000 in management fees, and the owner repaid a total of
$150,000 to the project's operating bank account while OIG was conducting the audit,
which reduced the amount of funds owed to the project. Also, the owner did not
submit the 2005 and 2006 annual audited financial statements as required. The owner
fully funded the tenant security deposit account in March 2006 when the current
management agent took over.

    OIG recommended that HUD require the owner to (1) repay the project more than
$149,000 for unauthorized distributions and put that amount plus the $150,000 in
repaid funds in a restricted escrow account to ensure that the owner uses the funds
only for eligible project expenses, (2) provide support for the unsupported costs or
repay the project, and (3) submit the 2005 and 2006 annual audited financial
statements. HUD should pursue double damages remedies against the responsible




76                                                      HUD’s Multifamily Housing Programs
parties and pursue administrative sanctions and civil money penalties against the owner
for repeatedly violating the project's regulatory agreement. (Audit Report:
2007-FW-1012)

HUD Mortgage Insurance Program
    HUD OIG audited excess funds generated by the HUD mortgage insurance
program. Excess funds are the amounts remaining under the trust indenture after the
trustee uses mortgage insurance proceeds to redeem all outstanding bonds related to
an assigned mortgage. The audit objective was to determine whether HUD properly
identified, claimed, and collected excess funds.

    HUD had inadequate controls over origination and assignment of bond-financed
mortgages. As a result, for 33 projects reviewed, HUD failed to claim and collect $2
million in excess funds.

   OIG recommended that HUD take appropriate actions to strengthen controls and
ensure that excess funds are identified, claimed, and collected. (Audit Report:
2007-KC-0003)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Multifamily Housing Programs                                                   77
Investigations
   Some investigations discussed in this report were generated from leads provided
by HUD multifamily housing program staff or conducted jointly with Federal, State,
and local law enforcement agencies. The results of various significant investigations are
described below.

            Strategic Initiative 2: Contribute to the Reduction of Erroneous
                              Payments in Rental Assistance
     Key program            Cases                $                Convictions/pleas/             Admin/civil
       results              closed           Recovered                pretrials                    actions
  Investigations              96             $6,030,312                       40                         79
                           page 79       - Theft/Embezzlement
      Our focus            page 81       - Rental Assistance Fraud
                           page 83       - Other Fraud Crimes




                           A Look Back for the Year
Chart 4.2: Percentage of OIG Multifamily Housing Closed Investigation Cases,
                              Performed FY 07*
                                                                                                        Region 1
                                                                                                       Boston 13%

                                                        Region 5                     Region 2
                                                       Chicago 18%                 New York 8%
                            Region 7-8
                          Kansas City 15%




                                                                                                      Region 3
                                                                                                  Philadelphia 15%




       Region 9-10                                                                         Region 4
     Los Angeles 11%                                                                      Atlanta 7%
                                                           Region 6
                                                        Fort Worth 13%

* This does not include cases in which funds misused came from Congress for hurricane relief.
(see chapter 5 for these cases)




78                                                                       HUD’s Multifamily Housing Programs
Theft/Embezzlement
    Antonio Giordano, owner of Suburban Mortgage and four
HUD-insured nursing homes located in Rhode Island and
known as Coventry Health Center, Mount St. Francis Health
Center, Edmunds Place, and Hillside Health Center; and John
Montecalvo, administrator of the above nursing homes, each
pled nolo contendre in Superior Court, Providence, RI, to
embezzlement over $100,000, conspiracy, and patient
neglect at Hillside Health Center. Giordano and Montecalvo
were each sentenced to 10 years incarceration (one year
simultaneous with their current Federal prison terms) and
9 years probation; fined $500,000; and ordered to pay
Rhode Island Medicaid $500,000, Alliance for Better Long
Term Care $100,000, and 10 victims $30,000 in restitution
and pay the Rhode Island State Attorney General's Office
$8,000 for prosecution costs. Giordano, Montecalvo, and
others illegally diverted income or funds from the above
nursing homes to themselves or identity-of-interest
companies. HUD realized losses of approximately $14
million when Giordano defaulted on both the Coventry
Health Center and Edmunds Place Federal Housing
                                                            Copyright, 2007. The Providence
Administration (FHA)-insured mortgages.                            Journal - Providence, RI.
                                                                       Reprinted with permission.
                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    David Forgy, chief executive officer of RM&G and doing business as Heartland
Health Care Group of Oklahoma (Heartland), a HUD-insured nursing home, pled guilty
in U.S. District Court, Oklahoma City, OK, to misprision of equity skimming and
aiding and abetting. From March 2001 through December 2002, Forgy disbursed funds
from Heartland project accounts for his personal benefit while Heartland was in a
non-surplus-cash position and then defaulted on Heartland's HUD-insured mortgage
and caused HUD losses in excess of $4.4 million.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Iris Baez, the former board president of Co-Op City, a HUD-funded 15,372-unit
housing development, and Nickhoulas Vitale, also known as Nicky Vitale, a former
Co-Op City painter, were each arrested after their indictments in U.S. District Court,
New York City, NY, for bribery and conspiracy. Baez and others allegedly awarded a
$3.5 million painting contract to Vitale's current employer, Stadium Interior Painting,
in exchange for $100,000 in kickbacks.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Jeffrey Williams, a former Arbor Management, Inc. (AMI), property manager at
Kimberton and Carleton Court Apartments, HUD-funded multifamily housing
developments, was sentenced in U.S. District Court, Wilmington, DE, to 6 months


HUD’s Multifamily Housing Programs                                                            79
incarceration and 5 years supervised release and ordered to pay AMI $60,000 in
restitution for his earlier guilty plea to theft of Federal program funds. Williams
created and submitted fabricated maintenance and landscaping invoices to embezzle
approximately $60,000 in HUD funds from AMI.

                                       ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Charles Sitter, a former property manager at East Main Street Apartments, a
HUD-funded elderly housing development, was sentenced in Seneca County Court,
Waterloo, NY, to 6 months incarceration and 5 years probation and ordered to pay the
victim $50,000 in restitution for his earlier guilty plea to grand larceny. Sitter extorted
$60,000 from an elderly housing tenant after he threatened her with eviction.

                                       ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Nina Donehue, a board member of and Section 8 tenant at Northridge Cooperative
Homes (NCH), a HUD-funded multifamily housing development, was indicted in U.S.
District Court, San Francisco, CA, for embezzlement. Donehue allegedly used a NCH
bank card to obtain cash and purchase a vehicle and other items without authorization.
HUD's loss is estimated at $34,983.

                                       ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Denise Toce, a former manager at Luther Ridge Apartments, a HUD-funded
multifamily housing development, was arrested and charged in Connecticut Superior
Court, Middletown, CT, with larceny. Toce allegedly embezzled about $25,000 in
tenant rents and security deposits from prospective tenants.




 Copyright, 2007. The Hartford Courant - Hartford, CT. Reprinted with permission.

                                        ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Brian Smallwood, a former property manager at Yorktown Senior Housing I & II,
Inc. (YSH), HUD-funded elderly housing developments, pled guilty in U.S. District
Court, Louisville, KY, to embezzlement. Smallwood embezzled more than $5,000 in
YSH funds for personal expenditures.




80                                                                  HUD’s Multifamily Housing Programs
Rental Assistance Fraud
    Five Section 8 tenants at Woodland Village Apartments (WVA), a HUD-funded
multifamily housing development, were arrested and charged in Leavenworth District
Court, Leavenworth, KS, with making false statements. The above defendants
allegedly failed to report income on housing certifications and obtained approximately
$59,537 in housing assistance they were not entitled to receive. In addition, 20 WVA
tenants were arrested on outstanding felony and misdemeanor warrants.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Jorge Hernandez Cruz, a former manager at Casa De Las Hermanitas Apartments
(CDLH), a HUD-funded elderly and disabled housing development, was convicted in
Los Angeles County Superior Court, Los Angeles, CA, of theft. Cruz obtained more
than $16,320 from nine elderly or disabled families for priority placement in CDLH
subsidized units. In addition, Wan Shih Chen, a CDLH Section 8 tenant, was charged
with grand theft and making false representations. Chen allegedly concealed assets on
CDLH certifications and obtained more than $38,043 in CDLH housing assistance he
was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Maria Delgado, a former Section 8 tenant at Winn Residential Apartments, a
HUD-funded multifamily housing development, entered into a civil settlement
agreement with the U. S. Attorney's Office in Providence, RI, and agreed to pay HUD,
the U.S. Department of Justice, and the Providence Housing Authority $74,000 in
restitution. Delgado failed to report income and assets on housing certifications and
obtained $34,000 in housing assistance she was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Tara Lycurgus, a former Section 8 tenant at Pear Tree Park Apartments, a
HUD-funded multifamily housing development, was sentenced in U.S. District Court,
Norfolk, VA, to 5 years probation and ordered to pay HUD $25,505 in restitution for
her earlier guilty plea to making false statements. Lycurgus failed to report income on
housing certifications and obtained $25,505 in housing assistance she was not entitled
to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Mary Brown, a former Section 8 tenant at Cedar Park Apartments, a HUD-funded
multifamily housing development, and her husband, Michael Scalf, were each indicted
in U.S. District Court, Davenport, IA, for conspiracy to defraud HUD and making false
statements. Between 2001 and 2005, Brown allegedly failed to report the residency or
income of Scalf on housing or State certifications and obtained $19,036 in housing
assistance and $90,569 in State benefits she was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Multifamily Housing Programs                                                   81
    Rhoda Wright, a Section 8 tenant at Monte Vista Apartments, a HUD-funded
multifamily housing development, pled guilty in U.S. District Court, Harrisburg, PA, to
making false statements to HUD. From 2003 to 2006, Wright failed to report income on
housing certifications and obtained approximately $17,000 in housing assistance she was
not entitled to receive.

                                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Elsa Ondina Herrera-Martinez, a former Section 8 tenant at High Point Village, a
HUD-funded multifamily housing development, was sentenced in U.S. District Court,
Boston, MA, to 2 years incarceration and 3 years supervised release and ordered to pay
High Point Village $15,651 in restitution for her previous conviction of theft of government
funds, aggravated identity theft, and illegally obtaining a Social Security number.
Herrera-Martinez and previously indicted Rafael Rosario acquired and used the identity of
another to obtain more than $15,000 in housing assistance they were not entitled to receive.

                                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Glendale Stevenson, a Section 8 tenant at
Southwood Patio Homes, a HUD-funded
multifamily housing development, was sentenced in
U.S. District Court, New Orleans, LA, to 8 months
home confinement and 5 years supervised release and
ordered to pay HUD $8,430 in restitution for her
earlier guilty plea to making false statements.
Stevenson failed to report income on housing
certifications and obtained $14,820 in housing
assistance she was not entitled to receive.

            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Ellen Yoder, a Section 8 tenant at Hillside Village
Apartments, a HUD-funded multifamily housing
development, pled guilty in U.S. District Court,
Harrisburg, PA, to making false statements to HUD.
Yoder allegedly concealed her prior criminal history
on housing applications and obtained more than
$8,000 in housing assistance she was not entitled to
receive.

            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Fallon Tooley, a former Section 8 tenant at          Copyright, 2007. The Times-Picayune - New
                                                            Orleans, LA. Reprinted with permission.
Walnut Grove Apartments, a HUD-funded
multifamily housing development, was sentenced
in Clay County Court, Liberty, MO, to 3 years probation and ordered to pay HUD $7,307
in restitution for her earlier guilty plea to stealing. Tooley failed to report income on
housing certifications and obtained $7,307 in housing assistance she was not entitled to
receive.


82                                                          HUD’s Multifamily Housing Programs
    Other Fraud/Crimes
    Berne Watkins, the former owner of three FHA-insured multifamily properties sold to
previously indicted Aaron Dare, pled guilty in U.S. District Court, Albany, NY, to wire fraud
and making false statements to HUD. In 2000 and 2001, Watkins and Dare executed two
promissory notes to create the appearance that Dare held equity worth $2.5 million, and
then Dare used the fraudulent promissory notes to obtain and later default on three
FHA-insured mortgages. HUD realized losses of $1.9 million after the mortgages defaulted.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Patrick Crislip, a former HUD multifamily construction analyst, was indicted in U.S.
District Court, Kansas City, KS, for conspiracy to conceal a conflict of interest. Crislip
allegedly obtained $49,900 from Alpha Property Management, Inc., a HUD multifamily
management agent for Sunflower Park and Silver City Apartments, after he conducted
official HUD inspections of the buildings during their $1.7 million rehabilitation.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Golam Mostafa, owner of Mostafa Contracting and T&MTT, was sentenced in U.S.
District Court, New York City, NY, to 63 months incarceration and 3 years supervised
release and ordered to pay the Internal Revenue Service more than $2.9 million in
restitution for his previous conviction of Federal income tax evasion and filing a false
Federal income tax return. From 1997 through 2003, Mostafa Contracting and T&MTT
obtained more than $17.7 million in HUD funds to renovate HUD-owned multifamily
buildings and units through ARCO, a former contractor overseeing HUD multifamily
properties. Mostafa violated his HUD/ARCO contract when he subcontracted the
building renovations to ARCO employees and evaded payment of Federal income tax when
he remitted $7 million to Bangladesh via a money remitter and claimed these funds as
business expenses.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Kristie, Alethia, and Sierra Kilgore; Angela Garrett; Tracy Patton; and Lena Shaw, HUD
multifamily Housing Choice Voucher program participants, were each indicted in U.S.
District Court, Cleveland, OH, for conspiracy and uttering counterfeit obligations. From
May 2006 through January 2007, the above defendants and others allegedly created and
distributed more than $68,890 in counterfeit securities from their HUD-subsidized
housing units.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Edward Boppert, a former housing assistance recipient at Stony Crest Towers, a
HUD-funded multifamily housing development, was sentenced in Middlesex Superior Court,
Middletown, CT, to 8 years incarceration and 10 years probation for his earlier guilty plea
to possession of child pornography. Boppert possessed 322 images of child pornography in
his HUD-subsidized unit.




                                                                                          83
       Chapter 4




HUD’s Community Planning
and Development Programs
    The Office of Community Planning and Development (CPD) seeks to develop
viable communities by promoting integrated approaches that provide decent housing,
suitable living environments, and expanded economic opportunities for low- and
moderate-income persons. The primary means toward this end is the development of
partnerships among all levels of government and the private sector. In addition to the
audits and investigations described in this chapter, the Office of Inspector General (OIG)
has also conducted numerous outreach efforts. (see chapter 7, page 137)

Audits

       Strategic Initiative 3: Contribute to the Strengthening of Communities
     Key program results                 Questioned costs         Funds put to better use
 Audit         20 Audits                  $18,569,481                   $8,297,119
                 page 87        - Community Development Block Grant Programs
  Our
 focus
                 page 91        - HOME Investment Partnerships Program
                page 94         - Supportive Housing Program Grants




                              A Look Back for the Year
        Chart 5.1: Percentage of OIG Community Planning and Development
                          Audit Reports, Performed FY 07
                                                                                       Region 1
                                                                                      Boston 13%

                                                  Region 5           Region 2
                                                 Chicago 10%       New York 27%
                         Region 7-8
                       Kansas City 13%




                                                                                     Region 3
                                                                                  Philadelphia 7%




       Region 9-10                                                        Region 4
     Los Angeles 23%                                                     Atlanta 7%
                                                     Region 6
                                                  Fort Worth 0%




86                                           HUD’s Community Planning and Development Programs
    OIG audits the Community Development Block Grant (CDBG) program,
Supportive Housing Program grants, and the HOME Investment Partnerships Program
(HOME). While OIG's objectives varied by auditee, the majority of the reviews were to
determine whether the grant funds were administered for eligible activities and that
they met program objectives. The following section illustrates the audits conducted
in the CPD area.

Community Development Block Grant Programs
    HUD OIG audited the City of Newark's, Newark, NJ, CDBG program. The City
did not (1) maintain proper supporting documents for payments made on a bond
obligation, (2) report and adequately account for program income, and (3) maintain
adequate supporting documents for its drawdowns. As a result, more than $10 million
in bond and other payments is unsupported, more than $261,000 in disbursements are
ineligible, and the City cannot ensure that more than $9.7 million in future bond
payments will be an efficient use of funds. In addition, the City's financial management
system did not ensure that (1) administrative costs were expended in proportion to
delivery costs, (2) adequate time distribution records were used to allocate personnel
expenses to various programs, (3) accounting records were accurate, and (4) key
positions had adequate separation of duties. The City also did not implement proper
program controls to adequately administer and monitor its CDBG programs.

   OIG recommended that HUD instruct the City to (1) reimburse the CDBG
program from nonfederal funds almost $247,000 paid in excessive bond drawdowns
and (2) provide supporting documentation for more than $9.8 million in disbursements
made related to bond payments or reimburse the CDBG program for any amounts not
supported from nonfederal funds. (Audit Report: 2007-NY-1008)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     HUD OIG audited the Municipality of Toa Baja's, Toa Baja, PR, CDBG program.
The Municipality improperly used CDBG funds for ineligible new housing
construction; did not ensure that units were adequate, safe, and sanitary; and lacked
adequate documentation to support program accomplishments. Therefore, program
expenditures of more than $77,000 are ineligible, and more than $1 million is
considered unsupported pending an eligibility determination by HUD. In addition,
the Municipality's financial management system did not properly allocate more than
$297,000 in administrative expenditures, did not support the allowability of more than
$107,000 in program disbursements, could not account for more than $84,000 in CDBG
receipts, and allowed the use of more than $12,000 for ineligible expenditures. The
Municipality also awarded six contracts, totaling more than $231,000, without
following HUD procurement requirements, did not support the reasonableness of more
than $167,000 in CDBG disbursements, and paid more than $5,000 for excessive
expenditures.

    OIG recommended that HUD require the Municipality to (1) repay the program
more than $89,000 in ineligible expenditures and more than $5,000 in excessive costs;
(2) provide all supporting documentation showing the appropriateness and eligibility


HUD’s Community Planning and Development Programs                                    87
of more than $1.72 million in CDBG disbursements; (3) develop and implement an
internal control plan to ensure that the CDBG program has controls and procedures
which ensure that the housing rehabilitation activities meet the program objectives, a
financial management system that complies with HUD requirements, and procurement
procedures which ensure that goods and services are obtained at the most
advantageous terms and in a manner providing full and open competition; and (4)
ensure that CDBG expenditures are properly accounted for, reconciled with HUD's
disbursement system, and in compliance with requirements. (Audit Report:
2007-AT-1007)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    OIG audited the Office of Housing and Community Development, City of New
Bedford's, New Bedford, MA, administration of its CDBG and HOME programs. The
City generally administered its CDBG and HOME programs in accordance with HUD
regulations. However, it failed to ensure that two of its subrecipients followed HUD
requirements for full and open competition regarding procurements for construction
work and did not ensure that another subrecipient attained its program objectives of
issuing the required number of loans and creating the required number of new jobs. In
addition, the City did not ensure that this subrecipient properly collateralized CDBG
funds on deposit in the same bank or made loans that did not involve conflicts of
interest. As a result, there is a lack of assurance that subrecipient procurements were
fair and equitable and that the most favorable contract prices were obtained for
$750,000 in construction funding, more than $1 million in CDBG funding for loans and
job creation may not have been the best use of HUD funds, CDBG funds totaling more
than $188,000 were not adequately safeguarded against loss, and a subrecipient approved
two loans that created apparent conflicts of interest.

    OIG recommended that HUD require the City to (1) obtain a cost analysis for each
subrecipient to support the funding provided for construction contracts, (2) ensure
that the future use of CDBG funds creates the number of new jobs necessary to fulfill
the requirements of past and current agreements to put current funding of $285,000
to better use, (3) obtain and provide evidence that CDBG funds in excess of Federal
Deposit Insurance Corporation (FDIC) limits for the subrecipient are fully
collateralized, and (4) ensure that the subrecipient establishes adequate policies
addressing conflicts of interest including requirements for providing full disclosure.
(Audit Report: 2007-BO-1005)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the operations of the Town of Alexandria, Alexandria, NY,
regarding its administration of a Small Cities Community Development Block Grant
obtained in September 1999 under HUD's Canal Corridor Initiative.

     The grantee disbursed CDBG funds for project costs that were necessary,
reasonable, and in accordance with Federal regulations; however, it did not ensure that
its use of the grant proceeds complied with program objectives. Specifically, its use of
CDBG funds did not result in job creation, the program objective for which HUD
provided the funds.


88                                   HUD’s Community Planning and Development Programs
     OIG recommended that HUD follow up on the grantee's progress toward meeting
its job creation goal for the project and set a specified deadline for meeting the goal, use
the $50,000 per job standard to determine how much of the $600,000 in CDBG funds
are eligible costs, and require the grantee to reimburse the program from nonfederal
funds for any amounts determined to be ineligible. (Audit Report: 2007-NY-1009)

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Lower Manhattan Development Corporation's (LMDC)
administration of the CDBG Disaster Recovery Assistance funds provided to the State
of New York as a result of the September 11, 2001, terrorist attacks on the World Trade
Center in New York City, NY. LMDC disbursed approximately $76.7 million of these
funds from April 1 through September 30, 2006.

    LMDC generally disbursed the funds in accordance with HUD-approved action
plans, expended funds for eligible planning and administrative expenses in accordance
with applicable laws and regulations, and maintained a financial management system
that adequately safeguarded the funds. However, LMDC can strengthen its
monitoring of Small Firm Attraction and Retention Grant program recipients'
compliance with retention requirements and provide greater assurance that funds
disbursed in the Cultural Enhancement Fund program further program objectives.

    OIG recommended that HUD (1) ensure the recovery of $6,000 in erroneous Small
Firm Attraction and Retention Grant payments, (2) require LMDC to strengthen
controls in the Small Firm Attraction and Retention Grant program to more effectively
identify any grant recipients that do not remain at eligible business premises for the
minimum 5-year term, and (3) monitor and evaluate the outcome-based performance
measures established for the Cultural Enhancement Fund program to ensure that funded
activity will have a positive impact upon the long-term revitalization of lower
Manhattan. (Audit Report: 2007-NY-1005)

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    During the period, HUD OIG also reported on the Lower Manhattan Development
Corporation's (LMDC), New York, NY, administration of the CDBG Disaster
Recovery Assistance funds disbursed from October 1, 2006, through March 31, 2007.
During this period, LMDC disbursed approximately $98.7 million of the $2.783 billion
in funds appropriated. The audit objectives were to determine whether LMDC (1)
disbursed Disaster Recovery Assistance funds in accordance with the guidelines
established under HUD-approved partial action plans, (2) expended Disaster
Recovery Assistance funds for eligible administration and planning expenses in
accordance with applicable laws and regulations, and (3) had a financial management
system in place that adequately safeguarded funds and prevented misuse.

    LMDC generally disbursed the $98.7 million in Disaster Recovery Assistance funds
in accordance with HUD-approved action plans, expended funds for eligible
administration and planning expenses in accordance with applicable laws and
regulations, and maintained a financial management system that adequately safeguarded
funds and prevented misuse. However, the audit disclosed an internal control


HUD’s Community Planning and Development Programs                                        89
weakness that resulted in the drawdown of more than $1.2 million in Utility
Restoration and Infrastructure Rebuilding program funds by a subrecipient without
LMDC's written approval as required.

    OIG recommended that HUD require LMDC to strengthen its drawdown controls
over the Utility Restoration and Infrastructure Rebuilding program to ensure that its
subrecipient complies with the subrecipient agreement. (Audit Report:
2007-NY-1013)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   In addition to the above two audits of the Lower Manhattan Development
Corporation (LMDC) in New York City, NY, HUD OIG audited the Utility
Restoration and Infrastructure Rebuilding (URIR) program. The objectives were to
determine whether certain activities, for which funds have been disbursed and
additional funds are planned to be disbursed, represent an appropriate expense of the
program.

    An analysis is warranted to determine whether URIR category two costs, approved
via an amendment of internal program guidelines, should have been approved via the
action plan process. Further, when the amended action plan S-2 is submitted for
approval, the proposed additional southern site costs warrant careful review to
determine whether they are costs that were contemplated by the original program and
whether some of those planned expenditures more appropriately should be charged to
another program.

     OIG recommended that HUD instruct LMDC to provide documentation so that
HUD can determine whether the southern site activity added via program guidelines
meets the criteria necessary to be included as part of the initial URIR program's
objectives and whether the utility work outlined for the southern site should have gone
through the same action plan procedures as other activities. If the southern site
disbursements do not meet the criteria of the program, LMDC should be instructed to
seek repayment of the funds already advanced and, when the amended partial action
plan S-2 is submitted for HUD approval, provide additional specifics as to the activity
to be funded via the proposed amendments to the partial action plan so that a
determination can be made as to whether it is consistent with the congressional intent
for the URIR program. (Audit Report: 2007-NY-0802)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   HUD OIG reviewed the CDBG and HOME programs administered by the
Community Development Agency, City of Fall River, MA. The City generally
administered its CDBG and HOME programs in compliance with HUD requirements.
The City's (1) internal controls over its management process, accounting, and data
processing were adequate; (2) CDBG funds were used for national objectives; (3) CDBG
and HOME program funds were used for eligible activities and were adequately
supported; and (4) CDBG and HOME program income was properly accounted for.
OIG made no formal recommendations, and no further action is necessary. (Audit
Report: 2007-BO-1007)


90                                   HUD’s Community Planning and Development Programs
HOME Investment Partnerships Program
   HUD OIG audited the State of Utah's HOME program administered by the Utah
Department of Community and Culture, Division of Housing and Community
Development.

     The Division incorrectly used more than $1 million in HOME funds when program
income funds were available for use. It generated so much program income that it did
not effectively expend its entitlement funds and could lose more than $4 million in
entitlement funds because it did not establish and complete HOME projects within
the required periods. It also did not conduct the required monitoring of the contract
recipients' HOME activities. It used about $300,000 in HOME funds to pay expenses
for the Utah Capacity Building Collaborative without substantiating that the expenses
were for HOME-related activities.

   OIG recommended that HUD (1) require the Division's management to establish
and implement written policies and procedures for the HOME functions and the Olene
Walker Housing Loan Fund's board to bring its goal into agreement with its objective
and HUD requirements, (2) determine whether the questionable costs were necessary
and require the Division to repay any unnecessary costs, and (3) monitor the Division's
HOME activities and provide technical assistance. (Audit Report: 2007-DE-1006)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the City of Passaic's, Passaic, NJ, HOME program. The City did
not follow HUD and HOME regulations regarding the receipt and disbursement of
program income. It also did not always document compliance with HUD and local
program regulations regarding rehabilitation, acquisition, new construction, and
monitoring activities. Further, it did not follow Federal procurement regulations
regarding a professional service contract and a funding agreement to provide
rehabilitation and acquisition services.

     OIG recommended that HUD instruct the City to record almost $529,000 in
program income in HUD's Integrated Disbursement and Information System (IDIS),
provide adequate support for more than $53,000 in disbursements of program income,
and expend the balance of almost $476,000 in its two local accounts before making
additional drawdowns from HOME funds. Also, the City should reimburse HOME from
nonfederal funds almost $98,000 related to the ineligible acquisition and new
construction costs incurred, provide documentation for almost $584,000 in
unsupported activities, and ensure that annual monitoring reviews are performed so
that more than $790,000 will be put to better use. Finally, the City should provide
contracts/written agreements for the unsupported disbursements of almost $205,000,
implement proper bidding procedures and obtain a current funding agreement with
its community housing development organization to ensure that future expenditures
of more than $360,000 will be put to better use, and repay more than $4,000 paid
for rehabilitation services incurred in excess of contract limits. (Audit Report:
2007-NY-1012)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○



HUD’s Community Planning and Development Programs                                    91
    HUD OIG audited the City of Jersey City's, Jersey City, NJ, HOME program. The
City failed to (1) enter into a contract for new construction and ensure that financing
was available before disbursing funds, (2) ensure that funds disbursed were adequately
secured, (3) repay funds related to two terminated projects, and (4) enter accurate
information into IDIS.

    OIG recommended that the HUD require the City to submit all supporting
documentation to HUD regarding almost $355,000 in HOME funds disbursed without
a contract so that HUD can make an eligibility determination. Any amounts
determined to be ineligible should be repaid from nonfederal funds. In addition, the
City should repay almost $268,000 plus interest for the two terminated rehabilitation
projects and establish and implement controls to ensure that HOME funds are used in
accordance with all program requirements and written agreements, periodic
monitoring is performed on the activities so that appropriate action can be taken when
performance problems arise, amounts disbursed are properly recorded on mortgage
notes and agreements, and accurate information is entered into IDIS. (Audit Report:
2007-NY-1007)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     HUD OIG audited the Cook County, IL, HOME program. The County did not
effectively administer HOME and violated HUD's HOME requirements. It did not
comply with HUD's regulations and/or its manual of administrative procedures for
residential rehabilitation and/or policies and procedures for lead-based paint in
housing programs in providing housing rehabilitation assistance for owner-occupied
single-family rehabilitation projects and/or American Dream Downpayment Initiative
activities' assistance with downpayments and closing costs. It inappropriately provided
more than $100,000 in HOME funds to assist two projects that did not qualify as
affordable housing, using $15,000 in HOME funds for excessive project delivery costs
for two projects, and was unable to support its use of nearly $828,000 in HOME and
Initiative funds for projects and activities.

    OIG recommended that HUD require the County to reimburse HOME from
nonfederal funds for the improper use of funds, provide support or reimburse HOME
from nonfederal funds for the unsupported payments, and implement adequate
procedures and controls to address the issues identified. These procedures and
controls should help ensure that nearly $154,000 in HOME funds is used over the next
year for projects that qualify as affordable housing. (Audit Report: 2007-CH-1015)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Tacoma Consortium HOME program, in Tacoma, WA. The
Consortium generally administered HOME in accordance with HUD requirements but
violated HOME regulations when it drew down funds for a homeowner who was not
low income, a homeowner whose income was not adequately documented, projects that
were not completed to code, luxury improvements, and rehabilitation activities that
were not compliant with HUD requirements or its own written rehabilitation
standards. In addition, contrary to HUD procurement regulations, the Consortium



92                                   HUD’s Community Planning and Development Programs
did not perform an independent estimate or cost analysis to determine whether
contract change orders were reasonable.

    OIG recommended that HUD require the Consortium to repay HOME from
nonfederal funds more than $187,000 in ineligible costs, provide supporting
documentation or repay from nonfederal funds more than $48,000 in unsupported costs,
and implement policies and procedures so that its grant activities are carried out in
accordance with applicable laws, regulations, and Consortium rehabilitation standards
to put more than $263,000 in homeowner rehabilitation funds to better use over the
next year. (Audit Report: 2007-SE-1004)

                                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the City of Milwaukee's,
Milwaukee, WI, HOME program. The City did
not ensure that its owner-occupied single-
family rehabilitation projects and American
Dream Downpayment Initiative activities met
HUD's and/or the City's property standards
and did not maintain an effective system of
controls over its contracting processes for
projects. It used more than $300,000 in HUD
funds for projects and activities that did not
meet HUD's and/or the City's standards.

    OIG recommended that HUD require the
City to ensure that housing rehabilitation work
and required repairs are completed or
reimburse HOME and the Initiative from
nonfederal funds for the projects and an
activity that did not meet HUD's and/or the        Copyright, 2007. Milwaukee Journal Sentinel -
City's standards and implement adequate              Milwaukee, WI. Reprinted with permission.
procedures and controls to address the issues
identified. These procedures and controls should help to ensure that at least $120,000
in HOME funds is appropriately used over the next year for projects that meet HUD's
and the City's standards. (Audit Report: 2007-CH-1018)

                                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the City of Cincinnati's, Cincinnati, OH, HOME program. The
City did not effectively administer HOME and violated HUD's requirements. It did
not comply with HUD's regulations in providing housing rehabilitation assistance for
owner-occupied single-family rehabilitation projects and/or downpayments, closing
costs, homebuyer counseling, and home inspections for American Dream Downpayment
Initiative activities. It inappropriately provided more than $225,000 in HOME funds
to assist three projects that either did not qualify as affordable housing or in which the
household was not income eligible, inappropriately provided $41,000 in Initiative funds
to assist five households that were not income eligible, and was unable to support its
use of nearly $1.4 million in HOME and Initiative funds for projects and activities.


HUD’s Community Planning and Development Programs                                            93
    OIG recommended that HUD require the City to reimburse HOME and the
Initiative from nonfederal funds for the improper use of funds, provide support or
reimburse HOME and the Initiative from nonfederal funds for the unsupported
payments, and implement adequate procedures and controls to address the issues
identified. These procedures and controls should help to ensure that more than $134,000
in HOME and Initiative funds is appropriately used over the next year. (Audit Report:
2007-CH-1017)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the State of Maryland's HOME program. The State did not
always administer its HOME-assisted single-family homeownership assistance program
in accordance with Federal regulations and written agreements. OIG found no
violations of conflict-of-interest and modest home provisions, and the State adequately
enforced the recapture provisions by securing liens against the assisted properties
through deeds of trusts. However, the State did not have adequate internal controls to
effectively monitor its subrecipients' administration of the program. It did not
adequately monitor its subrecipients' performance to ensure that (1) records to
support property standard compliance were maintained, (2) hazard insurance
requirements were enforced, and (3) income eligibility was properly determined. As a
result, it awarded $73,000 in unsupported HOME funds.

    OIG recommended that HUD require the State to submit all supporting
documentation to HUD to support the HOME funds awarded. Any amounts
determined to be ineligible should be repaid from nonfederal funds. Also, OIG
recommended that the State establish and implement written monitoring policies to
ensure adequate monitoring of its subrecipients' compliance with all Federal
requirements and written agreements to include periodic in-house reviews and on-site
monitoring of its subrecipients. (Audit Report: 2007-PH-1012)

Supportive Housing Program Grants
    HUD OIG audited the Central City Lutheran Mission's, San Bernardino, CA,
Supportive Housing Program grant funding. The Mission lacked the capacity to
properly administer multiple Supportive Housing Program grants. In addition, it spent
more than $294,000 for unsupported and ineligible expenses and failed to fully
support that it provided required matching funds for more than $429,000 in grant
funds. It also prematurely sold two apartment buildings purchased with $280,000 in
grant funds without HUD's written approval. Finally, while the Mission correctly
verified the eligibility of its clients, it failed to collect more than $13,000 in funds
because the rents were not calculated correctly.

    OIG recommended that HUD (1) not provide the Mission with any future funding
until it has implemented adequate systems and controls and (2) require the Mission to
reimburse the grants and/or repay HUD from nonfederal funds for more than $699,000
in unsupported expenses and more than $304,000 in ineligible expenses and to




94                                   HUD’s Community Planning and Development Programs
implement effective procedures and controls to ensure that all income and expenses
are properly considered so that rent calculations are correct. (Audit Report:
2007-LA-1012)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     HUD OIG audited A Community of Friends', Los Angeles, CA, Supportive
Housing Program cash match program. The Community did not always administer its
Supportive Housing Program cash match in compliance with HUD requirements. It
failed to meet its supportive services cash match requirements for 1 of 15 grants
reviewed. The grant did not meet the 25 percent cash match requirements and
included ineligible expenses as cash match. A second grant, while still active, was
deficient in the amount of cash match provided during the first four months of the
grant term. As a result, neither HUD nor the Community was assured that the
Community maximized the effectiveness of the Supportive Housing Program's intent.

    OIG recommended that HUD require the Authority to repay the $71,318 balance of
the grant funds expended. (Audit Report: 2007-LA-1016)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Los Angeles Homeless Authority's, Los Angeles, CA,
Supportive Housing Program grant funding. The Authority neglected to perform
on-site fiscal monitoring of its project sponsors and failed to properly perform its 100
percent source documentation desk review for at least two of its project sponsors to
ensure that cash match funding was eligible and supported. Of the two project
sponsors reviewed, one had applied ineligible expenses as cash match, while the other
was unable to support its cash match due to a poor financial management system.

    OIG recommended that HUD require the Authority to comply with HUD's
requirements regarding on-site fiscal monitoring of its project sponsors, reexamine its
desk review procedures to ensure that reviews are performed to adequately monitor its
project sponsors' cash match, reevaluate its current risk analysis matrix to better
identify the more problematic project sponsors, and establish and implement written
monitoring procedures. (Audit Report: 2007-LA-1013)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Community Planning and Development Programs                                    95
Investigations
    Some investigations discussed in this report were generated from leads provided
by HUD CPD program staff or conducted jointly with Federal, State, and local law
enforcement agencies. The results of various significant investigations are described
below.


       Strategic Initiative 3: Contribute to the Strengthening of Communities
     Key program            Cases                $                 Convictions/pleas/             Admin/civil
       results              closed           Recovered                 pretrials                    actions
  Investigations              38             $2,072,741                       36                         22
                           page 97       - Theft/Embezzlement
      Our focus
                          page 100 - Other Fraud Crimes




                            A Look Back for the Year
  Chart 5.2: Percentage of OIG Community Planning and Development Closed
                     Investigation Cases, Performed FY 07*
                                                                                                        Region 1
                                                                                                       Boston 18%

                                                        Region 5                     Region 2
                                                       Chicago 10%                 New York 30%
                            Region 7-8
                          Kansas City 10%




                                                                                                      Region 3
                                                                                                  Philadelphia 6%




       Region 9-10                                                                         Region 4
      Los Angeles 5%                                                                      Atlanta 6%
                                                           Region 6
                                                        Fort Worth 15%


* This does not include cases in which funds misused came from Congress for hurricane relief.
(see chapter 5 for these cases)




96                                                HUD’s Community Planning and Development Programs
Theft/Embezzlement
    Frank DeSantis, president of Community Partnership Development Corporation
(CPDC), a HUD-funded nonprofit administering a $16.9 million Low Income Housing
Preservation and Resident Homeownership Act grant, was indicted in U.S. District
Court, Los Angeles, CA, for obstructing a Federal audit. DeSantis allegedly provided
fabricated time sheets and certifications to justify nearly $3.2 million in overstated and
unapproved construction fees paid to CPDC employees during the rehabilitation of
three multifamily housing projects.

                                   ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Leroy Brown, a former financial manager for the Salvation Army sentenced in U.S.
District Court, Newark, NJ, for his earlier guilty plea to conspiracy to steal from an
organization receiving Federal funds and Federal income tax evasion, was debarred from
procurement and nonprocurement transactions as a participant or principal with HUD
and throughout the Executive Branch of the Federal Government for 3 years. Brown
and others created fraudulent documents, issued bogus landlord payments, and
embezzled $385,760 from a Salvation Army bank account funded in part with HUD
Housing Opportunities for Persons with Aids (HOPWA) funds.

                                   ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


                             Angel Guzman, a former operations manager for Friends of the
                         Homeless, Inc. (FOH), a HUD-funded nonprofit, and former FOH
                         intake supervisor Michael Hallahan were each sentenced in U.S.
                         District Court, Springfield, MA, for their earlier guilty pleas to mail
                         fraud and conspiracy to commit mail fraud. Guzman was sentenced
                         to 10 months incarceration and 36 months probation and ordered
                         to pay FOH $40,665 in restitution. Hallahan was sentenced to 2
                         years probation, ordered to perform 400 hours community service,
                         and fined $3,240. Guzman and previously convicted FOH executive
                         director Francis Keough falsely certified FOH unit occupancy
                         certifications and obtained about $38,000 in FOH housing assistance
                         for unqualified tenants. Hallahan, while employed at FOH and
                         during FOH working hours, assisted Keough with the construction
                         of his personal residence. HUD losses are estimated at $145,000.

                                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


                             Phyllis Tate, the HOME grant administrator at Golden Triangle
                         Planning and Development District (Golden), a HUD-funded
                         organization; her daughter, Keina Tate; Josh Brown, a Golden
                         building inspector; Jason Clark, owner of J-Max Construction; and
                         Richard Ramsey, owner of RB&J Construction, were each indicted
                         in U.S. District Court, Starkville, MS, for conspiracy, embezzlement,
Copyright, 2007. The
Republican - Springfield, MA.
Reprinted with permission.


HUD’s Community Planning and Development Programs                                            97
Copyright, 2007. Starkville Daily News - Starkville, MS. Reprinted with permission.


money laundering, structuring financial transactions, and aiding and abetting. Ramsey
and Brown each pled guilty to embezzlement, money laundering, or conspiracy. Phyllis
and Keina Tate and Clark allegedly and Ramsey and Brown admittedly created
fictitious invoices and building inspections for nonexistent homes, deposited Golden
payments into bank accounts controlled by J-Max Construction or RB&J
Construction, and used about $120,000 in HUD HOME funds for personal gain.

                                       ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Elischa Campbell, the former director of Just-a-Sister-Away (JASA) House of Texas,
Inc., a HUD-funded Supportive Housing Program nonprofit, pled guilty in State
District Court, Houston, TX, to misappropriation of fiduciary property or property of
a financial institution. Campbell was sentenced to 4 years probation and ordered to
perform 240 hours of community service and pay HUD $47,500 in restitution. Campbell
submitted false documents to support the use of $47,500 in JASA funds to purchase
property, but no property was acquired.

                                       ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Ebony Davis, a former HOPWA case manager
for Volusia and Flager Counties AIDS Coalition, a
HUD-funded organization, pled guilty in U.S.
District Court, Orlando, FL, to embezzlement.
Davis falsified HOPWA recipient lease agreements,
generated payments to fabricated landlords, and
embezzled more than $11,036 in HOPWA funds.

               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    George Crawford, Derrick Ward, and Abdullah
Aziz, also known as Marion Gaillard, were each
indicted in U.S. District Court, New York City, NY,
for conspiracy to defraud HUD and theft of
government funds. Crawford, Ward, and Aziz
allegedly submitted false applications and obtained
more than $8,800 in Business Recovery Grant funds
from Empire State Development Corporation, a
                                                          Copyright, 2007. The Daytona Beach News Journal -
                                                                    Daytona Beach, FL. Reprinted with permission.

98                                               HUD’s Community Planning and Development Programs
HUD-funded nonprofit established to provide assistance to businesses in lower
Manhattan after the September 11, 2001, terrorist attacks.

                                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    William Walker, the former director of New Brunswick's Neighborhood
Preservation and Housing Rehabilitation Programs (BNP/BHR), HUD-funded
organizations, was arrested after his indictment in U.S. District Court, Newark, NJ, for
extortion under color of official right and soliciting and accepting corrupt payments.
Walker allegedly accepted $112,500 in bribes from Friendly Maintenance Group and
TAJ Maintenance, construction and maintenance companies under contract with BNP/
BHR. In addition, Richard Kaplan, the former director of New Brunswick Department
of Community Planning and Economic Development (BCPED); Linda Carol Roach, a
former supervisory clerk at BCPED; and Prakash George Karot, a City of Perth Amboy
housing inspector and maintenance manager at TAJ, each pled guilty to bribery, aiding
and abetting, or receiving corrupt payments. Kaplan received kickbacks from
contractors in exchange for monthly rehabilitation contracts, expedited and lenient
inspections, and accelerated contract payments. Roach accepted cash payments from
BCPED contractors in exchange for expedited contract payments. Karot, while under
contract with BCPED, provided kickbacks to BCPED employees. HUD losses are not
yet determined.

                                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Sharpe James, the former mayor of Newark, NJ, and Tamika Riley, a former New
Jersey Department of Community Affairs (NJDCA) housing assistance recipient, were
each indicted in U.S. District Court, Newark, NJ, for misuse of government credit cards,
fraudulent sales of government property, fraud involving a local government receiving
Federal funds, and wire and mail fraud. James allegedly arranged the sale of discounted
municipal real estate to Riley, who then allegedly resold the properties to developers
and shared the gains with James. James also allegedly used city-issued credit cards for
personal expenses, and from December 2001 until September of 2005, Riley allegedly
submitted false information on NJDCA certifications and obtained NJDCA housing
assistance she was not entitled to receive. HUD losses are not yet determined.

                                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Richard A. Goyette, the former mayor of Chicopee, MA, pled guilty in U.S. District
Court, Springfield, MA, to extortion. Goyette extorted $5,000 as a campaign




       Copyright, 2007. The Republican - Springfield, MA. Reprinted with permission.

HUD’s Community Planning and Development Programs                                      99
contribution from a developer under contract with Chicopee's Office of Economic
Development (CED), a HUD-funded entity, and in return, Goyette promised to
approve and then modify and extend the CED contract to benefit the developer.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Anthony Ardolino, the former chief of staff for the
mayor of Springfield, MA; his brother and former
Springfield police officer Chester Ardolino; and
Matthew Campagnari were each sentenced in U.S.
District Court, Springfield, MA, for their earlier guilty
pleas to conspiracy, filing false Federal income tax
returns, and witness intimidation. Anthony and
Chester Ardolino were each sentenced to 12 months
plus one day incarceration and 2 years supervised
release and fined $10,000. Campagnari was sentenced
to 18 months incarceration and 2 years probation, fined
$20,000, and ordered to perform 200 hours of
community service. The above defendants conspired
to influence the awarding of HUD CDBG funds
available through the City of Springfield's Façade
program to businesses owned by Campagnari, Chester
Ardolino, and other Ardolino family members.
                                                            Copyright, 2007. The Republican -
                                                          Springfield, MA. Reprinted with permission.


Other Fraud/Crimes
    James Middleton, the former executive director of Southside Community
Development and Housing Corporation, a HUD-funded nonprofit, pled guilty in U.S.
District Court, Richmond, VA, to mail fraud. Middleton provided fraudulent
applications to private corporations and obtained $300,000 in grants and loans to pay
cost overruns on Southside building projects.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Timothy Giggey and Douglas Hersom were each sentenced in U.S. District Court,
Portland, ME, for their earlier guilty pleas to maliciously damaging or destroying a
building by means of fire. Giggey was sentenced to 95 months incarceration and 3 years
supervised release and ordered to pay Peerless Insurance Company $351,333 in
restitution. Hersom was sentenced to 151 months incarceration and 3 years supervised
release and ordered to pay Peerless Insurance Company $351,333 in restitution, jointly
and severally with Giggey. Giggey, Hersom, and others set a fire and destroyed a
building under renovation and owned by Greeley Capital, LLC, the recipient of a $50,000
HUD CDBG loan through the City of Lewiston Economic and Community
Development Office.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




100                                   HUD’s Community Planning and Development Programs
    Wendell France, a former Baltimore County Housing Authority (BCHA) HOPWA
Section 8 tenant and BCHA landlord, was arrested and charged in Baltimore County
Circuit Court, Baltimore, MD, with theft. France allegedly failed to report
employment, business income, assets, or his receipt of BCHA landlord payments on
BCHA HOPWA certifications and obtained $18,659 in BCHA HOPWA housing
assistance he was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Jeffrey T. Mallinson, an unauthorized resident in a subsidized housing unit
provided by Virginia Supportive Housing (VSH), a HUD-funded organization, pled
guilty in Chesterfield District Court, Chesterfield County, VA, to obtaining money by
false pretenses and failing to appear. Mallinson was sentenced to 12 years incarceration
(suspended) and indeterminate probation and ordered to pay VSH $1,076 and two
financial institutions $1,731 in restitution. Mallinson accessed a VSH bank account and
used $1,076 in VSH funds for personal Internet purchases. VSH terminated the
subsidized housing recipient with whom Mallinson resided.




HUD’s Community Planning and Development Programs                                    101
   Chapter 5




Hurricane Relief
  Oversight
                     Cases Closed by Program Area, Performed FY 07*




          45                                                                            45
          40
           35
          30
          25
          20
                                                  12
           15
           10                                                         5
                             3
            5
            0
                        SF                   PIH                   MF                CPD



* Total number of hurricane-related cases, some of which may have been worked in different States due to relocation
of evacuees.




104                                                                                  Hurricane Relief Oversight
Introduction and Background
    The U.S. Department of
Housing and Urban Development
(HUD), Office of Inspector General
(OIG), successfully established the
Gulf Coast regional Offices of Audit
and Investigation in the Gulf Coast
disaster areas to prevent, detect, and
combat fraud, waste, and abuse of
HUD program disaster funds.
HUD received supplemental
appropriations of approximately
$17 billion. HUD has approved
numerous State action plans and distributed billions of dollars in the form of HUD
Community Development Block Grants (CDBG) for housing and other needs. In
addition, HUD has been preparing to provide temporary housing assistance for
Federal Emergency Management Agency (FEMA) households from the declared
disaster areas, under a FEMA interagency agreement, using FEMA funds. HUD has
also provided a variety of public housing program funds for repair and reconstruction
of severely damaged public housing properties.

    The HUD OIG Office of Audit continues to be diligent in its efforts to pursue fraud,
waste, and abuse in the audits of the $17 billion in HUD's emergency supplemental
funding provided to the Gulf Coast States. The HUD OIG Office of Audit Gulf Coast
Region now has completed five audits of disaster recovery efforts including an internal
audit of HUD's emergency contracting process. Currently, auditors are evaluating the
control processes for the two largest contractors of the homeowner grant programs for
the States of Louisiana and Mississippi. Funding for Louisiana's Road Home Program
(RHP) exceeds $6.25 billion, and the amount obligated for Mississippi's homeowner
program totals $3.25 billion.

    The Office of Investigation has concentrated on hurricane fraud in the Gulf Coast
by focusing its resources in the recently established Gulf Coast Region headquartered
in New Orleans, LA, and the Disaster Relief Oversight Division in Washington, DC.
The Gulf Coast Region consists of 10 special agents (including a special agent in charge),
five forensic auditors (including a supervisory forensic auditor), and one
administrative officer. The Gulf Coast Region conducted the majority of our
investigations, although it should be noted that there have been criminal investigations
related to Hurricane Katrina fraud throughout the country.

     The Office of Investigation has provided training, presentations, and outreach on
HUD disaster recovery funding and investigative matters to prosecutors, law
enforcement, and State agencies. In the Gulf Coast Region, we have been working with
the State agencies and grantees to implement antifraud measures, which they have
utilized in their disbursement of disaster funds. For example, the State agencies in
Louisiana, Mississippi, and Texas have established fraud controls recommended by HUD
OIG for their homeowner assistance grant programs. The Gulf Coast Region is also


Hurricane Relief Oversight                                                            105
actively participating in the U.S. Department of Justice (DOJ) Hurricane Katrina Fraud
Task Force in Baton Rouge, LA, which receives approximately 1,000 hotline calls
monthly related to hurricane fraud.

    The Disaster Relief Oversight Division (DROD) consists of two supervisory special
agents (including a special agent in charge) that monitor and assist with all disaster
investigations nationwide. DROD supports the Gulf Region and conducts a variety of
important activities for the HUD OIG Office of Investigation, including the
coordination of public corruption and contract fraud matters with DOJ. DROD works
closely with the Office of Audit to monitor and conduct research on all HUD disaster
program funds. DROD continues to implement fraud prevention measures within HUD
and in the affected States of the Gulf Coast Region.

Hurricane Financial Profiles of HUD Community
Development Block Grant Funds
    The following provides the status as of September 30, 2007, of the HUD CDBG
disaster funds appropriated to the five Gulf States and a summary of the homeowners
programs for Mississippi and Louisiana. HUD's distribution of the funds and the
receipt and use of the funds by State agencies, contractors, consultants, homeowners,
and evacuees are being tracked and monitored for waste, fraud, and abuse by the HUD
OIG Office of Audit and Office of Investigation.

Disaster Community Development Block Grant
        States             Allocation             Disbursement               Balance
                                         Alabama
1st & 2nd                 $95,613,574               $8,342,871            $87,270,703
Supplemental Total
                                         Florida
1st & 2nd                 $182,970,518              $441,936             $182,528,582
Supplemental Total
                                        Louisiana
1st & 2nd              $10,410,000,000            $4,521,777,327        $5,888,222,673
Supplemental Total
                                     Mississippi
1st & 2nd               $5,481,221,059            $1,628,702,618        $3,852,518,441
Supplemental Total
                                          Texas
1st & 2nd                $503,194,849               $8,195,457           $494,999,392
Supplemental Total

       Totals          $16,673,000,000            $6,167,460,209        $10,505,539,791



106                                                                Hurricane Relief Oversight
State of Louisiana
     The Road Home Program
     (Authorized $6.25 Billion; Disbursed $4.16 Billion)

    The Road Home program is the major program set up to rebuild Louisiana's
impacted communities. Devastated communities will be subjected to abandoned
homes, clouded land titles, and disinvestments if a large portion of the financial
assistance is not provided to homeowners. However, some owner-occupants may choose
none of the basic options to repair, rebuild, or relocate in Louisiana. In these instances,
the State will compensate the homeowner for 60 percent of the home's prestorm value,
less insurance and FEMA repair funds. The status of the Road Home program is stated
below.

     State of Louisiana Homeowner Program Status

                             Community Planning and Development
                                Community Development Fund
                                    The Road Home Snapshot
                             Analysis of the Homeowner Applications
                                         State of Louisiana
                                  Status as September 30, 2007
                              Line items                                                  Totals
 Total applications received and recorded to date                                        184,667
 Closings held                                                                           54,088
Average award                                                                      $66.5 thousand

Source of funds: Emergency Supplemental Appropriations I & II (P.L. 109-148 and P.L. 109-234)



State of Mississippi
     Homeowner Grant Assistance Program
     (Authorized $3.25 Billion; Disbursed $1.2 Billion)

    The purpose of the Homeowner Grant Assistance program is to provide a one-time
grant payment (maximum $150,000) to eligible homeowners who had suffered flood
damage to their primary residence as of August 29, 2005, from Hurricane Katrina. The
Homeowner Grant Assistance program is designed to provide compensation to those
impacted by the hurricane.

    There is no requirement that the homeowner occupy the property after
replacement/rehabilitation work is completed. After certain deductions, the
homeowners have complete discretion of the use of grant funds, as allowable by State
and Federal law, as they work through their personal disaster recovery situation. The
status of the Mississippi homeowner program is reflected in the table below.



Hurricane Relief Oversight                                                                          107
      State of Mississippi Homeowner Program Status

                                 Homeowner Program Snapshot
                             Analysis of the Homeowner Applications
                                        State of Mississippi
                                  Status as September 26, 2007

                              Line items                                                  Totals
 Applications received                                                                    19,794
 Grants paid                                                                              13,938
Dollar value of grants paid                                                          $1.008 billion
Average grant paid                                                                  $72.3 thousand
Source of funds: Emergency Supplemental Appropriations I & II (P.L. 109-148 and P.L. 109-234)



                                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




108                                                                               Hurricane Relief Oversight
Audit
    During this period, OIG issued one new audit report on Mississippi's Homeowner
Grant Assistance program. To date, HUD OIG has completed five hurricane-related
audits, which have resulted in management recommendations and questioned costs.
There are four ongoing audits that are close to completion with other audits being
planned.

Emerging Oversight Trends
    The Office of Audit is continuing to pursue audits of Louisiana's largest disaster
grant program, the Road Home program. There are also four ongoing audits close to
completion that address other areas such as the disaster voucher program, contract
compliance, cost reviews, and Mississippi's homeowner assistance program. More
audits of the Road Home Program, however, are currently being planned to determine

    - Whether the State has a process in place that has been implemented to offset
      and/or recapture Road Home grant funds due to homeowners' insurance
      settlements (e.g., subrogation).
    - The impact of the Additional Compensation Grant and the eligibility of its
      recipients.
    - Whether grant recipients received duplicate benefits from various Federal
      agencies (e.g., HUD, FEMA, Small Business Administration (SBA), the U.S.
      Department of Agriculture).
    - The process used to assess the amount of property damage used as a basis for
      determining the compensation award amount.

Final Audit Products
    Audit Report No.: 2007-AO-1001 (Issue Date: May 7, 2007)
    Title: The State of Mississippi's Homeowner Grant Assistance Program,
   Jackson, Mississippi

    HUD OIG audited the State of Mississippi's calculation of homeowners' grant
amounts and monitoring of the implementation of its Homeowner Grant Assistance
program. The objectives were to determine whether the State appropriately
calculated the homeowners' grant amounts and monitored the implementation of its
program.

    The State did not appropriately calculate the homeowners' grant amounts when it
allowed its contractor, Reznick Group, to deduct unnecessary costs such as unpaid
State income taxes, State unemployment taxes, and local ad valorem or property taxes
from the homeowners' grant amounts. The State also did not monitor Reznick Group's
implementation of its Homeowner Grant Assistance program.

   OIG recommended that HUD require the State to immediately (1) cease
withholding or deducting unnecessary tax debts from homeowners' grant amounts,

Hurricane Relief Oversight                                                         109
(2) recalculate the grant amounts for those homeowners who have already received
assistance and refund such homeowners a total of more than $159,000 in State and/or
local taxes inappropriately withheld or deducted from their grants, and (3) confirm
with State and local tax agencies the delinquent taxes the homeowners owed such
agencies.

    HUD officials concur with all proposed management decisions and target dates for
the four recommendations.

                            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




110                                                             Hurricane Relief Oversight
Investigations
    During this reporting period,
OIG opened 92 and closed 52
investigations in the Gulf Region
disaster relief program areas.
Judicial action taken on these cases
included $78,339 in investigative
recoveries; more than $2.3 million
in funds put to better use; 41
indictments or informations; 39
convictions, pleas, or pretrial
diversions; 24 administrative
actions; and 43 arrests.

    The Office of Investigation continued to work with the U.S. Department of
Homeland Security (DHS) OIG in conducting FEMA fraud investigations involving
residents of HUD-funded developments. The Office of Investigation has increased the
number of homeowner grant fraud investigations involving both the Louisiana Road
Home and Mississippi Housing Assistance Grant programs. These grant programs
offer grants of up to $150,000 to homeowners affected by hurricane disasters. As these
funds have been disbursed to homeowners, we have identified an increase in fraud
regarding the grants.

     In addition to proactive investigations of homeowner grant fraud and reactive
investigations involving FEMA fraud by residents of HUD-funded developments, HUD
OIG investigates allegations of wrongdoing involving businesses and others receiving
HUD disaster funds through contracts and procurements or as a result of public
corruption. With approximately $2.7 billion in HUD CDBG funds designated for the
repair and restoration of infrastructure and businesses or government agencies in
Louisiana and Mississippi, the Office of Investigation is developing a "contractor
intelligence database" for the Hurricane Katrina Fraud Task Force (Task Force)
members and evaluating computer-matching agreements with other Federal agencies.

    HUD OIG plays an integral role in the Task Force, which is comprised of
traditional Federal, State, and local enforcement agencies, along with personnel from
the Inspector General community. Created to promote cooperation among agencies,
the Task Force coordinates investigations to prevent duplication of law enforcement
efforts, identifies fraud through the use of computer databases, and coordinates fraud
referrals from hotlines. The Task Force has screened and referred more than 14,000
fraud-related complaints or allegations of disaster fraud. HUD OIG and the Task Force
coordinate fraud matters with ICF International, KPMG, and other disaster
contractors and the Louisiana Legislative Auditor and personnel from the Offices of
Community and Economic Development.

    Some of the investigations discussed in this report were conducted jointly with
Federal, State, and local law enforcement agencies including the Task Force. Following
the Attorney General's policy of "zero tolerance" in relation to Hurricane Katrina fraud,

Hurricane Relief Oversight                                                            111
OIG pursues all allegations of waste, fraud, and abuse in HUD's Hurricanes Katrina,
Rita, and Wilma benefit programs. The results of various significant investigations are
described below:

Homeowner Grant Fraud
    Christina Moses pled guilty in U.S. District Court, Jackson, MS, to making false
statements and claims. Moses applied for and attempted to obtain $150,000 in CDBG
disaster recovery funds through the Mississippi Development Authority (MDA) for
hurricane-damaged residential property, but the property damaged was not her
primary residence. In addition, Moses fraudulently applied for and received $24,937 in
FEMA assistance.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Vincent Pempeit pled guilty in U.S. District Court, Gulfport, MS, to making false
statements and filing a false claim. Pempeit applied for and attempted to obtain
$150,000 in CDBG disaster recovery funds through MDA for hurricane-damaged
residential property, but the property damaged was not his primary residence.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Joseph Pugh pled guilty in U.S. District Court, Gulfport, MS, to theft of
government funds and making false statements; charges against his wife Debbie Pugh
were dismissed. Pugh applied for and attempted to obtain $150,000 in CDBG disaster
recovery funds through MDA for hurricane-damaged residential property, but the
property damaged was not his primary residence. In addition, Pugh fraudulently
applied for and received $12,107 in FEMA assistance.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Disera Desselles was indicted in U.S. District Court, Jackson, MS, for making false
statements and claims, theft of government funds, and wire and mail fraud. Desselles
allegedly applied for and attempted to obtain $144,800 in CDBG disaster recovery funds
through MDA for hurricane-damaged residential property, but the property damaged
was not her primary residence. In addition, Desselles allegedly applied for and
fraudulently received more than $23,000 in FEMA assistance.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Jerry Wiegand was convicted in U.S. District Court, Gulfport, MS, of theft of
government funds. Wiegand applied for and attempted to obtain about $108,136 in
CDBG disaster recovery funds through MDA for hurricane-damaged residential
property, but the property damaged was not his primary residence.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Pamelia Conroy pled guilty in U.S. District Court, Gulfport, MS, to making false
statements, filing false claims, and theft of government funds. Conroy applied for and
attempted to obtain $100,000 in CDBG disaster recovery funds through MDA for

112                                                              Hurricane Relief Oversight
hurricane-damaged residential property, but the property damaged was not her
primary residence. In addition, Conroy fraudulently applied for and received $5,200 in
FEMA assistance.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    William and Deane Palmer each pled guilty in U.S. District Court, Gulfport, MS,
to making false statements and filing false claims. William and Deane Palmer applied
for and attempted to obtain $68,780 in CDBG disaster recovery funds through MDA
for hurricane-damaged residential property, but the property damaged was not their
primary residence. In addition, William and Deane Palmer fraudulently applied for
and received $56,706 in FEMA and SBA assistance.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Debra Savage pled guilty in U.S. District Court, Gulfport, MS, to making false
statements and filing a false claim. Savage applied for and attempted to obtain $39,616
in CDBG disaster recovery funds through MDA for hurricane-damaged residential
property, but the property damaged was not her primary residence.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Mario LeLeaux pled guilty in U.S. District Court, Gulfport, MS, to theft of
government funds, making false statements, filing a false claim, and unauthorized
acquisition of food stamps. LeLeaux agreed to forfeit $52,918. LeLeaux applied for and
received $35,413 in CDBG disaster recovery funds through MDA for hurricane-
damaged residential property, but the property damaged was not his primary residence.
In addition, LeLeaux fraudulently applied for and received $17,505 in FEMA, SBA, and
food stamp assistance.

FEMA Fraud by HUD Tenants
   HUD OIG partnered with DHS OIG and identified individuals who resided in HUD-
subsidized housing who fraudulently applied for FEMA disaster relief assistance.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Erica Prince, a Houston Housing Authority (HHA) Section 8 tenant; Daniel Ellis;
and eight additional conspirators were each indicted in U.S. District Court, Houston,
TX, for conspiracy to submit false, fictitious, or fraudulent claims; embezzlement or
theft of public money, property, or records; and mail fraud. Ellis pled guilty to
conspiracy to file false, fictitious, or fraudulent claims. Prince and the remaining
defendants allegedly and Ellis admittedly conspired with others and filed 77 fraudulent
FEMA disaster assistance applications for individuals who obtained $92,958 in FEMA
assistance they were not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Willie C. Blackmon, a former unauthorized Mississippi Regional Housing
Authority (MRHA) Section 8 tenant, pled guilty in U.S. District Court, Jackson, MS,

Hurricane Relief Oversight                                                          113
to making false statements, theft of government funds, mail fraud, and aiding and
abetting. In addition, Ernestine Lewis, a former MRHA Section 8 tenant, and Willie
Lewis, an unauthorized resident in a MRHA subsidized unit, each pled guilty to
making false statements. Ernestine and Willie Lewis were each sentenced to 36 months
probation and ordered to perform 40 hours of community service and collectively pay
FEMA $4,715 in restitution. Blackmon and Ernestine and Willie Lewis applied for and
received $31,302 in FEMA disaster assistance after they claimed residency in Biloxi
Housing Authority (BHA) subsidized units during Hurricane Katrina, but none of the
above defendants was a BHA tenant before the storm.

                                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Antoinette Perea, a San Francisco Housing Authority (SFHA) Section 8 tenant, pled
guilty in U.S. District Court, San Francisco, CA, to theft of government funds. In
addition, Kaneshaeia Boyd and Michael Haney, SFHA public housing tenants; Lawana
Wyatt, an Alameda County Housing Authority (ACHA) public housing tenant; and
Merolyn Wilson, a Section 8 tenant at All Hallows Garden Apartments, a HUD-funded
multifamily housing development, were each sentenced for their earlier guilty pleas to
theft of government funds or property. Boyd was sentenced to one year probation and
ordered to pay FEMA $2,000 in restitution, Haney and Wilson were each sentenced to
2 years probation and ordered to pay FEMA $2,000 in restitution, and Wyatt was
sentenced to 2 years probation and ordered to perform 138 hours of community
service and pay FEMA and the Red Cross $13,714 in restitution. The above defendants
applied for and received FEMA disaster assistance after they claimed to be displaced
victims of Hurricane Katrina, but each defendant resided in SFHA, ACHA, or other
subsidized housing units in the San Francisco area during the storm.

                                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


                                                           Loretta Russell, Tammy Dabney, and
                                                        Mark Johnson, former Baton Rouge
                                                        Housing Authority (BRHA) Section 8 or
                                                        public housing tenants, each pled guilty
                                                       in U.S. District Court, Baton Rouge, LA,
                                                       to making false claims. The above
                                                       defendants applied for and received
                                                       $12,016 in FEMA disaster assistance after
                                                       they claimed hurricane damage to
                                                       personal property or Hurricane Katrina
                                                       evacuee status, but BRHA suffered
                                                       no storm damage, nor were tenants
                                                       evacuated.

                                                   ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




Copyright, 2007. The Advocate -
New Orleans, LA. Reprinted with permission.



114                                                                        Hurricane Relief Oversight
    Naisha Davis, a Sacramento Housing and Redevelopment Agency (SHRA) Housing
Choice Voucher program participant, pled guilty in U.S. District Court, Sacramento,
CA, to theft of government property, submitting false claims, and making false
statements. In addition, SHRA Housing Choice Voucher program participants Jerry
Davis, Trudy Davis, and Lawrence Williams were each sentenced for their earlier guilty
pleas to theft of government property, submitting false claims, or making false
statements. Jerry Davis was sentence to 4 years probation, and Trudy Davis and
Williams were each sentenced to 4 months incarceration and 3 years supervised
release. The above defendants applied for and received FEMA disaster assistance after
they claimed residency in a Louisiana declared disaster area, but each defendant
resided in California during Hurricane Katrina.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Ashley Clark and Shannon Sylvester, former Morgan City Housing Authority
(MCHA) public housing tenants, were each sentenced in U.S. District Court, Morgan
City, LA, for their earlier guilty pleas to theft of public monies. Clark was sentenced to
4 months home detention and 5 years probation and ordered to pay FEMA $6,665 in
restitution. Sylvester was sentenced to 3 years probation and ordered to pay FEMA
$2,000 in restitution. Clark and Sylvester applied for and received FEMA disaster
assistance, but MCHA sustained no hurricane damage, nor were residents evacuated
during the storm.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Aretha Morris and Lawanda Clark, Section 8 tenants at Scotland Square
Apartments (Scotland), a HUD-funded multifamily housing development, were each
indicted in U.S. District Court, Baton Rouge, LA, for making false statements,
submitting false claims, or mail fraud. Morris and Clark allegedly applied for and
received $3,749 in FEMA disaster assistance after they claimed personal property
damage from Hurricane Katrina, but Scotland suffered no storm damage, nor were
tenants evacuated. In addition, Latoya Dunn, a former Scotland Section 8 tenant, was
sentenced to 3 years probation and ordered to pay FEMA $2,100 in restitution for her
earlier guilty plea to submitting false claims. Dunn applied for and received FEMA
disaster assistance after she fraudulently claimed personal property damage from
Hurricane Katrina.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Linda Southall, a Thibodaux Housing Authority (THA) public housing tenant, was
indicted in U.S. District Court, New Orleans, LA, for theft of government funds.
Southall allegedly applied for and received $2,377 in FEMA disaster assistance after she
claimed personal property damage from Hurricane Katrina, but THA suffered no storm
damage, nor were tenants evacuated. In addition, Pamela Courtney, a THA public
housing tenant, pled guilty to theft of government funds. Courtney applied for and
received $500 in FEMA disaster assistance after she fraudulently claimed personal
property damage from Hurricane Katrina.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○



Hurricane Relief Oversight                                                             115
    Leslie Smith, a Renton Housing Authority (RHA) Section 8 tenant, pled guilty in
U.S. District Court, Seattle, WA, to making false statements. Smith applied for and
received $4,000 in FEMA disaster assistance after she claimed residency in a Louisiana
declared disaster area during Hurricane Katrina, but Smith resided in Renton, WA,
during the storm.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Shantelle Griffin, a Section 8 tenant at Himbola Manor Apartments (Himbola), a
HUD-funded multifamily housing development, pled guilty in U.S. District Court,
Lafayette, LA, to submitting a false claim. Griffin applied for and received $2,000 in
FEMA disaster assistance after she claimed personal property damage from Hurricane
Katrina, but Himbola suffered no storm damage, nor were tenants evacuated.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Travis Frank and Regina Dewey each pled guilty in U.S. District Court, Houston,
TX, to conspiracy. Frank applied for and received FEMA disaster assistance after he
claimed residency in a Housing Authority of New Orleans (HANO) subsidized housing
unit during Hurricane Katrina, but Frank never resided in HANO assisted housing.
Dewey provided fraudulent documents and falsely verified Frank's residency in a HANO
subsidized unit.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Latasha Maloid pled guilty in U.S. District Court, Baton Rouge, LA, to submitting
a false claim. Maloid applied for and received $2,000 in FEMA disaster assistance after
she claimed to be a Housing Authority of New Orleans evacuee, but Maloid resided in
Baton Rouge, LA, during Hurricane Katrina.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Sharon Dailey, a Fairfield Housing Authority (Fairfield) Section 8 applicant, was
indicted in U.S. District Court, Sacramento, CA, for submitting or making false claims,
statements, and representation of a Social Security number (SSN); aggravated identity
theft; and bank, mail, and credit application fraud. Dailey allegedly claimed she was a
Hurricane Katrina victim and applied for and received FEMA disaster assistance, but
Dailey resided in California during the storm. Daily also allegedly used a false SSN to
apply for Fairfield housing assistance, obtain a bank loan, and cash fraudulent checks.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Joy Carter was indicted in U.S. District Court, Meridian, MS, for making false
statements, filing false claims, and embezzlement. Carter allegedly applied for and
received $2,000 in FEMA disaster assistance after she fraudulently claimed property
damage from Hurricane Katrina.




116                                                              Hurricane Relief Oversight
Hurricane-Related Outreach
    Louisiana Outreach:
    Special Agent in Charge (SAC) Larry Amaker, SAC Thomas Luke, and Special Agent
(SA) Dan Min provided presentations on Louisiana and Mississippi CDBG programs
and disaster recovery investigations at a Public Corruption and Disaster Fraud
conference hosted by the Federal Bureau of Investigation (FBI) in New Orleans, LA.
Special agents, analysts, and forensic auditors representing Federal, State, and local law
enforcement agencies attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Thomas Luke provided an overview of HUD OIG single-family investigations
at a meeting of Louisiana and Mississippi U.S. Bankruptcy Court Trustees in New
Orleans, LA. In addition, SAC Luke described CDBG disaster recovery funding and
homeowner reporting requirements for the Louisiana Road Home and Mississippi
homeowner assistance programs.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Thomas Luke and Senior Forensic Auditor Windell Durant provided
information on current Federal Housing Administration (FHA) foreclosures, grant
closings within the Louisiana Road Home program, efforts to identify fraudulent claims
and bankruptcy filings, and law enforcement coordinated efforts at a meeting of U.S.
Bankruptcy Court Trustees from the Eastern and Middle Districts of Louisiana in New
Orleans, LA. Approximately 12 U.S. Bankruptcy Court Trustees attended.

     Mississippi Outreach:
    SAC Thomas Luke met with officials from Camp, Dresser, and McKee (CDM), the
contractor overseeing $100 million for the rebuilding of Mississippi public housing
developments affected by Hurricane Katrina in Gulfort, MS. SAC Luke provided
information on typical fraud schemes and pitfalls during the contracting process, and
CDM officials agreed to work closely with HUD OIG throughout the rebuilding
efforts.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   HUD OIG continues to be an active member and participates in the Mississippi
Fraud Working Group in Gulfport, MS. The Mississippi Fraud Working Group,
comprised of personnel from the United States Attorney's Office; Mississippi
Attorney General's Office; and various Federal, State, and local law enforcement
agencies, coordinates and synchronizes disaster fraud investigations in the State of
Mississippi.




Hurricane Relief Oversight                                                             117
      Texas Outreach:
    SAC Daniel Salas, Assistant Special Agent in Charge (ASAC) Juan Juarez, and SA
Gail Keller provided a fraud prevention seminar for members of the Deep East Texas
and Houston-Galveston Area Councils of Government, South East Texas Regional
Planning Commission, and Texas Department of Housing and Community Affairs in
Houston, TX. The colloquium described avenues to prevent fraud in CDBG disaster
recovery funding awarded to 29 Texas counties after Hurricanes Katrina and Rita.
Approximately 13 Councils of Governments representatives attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Daniel Salas; ASACs Juan Juarez, Michael Wilson, and Kevin Whalen; and SAs
Gail Keller and Alisha Mahabir provided an overview of Hurricanes Katrina and Rita
CDBG disaster recovery funding for representatives of the Southern and Eastern
Districts of Texas U.S. Attorney's Office, Texas Department of Housing and
Community Affairs, Texas Office of Rural and Community Affairs, FBI, U.S. Postal
Inspection Service, and OIG personnel from the Departments of Homeland Security
and Labor and the Small Business and Social Security Administrations in Houston, TX.
Approximately 29 individuals attended the presentation.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   SAC Daniel Salas, ASAC Juan Juarez, and SA Gail Keller provided a hurricane fraud
prevention briefing to Candye Anderson, disaster field representative for Texas
Department of Housing and Community Affairs, in Beaumont, TX. After the briefing,
Anderson provided a tour of local areas suffering from hurricane damage, including
Magnolia Gardens, a Beaumont Housing Authority public housing development.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Juan Juarez and SA Gail Keller provided disaster recovery fraud prevention
briefings to staff members of the Texas Department of Housing and Community
Affairs; Texas Office of Rural and Community Affairs; East Texas, Deep East Texas, and
Houston-Galveston Councils of Government; Southeast Texas Rural Planning
Commission; city and county elected officials and consultants; representatives of
multifamily organizations; and law enforcement personnel in Austin, Beaumont,
Houston, Jasper, Kilgore, and Onalaska, TX. ASAC Juarez and SA Keller presented
proactive concepts to prevent contractor fraud and other illegal activity involving
disaster recovery funding awarded to 29 Texas counties after Hurricanes Katrina and
Rita. Approximately 135 representatives from the above organizations attended the
briefings.

Hurricane-Related OIG Hotline
    During this reporting period, the Hotline received and processed 74 complaints
related to Hurricanes Katrina, Rita, and Wilma.




118                                                              Hurricane Relief Oversight
        Chapter 6




 Other Significant HUD
Audits and Investigations/
      OIG Hotline
   In addition to the audits and investigations described in this chapter, OIG has also
conducted numerous outreach efforts. (see chapter 7, pages 138, 140, and 141)

Audit

      Strategic Initiative 4: Contribute to Improving HUD’s Execution and
       Accountability of Fiscal Responsibilities as a Relevant and Problem
                        Solving Advisor to the Department
  Key program results          Questioned costs            Funds put to better use
 Audit      7 Audits                  --                           $368,283
            page 120      - Review of HUD's Contract Administration
  Our
 focus
            page 121      - Review of HUD's Succession Planning
            page 121      - Review of HUD's Information Technology Security
                            Program
            page 122      - Review of HUD's Personal Identification Verification
                            and Privacy Program
            page 123      - Network Vulnerability Assessment
            page 123      - OIG Response to Questions from the Office of
                            Management and Budget under the Federal
                            Information Security Management Act of 2002




Review of HUD's Contract Administration
     HUD OIG, Washington, DC, audited HUD's contract administration process to
determine whether HUD had adequate controls to ensure that it effectively and
efficiently administered its contracts and followed requirements.

    While HUD has implemented or is in the process of implementing several
improvements, additional improvements are needed. Because HUD did not have
adequate controls over some processes, (1) contract statements of work were
sometimes poorly written, (2) it did not adequately assess whether there was a
continuing need for goods an services, (3) it paid contractors for questionable costs,
and (4) it did not properly evaluate or report contractor performance. As a result, for
the 17 contracts OIG reviewed, HUD paid about $8 million for services without
obtaining the desired outcome and will spend $900,000 more than necessary by
September 30, 2007, for other services that are not needed. In addition, HUD
unnecessarily paid about $197,000 for a contract that had an overstated estimated need
and then exercised an unnecessary option year for which it will pay the contractor
another $250,000.



120                            Other Significant HUD Audits and Investigations/OIG Hotline
    OIG recommended that HUD implement initiatives currently planned, which
include but are not limited to an acquisition planning policy and the "HUD
Procurement Transformation" initiative, including developing a HUD Integrated
Acquisition Management System. OIG also recommended that HUD implement
additional policies and procedures to (1) improve HUD's ability to adequately express
its needs, provide guidance to contractors, and employ appropriate contracting
strategies in its contract statements of work; (2) ensure that the required analyses of
contracts are performed to assess continued need and cost appropriateness before
exercising option periods; (3) provide for the formal review of government technical
representatives and government technical monitors; and (4) ensure that staff comply
with contractor performance reporting requirements by implementing systems such
as automated alerts that notify staff when evaluations are due. Further, HUD should
not exercise the final option year for contract C FTW 00398. (Audit Report:
2007-AT-0001)

Review of HUD's Succession Planning
    HUD OIG, Washington, DC, reviewed HUD's management of human resources to
determine whether HUD had initiated adequate succession planning to address future
staff concerns.

    HUD had not fully initiated adequate succession planning to address future staff
concerns. Although three of the five program offices reviewed had initiated adequate
succession planning, two of the offices had failed to identify and/or support the actions
taken to fully implement HUD's succession plan. As a result, HUD cannot be assured
that, when key members of its workforce retire over the next several years, they will be
succeeded by qualified employees with the skills, knowledge, and abilities needed to
continue its mission.

   OIG recommended that HUD implement adequate procedures and controls to
ensure that its program offices initiate succession planning to comply with its
succession plan. (Audit Report: 2007-CH-0001)

Review of HUD's Information Technology Security
Program
   HUD OIG audited HUD's information security program's compliance with Federal
requirements.

     HUD has continued its progress in implementing a comprehensive, entity-wide set
of information system security program policies and procedures. However, (1) HUD's
program offices and system owners are not performing their Federal Information
Security Management Act (FISMA) roles and responsibilities related to the updating
of security documentation, obtaining role-based training, and testing their applications'
technical security controls; and (2) HUD has not fully implemented an effective,
entity-wide information security program.




Other Significant HUD Audits and Investigations/OIG Hotline                           121
    OIG recommended that HUD properly meet its information security
responsibilities by (1) updating security documents to comply with Federal
requirements, (2) obtaining training in line with its information security roles and
responsibilities, (3) continuing the effort to properly categorize systems it manages
and oversees, and (4) developing office-specific guidance and procedures as necessary.
OIG also recommended that HUD fully implement an effective information security
program by (1) completing the role-based training program for staff with significant
security information technology responsibilities, (2) completing the resolution of the
current open security vulnerabilities on the general support systems, and (3) providing
resources and guidance needed for program offices and system owners to perform
technical security control testing on their high-impact applications. (Audit Report:
2007-DP-0005)

Review of HUD's Personal Identification Verification
and Privacy Program
    HUD OIG audited HUD's efforts to implement the common identification
standards for contractors and Federal employees specified in Homeland Security
Presidential Directive 12 (HSPD 12) and assessed whether those efforts complied with
Federal laws and guidelines governing privacy, personnel security, and information
technology security.

    While HUD has made progress in implementing the personal identity verification
requirements of HSPD 12, several matters require management attention to ensure the
successful implementation and long-term security of HUD's personal identity
verification and privacy program. Specifically, (1) HUD did not meet all deadlines for
establishing its personal identity verification process as mandated by the Office of
Management and Budget (OMB); (2) HUD did not follow the personal identity
proofing, registration, and issuance process required by OMB; and (3) HUD did not
take appropriate steps to ensure adequate security over the systems supporting its
personal identity verification and privacy program.

     OIG recommended that HUD (1) ensure that HSPD 12 requirements are fully
implemented by establishing formal agreements among its offices to confirm
understanding of their responsibilities under HSPD 12 and (2) ensure that the personal
identity verification process and supporting information systems, including all
components, are properly certified and accredited in accordance with National
Institute of Standards and Technology (NIST) requirements before being placed into
full-scale production. OIG also recommended that HUD ensure that (1) systems with
personally identifiable information are categorized properly by program offices and
(2) all HUD systems comply with backup requirements stated in NIST Special
Publication 800-53, especially systems with moderate and high impact levels. In
addition, OIG recommended that HUD develop a process to ensure that contracting
officers include language to implement HSPD 12 standards for all applicable new and
existing contracts. (Audit Report: 2007-DP-0006)




122                            Other Significant HUD Audits and Investigations/OIG Hotline
Network Vulnerability Assessment
    HUD OIG, Washington, DC, conducted a network vulnerability assessment of HUD
to evaluate whether HUD's network security systems, including security controls and
practices, adequately protect the integrity, confidentiality, and availability of data and
information from unauthorized access to HUD's systems through the performance of
penetration testing.

    Although HUD has implemented controls to protect its network from external
intruders, internal testing identified security configuration and technical control
deficiencies.

     OIG determined that the results of the assessment would not be appropriate for
public disclosure and, therefore, has limited their distribution to selected HUD
officials. (Audit Report: 2007-DP-0007)

OIG Response to Questions from the Office of
Management and Budget under the Federal Information
Security Management Act of 2002
    In accordance with the FISMA, HUD OIG, Washington, DC, performed an annual
independent evaluation of HUD's information security program and practices.

   OIG determined that the results of the evaluation would not be appropriate for
public disclosure and has, therefore, limited their distribution to selected officials.
(Audit Report: 2007-DP-0801)

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




Other Significant HUD Audits and Investigations/OIG Hotline                            123
Investigations
       Strategic Initiative 4: Contribute to Improving HUD’s Execution and
        Accountability of Fiscal Responsibilities as a Relevant and Problem
                         Solving Advisor to the Department
   Key program             Cases               $                Convictions/pleas/    Admin/civil
     results               closed          Recovered                pretrials           actions
  Investigations             39            $4,444,077                       3             9


    Some of the investigations discussed in this report were generated from leads
provided by HUD program staff or conducted jointly with Federal, State, and local law
enforcement agencies. The results of various significant investigations are described
below.

    United States Attorney Gretchen
Shappert, along with Special Agent in
Charge Michael Powell and Special Agent
Mark Heinbach, presented a $4,423,966.40
check to Government National Mortgage
Association (GNMA) representatives in
Charlotte, NC. The check represents the
liquidated value of more than $12 million in
assets recovered through the Federal Asset
Forfeiture Program after the Fourth Circuit
Court of Appeals affirmed the 2002
convictions of James and Macy McLean, former owners of now-defunct First Beneficial
Homes and First Beneficial Mortgage Corporation, and others. James and Macy McLean
and others, previously convicted of conspiracy, wire and bank fraud, making false
statements or entries, and money laundering, were sentenced to more than 50 years
incarceration and ordered to pay GNMA more than $23 million in restitution for their
roles in a mortgage fraud scheme involving more than 200 victims including GNMA.




Copyright, 2007. The Charlotte Observer - Charlotte, NC. Reprinted with permission.

                                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




124                                      Other Significant HUD Audits and Investigations/OIG Hotline
    Isaac Lee and Regina Bailey Woods, owners and officers of Woodbai, Inc., a
mortgage lender doing business as Unlimited Financial Resources, and Timothy
Benjamin were each sentenced in U.S. District Court, Greenville, NC, for their earlier
convictions of or guilty pleas to conspiracy, wire fraud, false statements, money
laundering, attempted witness tampering, or aiding and abetting. Isaac Wood was
sentenced to 84 months incarceration and 5 years supervised release and ordered to
pay HUD more than $1.2 million in restitution, Regina Woods was sentenced to 24
months incarceration and 5 years supervised release and ordered to pay the above
restitution jointly and severally with her husband. and Benjamin was sentenced to 8
months incarceration and 3 years supervised release. Isaac and Regina Woods created
phony mortgages and then electronically submitted the bogus mortgages to the
secondary mortgage market and caused GNMA to guarantee $1.4 million in
counterfeit investments. Benjamin, a defense witness in the Woods' trial, uttered
materially false declarations while under oath and attempted to influence or prevent a
government witness from testifying.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Former HUD employee Tracyee Martan pled guilty in Prince George's County
Circuit Court, Upper Marlboro, MD, to forgery of private documents, uttering false
documents, and theft over $500. Martan cashed a $5,000 counterfeit cashiers check
and was arrested as she attempted to negotiate another $5,000 counterfeit cashiers
check at Bank of America. Martan was removed from Federal service.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




Other Significant HUD Audits and Investigations/OIG Hotline                        125
OIG Hotline
    The HUD Office of Inspector General (OIG) Hotline is operational 5 days a week,
Monday through Friday, from 10:00 a.m. to 4:30 p.m. The Hotline is staffed by nine
full-time OIG employees, who take allegations of waste, fraud, abuse, or serious
mismanagement in HUD or HUD-funded programs from HUD employees,
contractors, and the public and coordinate reviews with internal audit and
investigative units or with HUD program offices.

   During this reporting period, the Hotline received and processed 12,586
complaints -- 80 percent received by telephone, 14 percent by mail, and 6 percent by
e-mail. Every allegation received by the Hotline is logged into a database and tracked.

     Of the complaints received, 1,634 were related to the mission of OIG and were
addressed as Hotline cases. Hotline cases are referred to OIG's Offices of Audit and
Investigation or to HUD program offices for action and response. The following
illustration shows the distribution of Hotline case referrals by percentage.


                    Chart 6.1: Hotline Cases Opened by Program Area
                                  Community
                  Single-Family    Planning &
                     Housing      Development    Other HUD                    Public and
                       4%              2%          Offices                      Indian
  OIG Audit &
                                                    2%                         Housing
  Investigation
                                                                                 63%
      14%




      Multifamily
       Housing
         15%




    The Hotline closed 2,462 cases this reporting period. The closed Hotline cases
included 160 substantiated allegations. The substantiated allegations resulted in six
administrative sanctions against investors for improprieties involved in the purchase of
a home. The Department also took 154 corrective actions that resulted in $258,341 in
recoveries of losses and more than $2.6 million in HUD funding that could be put to
better use. The recoveries included repayments of overpaid rental subsidies. Some of
the funds that could be put to better use were the result of cases in which tenants were
terminated from public housing or multifamily housing programs for improperly
reporting their incomes or family composition in order to qualify for rental assistance.



126                                Other Significant HUD Audits and Investigations/OIG Hotline
              Chart 6.2: Hotline Dollar Impact from Program Offices

        2,500,000       $2,251,615


        2,000,000


        1,500,000


        1,000,000


         500,000                            $353,215
                                 $196,628
                                                       $61,713    $34,128    $0
               0
                    Public & Indian         Multifamily          Other HUD
                       Housing               Housing               Offices

                              Recoveries         Funds Put to Better Use




   Chart 6.3: Substantiated Cases by Type of Complaint Received by Hotline

                       Owner/Occupant
                         Violations             Other
                            4%                   4%
    Mismanagement
         4%




                                                                                  Rental Fraud and
                                                                                   Improprieties
                                                                                        88%




Other Significant HUD Audits and Investigations/OIG Hotline                                     127
Chapter 7




Outreach
    To foster cooperative, informative, and mutually beneficial relationships with
agencies and organizations assisting the U.S. Department of Housing and Urban
Development (HUD) in accomplishing its mission, the Office of Inspector General (OIG)
participates in special outreach efforts. The outreach efforts described below
complement routine coordination with Federal, State, and local law enforcement
agencies, various congressional committees or subcommittees, and other OIGs.
During outreach efforts, OIG personnel present information about HUD OIG's role
and function, provide audit and investigative results, and discuss desired goals and
objectives.

Single-Family Housing Programs
     Special Agent in Charge (SAC) Daniel Salas and Assistant Special Agent in Charge
(ASAC) Michael Wilson described loan origination fraud and the effects of predatory
lending and identity theft at a HUD-sponsored Federal Housing Administration (FHA)
roundtable conference held in Fort Worth, TX. Approximately 30 mortgage industry
officials and HUD program directors attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Barry McLaughlin presented an overview of HUD OIG's mission and role at
the Illinois Association of Mortgage Brokers annual conference in Rosemont, IL. SAC
McLaughlin, together with Assistant U.S. Attorney Brian Netols, Assistant U.S. Trustee
Sandra Rasnak, and Federal Bureau of Investigation (FBI) Special Agent (SA) Ron Carver,
also described mortgage fraud investigations and "red flag" fraud indicators to more
than 70 mortgage brokers in attendance.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Acting SAC Brad Geary and ASAC Nadine Gurley provided "Rescue and
Foreclosure" fraud training for U.S. Trustee Office personnel from the Middle and
Northern Districts of Georgia in Macon and Atlanta, GA. The training described
current fraud schemes and their effects on the mortgage industry, FHA insurance fund,
and bankruptcy courts. More than 130 bankruptcy court and law enforcement
personnel from various Federal agencies attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Barry McLaughlin hosted the quarterly meeting of the Illinois Mortgage Fraud
Working Group in Chicago, IL. Allison Massey, a TransUnion Credit Services
investigator, provided a presentation on credit scams and identity theft. More than 40
representatives of the Illinois Department of Professional Regulation, U.S Trustees
Office, Illinois Attorney General's Office, and Federal and State law enforcement
agencies attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   SAC Anthony Medici participated as a panelist on the radio program, "Mortgage
Radio: Detecting Fraud," in Washington, DC. Targeting an audience consisting of


130                                                                           Outreach
mortgage industry professionals, the radio program illustrated mortgage fraud schemes,
identified areas of risk and internal controls, described tools and technology to detect
fraud, and provided organizational strategies for uncovering identity theft and fraud in
the mortgage loan closing process.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Barry McLaughlin and ASAC Brad Geary described bankruptcy and mortgage
fraud schemes at an Association of Insolvency and Restructuring Advisors meeting in
Chicago, IL. Approximately 40 members representing attorneys, certified public
accountants, and bankruptcy restructuring consultants attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Nadine Gurley and Assistant United States Attorney Gale Mckenzie
provided an overview of mortgage fraud schemes and described recent mortgage and
bankruptcy fraud investigations for approximately 50 realtors, appraisers, and lenders
attending a mortgage fraud seminar sponsored by Southlake Mortgage Corporation in
Atlanta, GA.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Brad Geary and representatives from the U.S. Attorney's Office, FBI, and U.S.
Secret Service presented an overview of real estate, mortgage, bank, and identity fraud
schemes; explained requirements for preserving closing files; and described
investigative testimonials at a Chicago Title & Trust meeting in Chicago, IL.
Approximately 50 employees attended the presentation.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Assistant Regional Inspector General for Audit (ARIGA) Helen Sparks and Senior
Auditor James Brady of the San Francisco Office of Audit made a presentation to the
Bay Area Escrow Association in San Francisco, CA. ARIGA Sparks and Auditor Brady
provided background information on HUD OIG and FHA, "red flag" indicators of
single-family mortgage fraud, and several examples of types of fraud found at escrow
companies. The presentation was attended by more than 60 escrow officers from Marin,
San Francisco, and San Mateo Counties.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASACs Ray Espinosa and Brad Geary provided a presentation, entitled "The Latest
Trends in Mortgage and Real Estate Fraud," and discussed mortgage fraud "red flag"
indicators and current schemes at a meeting sponsored by Lorman Education Services
in Chicago, IL. Approximately 15 loan officers, attorneys, and banking officials attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA James Carrieres described FHA mortgage fraud and recent real estate schemes
in a presentation, entitled "Arizona Real Estate Fraud," at an Arizona Bankers


Outreach                                                                               131
Association meeting in Phoenix, AZ. Approximately 100 financial institution repre-
sentatives and law enforcement personnel attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Robert Jones presented an overview of FHA and conventional mortgage fraud
to Cedar Hill Mayor's Office staff in Cedar Hill, TX. SA Jones described current FHA-
insured mortgage fraud schemes to include property flipping, the role of straw buyers,
and the use of false Social Security numbers by undocumented immigrants. City
Manager Alan Simms and Assistant City Manager Greg Porter also attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Heather Yannello provided HUD OIG's mission, role, and function and described
single-family mortgage fraud investigations at a Halt Abusive Lending Transactions
(HALT) summit in Buffalo, NY. Initiated by Governor Spitzer as a cooperative effort
between the New York Banking Department and the Attorney General's Office, HALT
was created to combine numerous resources and combat predatory lending and
mortgage fraud. More than 150 mortgage brokers, bankers, State and local officials,
and community advocacy group members participated in the conference.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   SA Michael Wagenhauser provided an overview of HUD OIG's mission and described
document and appraisal fraud, property flipping and equity skimming, identity theft,
and Real Estate Settlement Procedures Act violations at a Richmond Association of
Realtors seminar held in Richmond, VA. Approximately 75 members attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA James Carrieres participated in a panel discussion, entitled "Fraud and
Foreclosure Rescue Schemes," at a "Preserving Homeownership" meeting hosted by the
Federal Reserve and Wells Fargo Banks in Phoenix, AZ. SA Carrieres provided an
overview of a recent FHA preforeclosure investigation and current rescue fraud schemes
within Arizona. More than 100 mortgage industry and government and nonprofit agency
representatives attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Linda Cisco presented an overview of HUD OIG's mission and described
single-family fraud schemes at a mortgage fraud conference sponsored by the
Maryland Mortgage Bankers Association in Towson, MD. SA Cisco also hosted a
question and answer forum for approximately 50 mortgage brokers, appraisers,
bankers, and loan officers and processors in attendance.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   SA Kedric McKnight presented an overview of HUD OIG's mission and role and
described HUD program investigations at the fourth annual Housing Summit hosted


132                                                                          Outreach
by HUD in Fort Worth, TX. Approximately 150 representatives from financial
institutions, real estate agencies, and title companies attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Jim Siwek provided a presentation on current trends in mortgage fraud schemes,
along with foreclosures and the bankruptcy system, to Eastern District of Wisconsin
U.S. Trustee personnel in Milwaukee, WI. In addition, SA Siwek described bankruptcy
fraud statutes and fraud involving the bankruptcy process and provided examples of
bankruptcy prosecutions. Approximately 15 U.S. Trustees and office staff attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Robert Jones provided an overview of mortgage fraud and identity theft schemes
at a National Association of Hispanic Real Estate Professionals conference held in
Dallas, TX. After the presentation, SA Jones hosted a question and answer forum and
provided avenues available for reporting FHA, U.S. Department of Veterans Affairs (VA)
and conventional mortgage fraud. Approximately 50 mortgage and realty
professionals attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAs Jim Siwek and Manny Colin provided an overview of mortgage fraud trends and
current schemes to Citimortgage employees and supervisors in Chicago, IL. SAs Siwek
and Colin also explained mortgage fraud "red flag" indicators, provided examples of
documents used in current fraud schemes, and supplied contacts for reporting
suspected mortgage fraud. Approximately 25 Citimortgage employees attended the
presentation.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Robert Jones provided an overview of FHA mortgage fraud at a Trinity Real
Estate Solutions' roundtable forum held in Dallas, TX. More than 20 representatives of
the mortgage and home building industry attended.

Public Housing and Rental Assistance Programs
    Inspector General (IG) Kenneth Donohue was a guest speaker at a Public Housing
Safety Initiative (PHSI) conference sponsored by the U.S. Department of Justice in
New Orleans, LA. IG Donohue described the importance of the PHSI program and
the need for both law enforcement and community development efforts, emphasized
HUD OIG's commitment to PHSI in 10 major metropolitan areas, and highlighted the
successful Armory Project in New York City. Other presenters included participating
U.S. Attorney's Offices and State and local law enforcement and community
development agencies.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




Outreach                                                                           133
   SAC Barry McLaughlin and Regional Inspector General for Audit (RIGA) Heath
Wolfe presented HUD OIG Section 8 and nonprofit audit findings and internal
controls for public housing authorities at the Indiana National Association of Housing
and Redevelopment Officials (NAHRO) annual conference in South Bend, IN.
Approximately 35 public housing officials attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Rene Febles and SA Miguel Collazo presented an overview of HUD OIG's
Fugitive Felon, Sex Offender, and Section 8 fraud initiatives at a Westchester County
Section 8 Administrators Association meeting in White Plains, NY. Approximately 18
housing association members attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC James Todak and ASAC Lori Chan presented an overview of HUD OIG and
described current Indian housing authority investigations and initiatives at a Nevada/
California Indian Housing Association training session in Crystal Bay, NV. Following
their presentation, SAC Todak and ASAC Chan hosted a questions and answer forum
for approximately 30 Indian housing authority representatives in attendance.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Barry McLaughlin and RIGA Heath Wolfe presented an overview of necessary
internal controls and common audit findings in Section 8 and nonprofit development
audits at the Illinois Association of Housing Authorities annual conference in
Springfield, IL. Approximately 60 association members attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Anthony Medici provided a presentation, entitled "Procurement Fraud in
Public Housing," at the Mississippi Association of Housing and Redevelopment
Officials meeting in Jackson, MS. SAC Medici described HUD OIG's involvement with
the U.S. Department of Justice Procurement Fraud Task Force, best practices in the
procurement process, and ethical considerations in procurement actions and provided
examples of public housing authority corruption investigations involving procurement
fraud. ASAC Fernando Ramos assisted in the procurement fraud presentation, and
ARIGA Warren Wood discussed internal controls in the procurement process.
Approximately 200 individuals attended the presentation.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Barry McLaughlin and RIGA Heath Wolfe presented an overview of necessary
internal controls and common audit findings in Section 8 and nonprofit development
audits at a Minnesota NAHRO conference in St. Cloud, MN. Approximately 35
housing and redevelopment officials attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




134                                                                          Outreach
    RIGA Frank Baca and Auditor Danita Wade gave a presentation at the New Mexico
NAHRO Conference in Ruidoso, NM. RIGA Baca and Auditor Wade explained the
organization and function of HUD OIG and discussed issues arising from recent
Section 8 audits.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Diane DeChellis and SA Alexander Rosania provided an overview of HUD
OIG's mission and priorities at a Section 8 Administrators Association training seminar
held at Holy Cross College in Worcester, MA. ASAC DeChellis and SA Rosania also
described successful public and multifamily housing investigations.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Suzanne Steigerwald provided an overview of HUD OIG's mission and
authority and described fraud detection and enforcement methods used to
successfully prosecute investigations at a NAHRO conference held in Colorado Springs,
CO. More than 50 members attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   ASAC Michael Powell provided an overview of HUD OIG's mission and authority
and described fraud detection and enforcement methods used to successfully
prosecute investigations at a NAHRO conference held in Osage Beach, MO. More than
50 members attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    AASAC Kathleen Hatcher and SA Lori DiCriscio provided an overview of HUD OIG's
mission and priorities at a joint Maryland Association of Housing and Redevelopment
Agencies and NAHRO regional conference held in Ocean City, MD. ASAC Hatcher
and SA DiCriscio also described tenant and landlord "red flag" fraud indicators and hosted
a question and answer forum for approximately 300 housing representatives in
attendance.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ARIGA Charles Johnson gave a presentation to the Western Intergovernmental
Audit Forum in Los Angeles, CA, on Native American housing programs and the
significant problems found in a recent audit of the Navajo Housing Authority's use of
nonprofit organizations to develop new housing under the Native American Housing
Assistance and Self Determination Act. Additionally, he provided a brief overview of
the OIG Office of Audit and the entities and programs it audits. There were
approximately 100 local, State, and Federal governmental audit and accountability
professionals at the conference from throughout the Western United States.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




Outreach                                                                               135
   SA Brian Gosselin provided an overview of HUD OIG's mission and described
public housing waste, fraud, and abuse at a Maine Occupancy Association meeting in
Bath, ME. Approximately 28 housing occupancy specialists attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Alisha Mahabir presented an overview of HUD OIG's mission and described
HUD program investigations at the first annual Houston HUD Partners' Housing
Symposium in Houston, TX. Approximately 90 public housing authority employees
and representatives of multifamily management companies and nonprofit agencies
attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Joshua Stockman provided an overview of HUD OIG and described rental
assistance fraud investigations at an Arizona NAHRO training conference in Tucson,
AZ. Approximately 30 housing and redevelopment officials attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Malinda Antonik provided an overview of tenant eviction issues and described
HUD OIG investigations at the Florida Association of Housing and Redevelopment
Officials annual convention on Captiva Island, FL. Approximately 40 housing and
redevelopment officials attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAs Timothy Lishner and Nelson Sanchez provided an overview of HUD OIG's
mission and authority and described fraud detection and enforcement methods at a
fraud symposium sponsored by the Grand Junction Housing Authority, Mesa County
Department of Human Services, and Colorado's 21st Judicial District Attorney's Office
in Grand Junction, CO. More than 50 assisted housing, community social services, or
law enforcement personnel attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    An article on OIG's data mining initiatives by Computer Audit Specialist Cliff Cole
was published in the Fall/Winter 2006/2007 issue of the The Journal of Public Inquiry.
Entitled, "Digging for the Gold," the article discussed the evolution of data mining
activities within HUD OIG and joint efforts with the Office of Investigation and other
government organizations. The results of these efforts led to the location and arrest of
about 5,600 fugitives and the identification of approximately 3,500 Federal and U.S.
Postal Service employees who may have falsely reported their incomes to obtain HUD
housing assistance. Also in fiscal year (FY) 2006, OIG reported monetary benefits of
$432.6 million from audits in which data mining techniques were used. The article can
be found at http://www.ignet.gov/randp/fw06jpi.pdf.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




136                                                                            Outreach
    SAC Anthony Medici and ARIGA Warren Wood took part in the Procurement
Workshop held in Jackson, MS. SAC Medici made a presentation on procurement
fraud. ARIGA Wood made a presentation entitled "Who We Are, What We Do, and
Why."

Community Planning and Development
    SAC Barry McLaughlin and RIGA Heath Wolfe provided an overview of HUD OIG's
mission, role, "red flag" fraud indicators, and common audit findings at a HUD CPD
grantee entitlement conference in Springfield, IL. Approximately 50 HUD CPD
grantees attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    RIGA Ron Hosking and ARIGA Carrie Gray met with Auditor of State David Vaudt
and Deputy Auditor of State Tami Kusian at the State Capitol in Des Moines, IA. RIGA
Hosking and ARIGA Gray explained the OIG mission and staffing; audit planning,
selection, and reporting; and the success of OIG's prior joint efforts with the City
Auditor of Kansas City, MO. They discussed the possibility for joint efforts in the
future regarding Community Development Block Grant and HOME Investment
Partnerships Program funds and cooperation between the two offices in referring audit
leads to each other and agreed to consult periodically to evaluate joint audit subjects.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Lori Chan presented an overview of HUD OIG and provided information on
detecting and reporting fraud at a HUD CPD training session, entitled "Fund
Accounting," held in Oakland and San Francisco, CA. Approximately 95 individuals
representing nonprofit organizations and local governmental agencies attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA James Luu presented an overview of HUD OIG; described housing fraud
detection, prevention, and investigative challenges; and provided a brief discussion on
CPD investigations to Mendocino County's Community Development Commission
members and deputy district attorneys in Ukiah, CA.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   SA Richard Salom presented an overview of HUD OIG and provided information
on detecting and reporting fraud at a HUD CPD training session, entitled "Fund
Accounting," in San Jose, CA. Approximately 35 individuals representing nonprofit
and local governmental agencies attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




Outreach                                                                             137
   SA Dan Ronski provided an overview of HUD OIG's role and mission, described
HUD's CPD Supportive Housing Program, and hosted a question and answer forum for
approximately 78 HUD CPD grantees meeting in Chicago, IL.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    RIGA Rose Capalungan and Auditor Kimberly Sandifer made a presentation
during HUD's Center for Faith Based and Community Initiatives training held in Baton
Rouge, LA. The event was attended by officials/staff of HUD, the U.S. Department of
Agriculture, nonprofit organizations, banks, and other business entities.

Law Enforcement Outreach
     Deputy Inspector General Michael Stephens was an invited guest at the annual
"National Missing Children's Day" award ceremony sponsored by the U.S. Department
of Justice in Washington, DC. Former Attorney General Alberto Gonzales provided
the keynote address, which focused on the vital importance of Federal, State, and local
programs to deter and capture child predators and recover missing and exploited
children. The annual awards ceremony recognized the outstanding accomplishments
of individuals supporting these efforts.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Maureen Nelting and SAs Gene Westerlind and Jessica Piecuch
participated in a Federal Law Enforcement Officers Association (FLEOA)-sponsored
"National Missing Children's Day" event in support of the National Center for Missing
and Exploited Children in Boston, MA. Approximately 50 children at JFK and O'Neill
Federal Building childcare centers were fingerprinted and photographed.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Lori Chan and SAs James
Luu, Richard Salom, Eric Huhtala,
and Jesse Barragan participated in
a FLEOA- sponsored "National
Missing Children's Day" event
in support of the National
Center for Missing and Exploited
Children. Approximately 600
children at the Presidio in San
Francisco, CA, were fingerprinted
and photographed.



                                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Senior SA Kevin McBride participated in the National Organization of Black Law
Enforcement Executives-sponsored "National Missing Children's Day" event in support


138                                                                           Outreach
of the National Center for Missing and Exploited Children in Washington, DC.
Approximately 40 children at Plummer Elementary School were fingerprinted and
photographed.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


                                                        SAs Marco Ponce and Joshua
                                                    Stockman participated in a FLEOA-
                                                    sponsored "National Missing
                                                    Children's Day" event in support
                                                    of the National Center for
                                                    Missing and Exploited Children
                                                    in Phoenix, AZ. Approximately
                                                    400 children from the Thomas J.
                                                    Pappas Elementary School, a
                                                    school for homeless children in
                                                    central Phoenix, were fingerprinted
                                                    and photographed.

                            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Louis Mancini, Jr., participated in the Arthur Ashe Tennis Association- and
Philadelphia Youth Cultural PTA-sponsored "National Missing Children's Day" event
in support of the National Center for Missing and Exploited Children. Approximately
100 children attending a child safety event at Conestoga Recreation Field in
Philadelphia, PA, were fingerprinted and photographed.

                            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAs Edward Redmond and Stephen Tufts participated in a FLEOA-sponsored
"National Missing Children's Day" event in support of the National Center for Missing
and Exploited Children in Manchester, NH. Children attending the New Hampshire
Fisher Cats minor league baseball game were fingerprinted and photographed.

                            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAs Jennifer Landon and Leonard de Vera participated in a FLEOA-sponsored
"National Missing Children's Day" event in support of the National Center for Missing
and Exploited Children in Commerce, CA. Several hundred children from the greater
Los Angeles area were fingerprinted and photographed.

                            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAs Mark Heinbach, Anthony Troeger, and Brian Rymill participated in a FLEOA-
sponsored "National Missing Children's Day" event in support of the National Center
for Missing and Exploited Children in Greensboro, NC. Approximately 125 children
from Kiser Middle School were fingerprinted and photographed.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




Outreach                                                                            139
   SA Charles Grace participated in a FLEOA-sponsored "National Missing Children's
Day" event in support of the National Center for Missing and Exploited Children in
Sumner and Lake Tapps, WA. Approximately 500 children from the Daffodil and
Crestwood Elementary Schools were fingerprinted and photographed.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   ASAC Diane DeChellis provided an overview of HUD OIG's mission and priorities
and described successful investigations at an annual meeting of the Bridgewater State
College Criminal Advisory Board in Bridgewater, MA. Plymouth County District
Attorney Timothy Cruz and several law enforcement and academia officials attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Dan Ronski hosted an Association of Financial Crimes Investigators monthly
meeting in Chicago, IL. Approximately 26 financial investigators representing
financial, retail, and law enforcement organizations met to discuss current bank fraud
schemes and investigations.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   SA Anthony Troeger presented an interviewing training session for North Carolina
Department of Social Services program integrity investigators at their annual
conference in Greensboro, NC. At the conclusion of training, SA Troeger provided
contact information for HUD OIG, U.S. Department of Health and Human Services
OIG, and U.S. Department of Agriculture Fraud Hotline personnel. More than 30
program integrity investigators attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   SAs Greg Moyer and Melissa McFadden participated in the Kansas Law
Enforcement Torch Run to support Special Olympics held in Kansas City, KS.
Approximately 20 law enforcement agencies participated in the 23K run.

Audit Outreach
    ARIGA Fred Smith and Senior Auditor Beth Archibald met with Dennis Gallagher,
City and County of Denver Auditor; Dawn Sully, Deputy Auditor; Kip Memmott,
Director of Internal Audit; and Denis Berckefeldt, Director of Communications and
Prevailing Wage, at the City Auditor's Office, Denver, CO. ARIGA Smith informed the
participants about OIG's structure, goals, and priorities. The participants discussed
common audit topics and interests and the possibility of conducting joint efforts in the
future. The participants agreed that such joint efforts could be beneficial to both the
City and HUD. They agreed to periodically evaluate joint audit subjects.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   RIGA John Dvorak and ARIGA Mike Motulski met with H. Cris Der Vartanian,
Chief of the Bureau of Audits, and Dennis Ziroli, Associate Director and


140                                                                            Outreach
Superintendent of Banking, Division of Banking for the State of Rhode Island, in
Providence, RI. RIGA Dvorak and ARIGA Motulski explained the role of HUD OIG,
developed lines of communication, and provided information on the organizational
structure and functions of the Offices of Audit and Investigation. The top management
challenges were discussed, and recent relevant HUD OIG audit and investigation
results were shared. Additionally, information on the IG audit reports was provided,
along with OIG's Web site address for obtaining access to OIG external audit reports
and other information. Mr. Der Vartanian and Mr. Ziroli shared information regarding
responsibilities of their offices and discussed the audit reports issued by the State. The
presentation provided an opportunity to explore the possibility of leveraging resources
and sharing information between organizations.

HUD Staff and Other Outreach
     SAC Rene Febles and ASAC Jeanne Daumen presented an overview of HUD OIG's
FY 2007 goals and initiatives at a congressional briefing held at the HUD Newark field
office in Newark, NJ. In addition, ASAC Daumen provided an overview of HUD OIG's
investigative mission and working relationship with other law enforcement agencies;
described investigative initiatives relating to single family, assisted housing, Fugitive
Felon, and CPD programs; and illustrated the results from cooperative links between
HUD and HUD OIG. Representatives from the New Jersey Senate and congressional
offices attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC James Todak and ARIGA Tanya Schulze provided an overview of HUD OIG's
mission, organizational structure, and current priorities at a congressional briefing
hosted by the HUD Los Angeles field office in Los Angeles, CA. Approximately 40
individuals including congressional staff representatives from Southern California
attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Barry McLaughlin and RIGA Heath Wolfe provided HUD OIG's mission, goals,
priorities, and initiatives and described the function of the Offices of Investigation and
Audit to eight congressional staffers meeting in Detroit, MI.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    RIGA Heath Wolfe participated, along with the Chicago regional office, in a
briefing for congressional staffers at HUD's Springfield, IL, field office. RIGA Wolfe
presented information about HUD OIG's mission and priority areas. Twelve Illinois
congressional staffers were in attendance.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   RIGA Joan Hobbs and SAC James Todak attended the Region IX HUD Regional
Managers Conference in Henderson, NV, during which a presentation was made on the
audit process, audits issued to date for FY 2007, the audit plan for FY 2008, and issues


Outreach                                                                               141
of concern for the Offices of Audit and Investigation regarding HUD programs. About
40 HUD managers were in attendance.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    RIGA Ronald J. Hosking addressed the 2007 HUD Region VII Regional Managers
Conference in Kansas City, KS. RIGA Hosking provided a history and overview of
HUD OIG. He distributed copies of OIG's Semiannual Report to Congress and
described the purpose of the report, highlighting the significant information contained
in the report. He also explained the audit planning, execution, and resolution
processes.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    RIGA Heath Wolfe and SA Barry McLaughlin gave a presentation to HUD's Grand
Rapids, MI, field office. The presentation consisted of an overview of HUD OIG,
including a brief background of OIG's missions and goals. There were approximately
25 HUD employees in attendance.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    RIGA Heath Wolfe and ARIGA Ron Farrell participated in Marshall University's
2007 Spring Intern and Career Expo in Huntington, WV. RIGA Wolfe and ARIGA
Farrell spoke with students about OIG's mission and the benefits of pursuing student
volunteer and career positions with HUD OIG. They accepted resumes from students
interested in both the student volunteer program at OIG's Columbus, OH, Office of
Audit and careers with HUD OIG.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Tony Meeks and ARIGA Tanya Schulze provided HUD OIG's mission and
role; described fraud, waste, and abuse in HUD programs; and explained HUD OIG's
Hotline at a meeting of Southern California Congressional District Representatives in
Los Angeles, CA.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Lori Chan provided an overview of HUD OIG's mission, organizational
structure, current priorities, and the fraud referral process at a congressional briefing
hosted by the HUD San Francisco field office in San Francisco, CA. Approximately 15
congressional staff representatives and others attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     ARIGAs Tanya Schulze and Vince Mussetter attended a graduate and alumni job
fair at California State University, Northridge, in Los Angeles, CA. ARIGAs Schulze
and Mussetter spoke with nearly 100 individuals about possible career opportunities
with OIG and obtained resumes from those expressing interest in careers with the
Offices of Audit and Investigation.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

142                                                                             Outreach
    ARIGA Kim Randall participated in a high school job shadow day in Kansas City,
KS, which was designed to give high school students a taste of the career field that they
want to pursue in college. Simone Woods, a junior at Versailles High School in Versailles,
MO, shadowed ARIGA Randall for a day and learned what it is like to be an auditor with
OIG. Simone learned how OIG gets ideas for audits; auditors plan, conduct, and
document audits; reports are written and provided to Congress; and auditors use their
accounting skills to accomplish audits. Several auditors shared their thoughts on
recent audits, and the HUD Regional Directors for Multifamily Housing and Public
Housing explained the duties their accountants perform and how their staffs interact
with OIG.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ARIGA Tanya Schulze and Senior Auditor Ratronda Gowdy attended a career expo
at the Los Angeles Convention Center in Los Angeles, CA, sponsored by Jobing.com.
The event was attended by thousands of individuals seeking job opportunities. ARIGA
Schulze and Auditor Gowdy spoke with at least 200 individuals about the Federal
Government, and OIG and provided them with information about possible career
opportunities.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ARIGA Nikita Irons and Auditor Alexandra Burgess participated in the Walsh
College Career Fair in Novi, MI. They spoke to students about the benefits of
pursuing student volunteer and auditing positions with HUD OIG. Students were
informed that OIG has student volunteer opportunities in Detroit, MI. Eighteen
resumes were submitted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Jorge Reyes, Jr., and Senior Auditor Darlene Haniak presented an overview of
HUD OIG's mission and role and described HUD program investigations and audits at
a "Grant Writing Workshop" presented by the HUD Office of Faith Based and
Community Initiatives in Houston, TX. Approximately 300 representatives from
nonprofit organizations attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAs Nicholas Fasciglione and Cortez Richardson provided HUD OIG's mission and
role at a Central Oklahoma Clearinghouse Association meeting held in Oklahoma City,
OK. Approximately 30 association members representing financial and retail
establishments, along with State and local law enforcement personnel, attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   SA Anthony Troeger provided an overview of HUD OIG and described employee
misconduct investigations at a program integrity investigators meeting in
Winston-Salem, NC. Approximately 35 representatives from varied social services
departments attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

Outreach                                                                              143
   SAs Cortez Richardson and Nicholas Fasciglione provided an overview of HUD OIG's
mission and role at Lawton and Tulsa Metropolitan Area Fraud Information
Association meetings in Lawton and Tulsa, OK. Approximately 40 association
members representing financial and retail establishments and local law enforcement
agencies attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Thomas Redmann participated in a student outreach program during a career
day event held at Jesuit High School in New Orleans, LA. SA Redmann provided
information on Federal Government employment and law enforcement career
opportunities.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Amy Durso was a guest speaker at a "Breakfast with the Experts" event held at
Liberty Junior High School in Liberty, MO. SA Durso provided an overview of HUD
OIG, HUD OIG special agents, and the pros and cons of a law enforcement career. Other
guest speakers included law enforcement personnel from the Drug Enforcement Agency,
Platte County Prosecutor's Office, and North Kansas City Police Department, along
with individuals from other human service professions.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    CAS Cliff Cole participated in the Mid-Atlantic Intergovernmental Audit Forum's
annual spring/summer meeting in Ocean City, MD, as a keynote panelist and speaker.
The Forum is a consortium of Federal, State, and local audit executives from the
District of Columbia and the States of Delaware, Maryland, Pennsylvania, Virginia, and
West Virginia. CAS Cole represented HUD OIG as the panel's Federal Government
spokesman in its discussion on "How Audit Software Can Help Improve Our Data
Analysis and Data Mining." He provided an overview of HUD OIG's organizational
structure and mission as a backdrop for a detailed discussion on OIG's progressive use
of data mining techniques and computer-assisted analytics.




144                                                                          Outreach
        Chapter 8




Review of Policy Directives
     Reviewing and making recommendations on legislation, regulations, and policy
issues is a critical part of the Office of Inspector General's (OIG) responsibilities under
the Inspector General Act. During this 6-month reporting period, OIG reviewed 118
issuances and testified on a Federal Housing Administration (FHA) legislative proposal.
This chapter highlights some of OIG's prior comments on notices, comments for this
reporting period, and other policy directives

Proposed Legislation
FHA Modernization
     The U.S. Department of Housing and Urban Development (HUD) has proposed
legislation that would allow increased flexibility in setting insurance premiums based
on risk and reduce downpayment requirements. As noted in the President's fiscal year
2008 budget, through the Expanding Homeownership Act of 2006, HUD has sought
to provide workable solutions for homebuyers who do not qualify for prime financing,
giving them more affordable and safer ways to achieve the "American dream." The key
components of the legislative proposal are to

      -   Modify the current statutory 3 percent minimum downpayment.
      -   Create a new, risk-based insurance premium structure for FHA that would
          match the premium amount with the credit profile of the borrower.
      -   Increase and simplify FHA's loan limits.

      On July 18, 2007, the Inspector General testified on the modernization proposal
before the United States Senate Committee on Banking, Housing, and Urban Affairs.
OIG remains concerned about the future solvency of the FHA fund in view of the
proposed FHA modernization. The legislative reform package, which includes
risk-based premiums, zero-downpayment loans, and higher mortgage limits, could bring
higher default and foreclosure risks as FHA attempts to recover its historic share of
first-time homebuyer and minority markets.

      -   Risk-Based Premiums: Moving to a mixed price premium structure could by
          its very complexity require increased budget authority to make FHA system
          modifications and impose new administrative/cost burdens on originating and
          servicing lenders. FHA reform will also require higher risk borrowers to pay
          higher premiums. Risk-based pricing, therefore, may increase the mortgage
          carrying costs of FHA borrowers who are the least able to afford them.

      -   Zero Downpayments: FHA has experienced higher default and claim rates on
          seller-funded nonprofit downpayment assisted loans. When sales prices are
          inflated to fund the downpayment "gifts," these loans are effectively zero
          downpayment loans (100 percent loan to value). As reported by the
          Government Accountability Office (GAO), the probability of such loans
          resulting in an insurance claim was 76 percent higher than that of comparable
          loans without such assistance. It is reasonable to conclude that zero
          downpayment loans would represent a comparable insurance risk.


146                                                               Review of Policy Directives
    -   Higher Mortgage Limits: FHA should determine mortgage loan limits
        consistent with its mission to serve underserved borrowers and communities,
        particularly first-time homebuyers and minorities. Raising the loan limits to
        conforming maximums may serve to attract borrowers who have access to
        conventional financing and do not need a government program to acquire
        homeownership.

    -   Silence on Controls: The proposed reform is silent on strengthening controls
        and enforcement actions and preventing future fraud. Conventional lending in
        the private sector is beginning to use predictive models that screen loan
        applications for fraud at prefunding. FHA needs to move beyond
        postendorsement monitoring and embrace this new technology through policy
        and programmatic changes as part of FHA reform.

Final Rule
Seller-Funded Downpayment Assistance
     OIG has previously expressed its concerns that seller-funded nonprofit
downpayment assistance transactions inflate real estate prices and increase the risk of
default. OIG's concerns with downpayment assistance from seller-funded nonprofits
have been long-standing and are consistent with concerns raised by others, including
the Government Accountability Office. Also, the Internal Revenue Service issued a
revenue ruling in 2006 making it clear that seller-funded downpayment assistance
providers are not charities as they do not meet the requirements of 26 U.S.C. §501(c)(3).
As a result, OIG pressed the Department to issue a rule to establish specific criteria
regarding a borrower's investment in the mortgaged property when a gift is provided
by a nonprofit or other organization. HUD published a proposed rule in the Federal
Register on May 11, 2007. In late September 2007, the FHA Commissioner announced
the final rule, which was published in the Federal Register on October 1, 2007.

Proposed Rules
Mortgagee Letters
     OIG nonconcurred with an initial draft of Mortgagee Letter 2007-29, Refinancing
of Non-FHA Adjustable Rate Mortgages Following "Re-Set," and Appraisal Practices
for Declining Markets. After considering our input, FHA agreed to changes that would
better clarify the circumstances under which non-FHA mortgages could be refinanced
under this initiative, referred to as "FHA Secure."

    OIG nonconcurred with the proposed mortgagee letter announcing the
immediate acceptance of electronic signatures, in accordance with the Electronic
Signatures in Global and National Commerce Act (ESIGN), Pub. Law No. 106-229, "on
documents when originating, servicing, and making certifications on FHA-insured loans."
However, the Office of Housing has not established necessary standards related to the


Review of Policy Directives                                                           147
submission, authentication, retention, backup, HUD OIG access, and security of
mortgage-related documents. Moreover, it appears that the adoption of such required
protocols should be implemented via notice and comment rule making. Accordingly,
HUD OIG must nonconcur with respect to the proposed mortgagee letter. OIG is
working with HUD to resolve our nonconcurrence.

Manufactured Home Installation Program
     OIG nonconcurred on this proposed final rule. OIG strongly recommends that
the proposed rule include that the installer certifies, on a HUD-approved form, that
the foundation and installation meet the required specification and that the
foundation was properly installed. OIG issued a report which concluded that more than
80 percent of the manufactured homes insured by FHA had foundations that did not
meet HUD's requirements. After the close of the semiannual reporting period, OIG
and HUD resolved the nonconcurrence.




148                                                          Review of Policy Directives
   Chapter 9




Audit Resolution
     In the audit resolution process, Office of Inspector General (OIG) and U.S.
Department of Housing and Urban Development (HUD) management agree upon the
needed actions and timeframes for resolving audit recommendations. Through this
process, OIG hopes to achieve measurable improvements in HUD programs and
operations. The overall responsibility for assuring that the agreed-upon changes are
implemented rests with HUD managers. This chapter describes significant
management decisions with which OIG disagrees. It also contains a status report on
HUD's implementation of the Federal Financial Management Improvement Act of 1996
(FFMIA). In addition to this chapter on audit resolution, see appendix 2, table B,
"Significant Audit Reports Described in Previous Semiannual Reports in Which Final
Action Had Not Been Completed as of September 30, 2007."

Audit Reports Issued before Start of Period with No
Management Decision as of September 30, 2007
      Office of Housing, Washington, DC

      Single-Family Mortgage Insurance Claims Issued July 11, 2006. The Inspector
General referred this issue to the Deputy Secretary on December 4, 2006, because
agreement could not be reached with the Office of Housing. The three
recommendations relate to the Office of Housing's not independently determining that
mortgage loans insured under the Mutual Mortgage Insurance Fund met program
requirements after paying billions in single-family insurance claims. During the period
October 1, 2003, through June 3, 2005, HUD received and paid claims on loans for
which the lender did not show that the borrower (1) was able to make the required
monthly payments, (2) made the minimum investment in the property, and (3) was
creditworthy. HUD paid the claims and did not subsequently review the loan files for
compliance with the program requirements, fraud, and/or misrepresentations. HUD
relied upon lender certifications that loans were eligible and contained all required
supporting documents, a preendorsement review of the insurance applications for key
documents, and risk-based compliance testing of recently insured loans. We estimate
that final HUD costs for claims that HUD's files did not support as meeting program
requirements during the period reviewed totaled $356 million on those claims for which
all revenues and expenses were finalized.

     In his February 23, 2007, response, the Deputy Secretary stated support of OIG's
objective and agreed with the overall conclusions reached. The Deputy Secretary
directed the Office of Housing to immediately begin implementing procedures in
conjunction with and acceptable to OIG to effect the recommendations. The Office of
Housing submitted two proposals to OIG on March 30 and June 11, 2007, respectively.
We rejected the proposals as in our opinion neither adequately provided for the
development of procedures to take appropriate actions for all claims with inadequate
documentation and essentially renders the recommendations ineffective. Since June
2007, we have received no further correspondence from the Office of Housing on this
matter. The recommendations remain open, without management decisions, until the
Office of Housing submits a corrective action plan that accurately reflects the Deputy
Secretary's instructions and demonstrates a good faith effort to implement OIG's
recommendations. (Report No. 2006-SE-0001).

150                                                                    Audit Resolution
Significant Management Decision with
Which OIG Disagrees
    There are no reports issued before the beginning of the reporting period for which
a management decision had not been made by the end of the period.

Federal Financial Management
Improvement Act of 1996
     In fiscal year 2006, HUD did not substantially comply with FFMIA. In this regard,
HUD's financial management systems did not substantially comply with Federal
financial management system requirements.

     FFMIA requires that HUD implement a remediation plan that will bring financial
systems into compliance with Federal financial management system requirements within
3 years or obtain Office of Management and Budget (OMB) concurrence if more time is
needed.

     FFMIA requires OIG to report in its Semiannual Reports to the Congress instances
and reasons when an agency has not met the intermediate target dates established in its
mediation plan required by FFMIA. In April 1998, HUD determined that 38 of its
systems were not in substantial compliance with FFMIA. At the end of 2006, the
Department reported that 2 of its 42 financial management systems were not in
substantial compliance with FFMIA. These two systems are the HUD Procurement
System (HPS) and Small Purchase System (SPS).




Audit Resolution                                                                    151
    Appendix 1




Audit Reports Issued
Internal Reports
11 Audit Reports
Administration (2 Reports)
2007-CH-0001                    HUD Did Not Fully Implement Succession Planning, 09/29/2007.
2007-DP-0006                    Review of HUD's Personal Identity Verification and Privacy Program,
                                08/28/2007.
Chief Information Officer (2 Reports)
2007-DP-0005                    Review of HUD's Information Technology Security Program,
                                04/05/2007.
2007-DP-0007                    Vulnerability Assessment of HUD's Computer Network, 09/19/2007.
Chief Procurement Officer (1 Report)
2007-AT-0001                    HUD Needs to Improve Controls Over Its Contract
                                Administration Processes, 09/19/2007. Better Use: $368,283.
Housing (5 Reports)
2007-BO-0002                    HUD Did Not Process Multifamily Accelerated Processing
                                Applications within Established Processing Goals and the
                                Multifamily Accelerated Processing Guide Is Outdated, 05/21/2007.
2007-KC-0003                    HUD Did Not Recapture Excess Funds from Assigned
                                Bond-Financed Projects, 04/30/2007. Better Use: $1,988,066.
2007-KC-0004                    More Than 80 Percent of Recently Insured Title II Manufactured
                                Housing Loans Are on Homes With Substandard Foundations,
                                09/24/2007. Better Use: $44,909,590.
2007-PH-0002                    HUD's Oversight of Contractors' Marketing of Its Real
                                Estate-Owned Properties, 08/17/2007.
2007-SE-0001                    HUD Did Not Ensure That Payments to Contract Administrators
                                Were for Work Performed or That Interest Was Earned on
                                Advances and Recovered, 06/07/2007. Questioned: $15,101;
                                Better Use: $27,424,605.
Public and Indian Housing (1 Report)
2007-FW-0001                    Overpayments in the Housing Choice Voucher Program Occurred
                                When Public Housing Agencies Subsidized Rental Units with
                                More Bedrooms Than Authorized, 09/28/2007. Better Use:
                                $20,076,492.

Audit-Related Memorandums1
Community Planning and Development(1 Report)
2007-NY-0802                    CDBG Disaster Recovery Assistance Funds Lower Manhattan
                                Development Corporation, New York, NY, 04/03/2007.


1
 The memorandum format is used to communicate the results of reviews not performed in accordance with generally
accepted government audit standards, to close out assignments with no findings and recommendations, to respond to
requests for information, to report on the results of a survey, to report results, or to report the results of civil actions or
settlements.


154                                                                                                  Audit Reports Issued
Chief Information Officer (1 Report)
2007-DP-0801           OIG Response to Questions From the OMB Under the FISMA,
                       09/28/2007.
Housing (1 Report)
2007-KC-0801           Lenders Submitted Title II Manufactured Housing Loans for
                       Endorsement without the Required Foundation Certifications,
                       09/24/2007. Questioned: $1,529,723; Better Use: $223,164.




Audit Reports Issued                                                                 155
External Reports
64 Audit Reports
Community Planning and Development (20 Reports)
2007-AO-1001    The State of Mississippi's Homeowner's Assistance Grant Program Did
                Not Appropriately Calculate Grants and Monitor the Program, Jackson,
                MS, 05/07/2007. Better Use: $159,172.
2007-AT-1007    The Municipality of Toa Baja Needs to Improve Its CDBG Program
                Administration, Toa Baja, PR, 04/11/2007. Questioned: $1,821,513;
                Unsupported: $1,726,377; Better Use: $34,091.
2007-BO-1005    The City of New Bedford Did Not Meet Certain Requirements of HUD's
                CDBG Program, New Bedford, MA, 04/23/2007. Questioned: $750,000;
                Unsupported: $750,000; Better Use: $473,177.
2007-BO-1007    The City of Fall River Generally Administered Its Block Grant and
                HOME Programs in Accordance with HUD Requirements, Fall River,
                MA, 08/24/2007.
2007-CH-1015    Cook County Lacked Adequate Controls over Its HOME Investment
                Partnerships Program, Chicago, IL, 09/26/2007. Questioned: $943,476;
                Unsupported: $827,507; Better Use: $153,805.
2007-CH-1017    The City of Cincinnati Lacked Adequate Controls over Its HOME
                Investment Partnerships Program, Cincinnati, OH, 09/30/2007.
                Questioned: $1,639,241; Unsupported: $1,373,156; Better Use: $134,455.
2007-CH-1018    The City of Milwaukee Needs to Improve Existing Controls over Its
                HOME Program Regarding Housing Conditions and Contracting,
                Milwaukee, WI, 09/30/2007. Questioned: $301,563; Better Use: $120,000.
2007-DE-1006    The State of Utah Did Not Comply with HOME Investment
                Partnerships Program Requirements, Salt Lake City, UT, 08/10/2007.
                Questioned: $306,648; Better Use: $4,000,000.
2007-LA-1009    The City of Chula Vista Generally Administered Its HOME Investment
                Partnership Program in Accordance with HUD Requirements, Chula
                Vista, CA, 04/10/2007.
2007-LA-1012    Central City Lutheran Mission Did Not Properly Administer Its
                Supportive Housing Program Grants, San Bernardino, CA, 06/04/2007.
                Questioned: $1,003,540; Unsupported: $699,438; Better Use: $13,183.
2007-LA-1013    The Los Angeles Homeless Services Authority Did Not Perform On-Site
                Fiscal Monitoring of Its Project Sponsors, Los Angeles, CA, 06/08/2007.
2007-LA-1016    A Community of Friends Did Not Always Administer Its Cash Match in
                Compliance with HUD Requirements, Los Angeles, CA, 09/21/2007.
                Questioned: $71,318.
2007-NY-1005    Lower Manhattan Development Corporation CDBG Disaster Recovery
                Assistance Funds, New York, NY, 04/17/2007. Questioned: $6,000.
2007-NY-1007    The City of Jersey City Did Not Always Adequately Administer Its
                HOME Investment Partnerships Program, Jersey City, NJ, 06/13/2007.
                Questioned: $622,128; Unsupported: $354,581; Better Use: $487,137
2007-NY-1008    The City of Newark Did Not Always Administer Its CDBG Program in
                Accordance with HUD Requirements, Newark, NJ, 06/22/2007.
                Questioned: $10,425,604; Unsupported: $10,164,376; Better Use:
                $991,171.


156                                                                Audit Reports Issued
2007-NY-1009           The Town of Alexandria's Small Cities CDBG Program Did Not Meet
                       Its Program Objective of Job Creation, Alexandria, NY, 06/29/2007.
                       Questioned: $600,000; Unsupported: $600,000.
2007-NY-1012           The City of Passaic's Community Development Department Has
                       Weaknesses in Its HOME Investment Partnerships Program,
                       Passaic, NJ, 09/12/2007. Questioned: $942,993; Unsupported:
                       $841,366; Better Use: $1,626,642.
2007-NY-1013           Lower Manhattan Development Corporation CDBG Disaster
                       Recovery Assistance Funds, New York, NY, 09/28/2007.
2007-PH-1012           The State of Maryland Did Not Always Administer Its
                       Homeownership Assistance Program in Accordance with Federal
                       Regulations and Written Agreements, Crownsville, MD, 08/27/2007.
                       Questioned: $73,000; Unsupported: $73,000.
2007-SE-1004           The Tacoma Consortium Did Not Properly Administer its HOME
                       Investment Partnerships Grants, Tacoma, WA, 09/30/2007.
                       Questioned: $435,613; Unsupported: $248,214; Better Use: $263,458.
General Counsel (1 Report)
2007-FW-1012           Fallbrook Apartments' Owner and/or Management Agent Made
                       Unauthorized Distributions of the Project's Funds, Houston, TX,
                       07/06/2007. Questioned: $330,887; Unsupported: $31,625.
Housing (13 Reports)
2007-AT-1010           The Cathedral Foundation of Jacksonville Used More Than $2.65 Million
                       in Project Funds for Questioned Costs, Jacksonville, FL, 08/14/2007.
                       Questioned: $2,651,810; Unsupported: $147,277; Better Use: $93,677.
2007-BO-1006           Multifamily Project Deficiencies Resulted in More Than $730,000 in
                       Cost Exceptions for Moosup Gardens Apartments, Moosup, CT,
                       07/25/2007. Questioned: $670,265; Unsupported: $113,636; Better Use:
                       $63,038.
2007-CH-1007           Trumbull Metropolitan Housing Authority Did Not Ensure Its
                       Nonprofit Followed HUD's Section 8 Housing Requirements, Warren,
                       OH, 04/30/2007. Better Use: $1,367,630.
2007-DE-1005           Rocky Mountain Mutual Housing Association Paid Ineligible Owner
                       Expenses, Denver, CO, 04/10/2007. Questioned: $27,936.
2007-FW-1009           Countrywide Home Loans, Inc., Generally Complied with HUD
                       Requirements in Originating FHA-Insured Single-Family Mortgages,
                       Houston, TX, 05/10/2007. Better Use: $32,549.
2007-FW-1010           Alethes Mortgage, LLC, and Its Dallas, Texas, Branch, Waters Edge
                       Mortgage, LLC, Did Not Comply with All HUD Underwriting
                       Requirements, Dallas, TX, 06/08/2007. Better Use: $48,824.
2007-FW-1011           Capmark Finance, Inc. Misrepresented Asbury Square Apartments'
                       Financial and Physical Condition When Underwriting the $9.098
                       Million Loan, Tulsa, OK, 07/02/2007. Questioned: $5,249,414; Better
                       Use: $684,698.
2007-LA-1011           Suburban Mortgage Company Did Not Comply with HUD
                       Requirements in the Origination of FHA-Insured Single-Family
                       Mortgages, Phoenix, AZ, 05/29/2007. Questioned: $62,222;
                       Unsupported: $19,463; Better Use: $890,839.
2007-NY-1010           Amistad Management's Administration of Grace Houses Generally
                       Complied with HUD Regulations, Jamaica, NY, 07/05/2007.
                       Questioned: $389; Better Use: $2,347.

Audit Reports Issued                                                                     157
2007-PH-1006      Elders Place II, Incorporated, Did Not Properly Administer HUD Funds
                  in Accordance with HUD Requirements, Philadelphia, PA, 04/19/2007.
                  Questioned: $788,414; Unsupported: $605,166; Better Use: $45,843.
2007-PH-1007      Oak Mound Associates Improperly Billed HUD for Section 8 Subsidies,
                  Clarksburg, WV, 06/19/2007. Questioned: $9,144; Unsupported: $5,671;
                  Better Use: $1,389.
2007-PH-1010      Countrywide Home Loans Generally Complied with HUD
                  Requirements in Originating FHA-Insured Single-Family Loans,
                  Plymouth Meeting, PA, 07/26/2007. Better Use: $74,395.
2007-SE-1002      The Renton Branch of Countrywide Home Loans, Inc., Did Not
                  Comply with HUD Guidelines in Underwriting Five FHA-Insured
                  Loans, Renton, WA, 04/11/2007. Better Use: $207,947.
Policy Development and Research (1 Report)
2007-DE-1007      Sitting Bull College Generally Met Requirements While Administering
                  Its Tribal Colleges and Universities Program Assistance Award, Fort
                  Yates, ND, 09/04/2007.
Public and Indian Housing (29 Reports)
2007-AT-1006      The Housing Authority of DeKalb County Did Not Adequately Monitor
                  Contract Payments, Decatur, GA, 04/10/2007. Questioned: $83,455;
                  Unsupported: $36,404.
2007-AT-1008      The Housing Authority of DeKalb County Section 8 Units Generally
                  Met Housing Quality Standards, Decatur, GA, 04/30/2007.
2007-AT-1009      The Charleston Housing Authority Needs to Improve Controls Over
                  Credit Card Use, Travel, and Petty Cash, Charleston, SC, 05/02/2007.
                  Questioned: $7,941; Unsupported: $2,054.
2007-AT-1011      The Wilmington Housing Authority Did Not Follow HUD
                  Requirements for Its Nonprofit Development Activities, Wilmington,
                  NC, 09/26/2007. Questioned: $1,519,663.
2007-BO-1008      Holyoke Housing Authority Needs to Improve Its Internal Controls over
                  the Voucher Program, Cost Allocations and Transfers, Holyoke, MA,
                  08/29/2007. Questioned: $1,022,614; Unsupported: $915,784;
                  Better Use: $397,950.
2007-CH-1008      The Dayton Metropolitan Housing Authority Did Not Effectively
                  Operate Its Section 8 Housing Choice Voucher Program, Dayton, OH,
                  06/19/2007. Questioned: $345,727; Unsupported: $282,085; Better Use:
                  $2,854,106.
2007-CH-1009      The Boyne City Housing Commission Failed to Follow HUD's
                  Requirements for Its Nonprofit Development Activities, Boyne City, MI,
                  07/17/2007. Questioned: $82,642; Better Use: $366,773.
2007-CH-1010      The Madison County Housing Authority Did Not Effectively
                  Administer Its Section 8 Housing Choice Voucher Program, Collinsville,
                  IL, 07/20/2007. Questioned: $224,789; Unsupported: $140,521; Better
                  Use: $798,058.
2007-CH-1011      The Indianapolis Housing Agency Lacked Adequate Controls over
                  Expenses Charged to Its Section 8 Program, Indianapolis, IN,
                   07/23/2007. Questioned: $1,650,863; Unsupported: $10,545; Better
                  Use: $855,818.




158                                                                 Audit Reports Issued
2007-CH-1012           The Plymouth Housing Commission Needs to Improve Its Section 8
                       Housing Choice Voucher Program Administration, Plymouth, MI,
                       08/03/2007. Questioned: $258,292; Unsupported: $214,422; Better Use:
                       $1,157,922.
2007-CH-1013           The Butler Metropolitan Housing Authority Lacked Adequate Controls
                       over Its Homeownership Proceeds, Hamilton, OH, 09/20/2007. Better
                       Use: $652,638.
2007-CH-1014           The Peoria Housing Authority Did Not Effectively Administer Its
                       Section 8 Housing Choice Voucher Program, Peoria, IL, 09/24/2007.
                       Questioned: $106,445; Better Use: $1,090,476.
2007-CH-1016           The Plymouth Housing Commission Failed to Adequately Administer
                       Its Section 8 Housing Choice Voucher Program, Plymouth, MI,
                       09/28/2007. Questioned: $63,790; Unsupported: $2,939; Better Use:
                       $1,468,640.
2007-FW-1008           The San Antonio Housing Authority Overhoused Tenants and Paid
                       Excessive Housing Assistance Payments in its Section 8 Housing Choice
                       Voucher Program, San Antonio, TX, 04/19/2007. Questioned: $78,838;
                       Better Use: $7,333.
2007-KC-1006           The Mansfield Housing Authority Misspent Public Housing Funds and
                       Did Not Fulfill Its Section 8 Program Contract Administrator
                       Requirements, Mansfield, MO, 07/09/2007. Questioned: $28,231;
                       Unsupported: $4,020.
2007-KC-1007           St. Clair County Housing Authority Did Not Properly Calculate
                       Housing Assistance Payments, Belleville, IL, 08/17/2007. Questioned:
                       $26,010; Better Use: $82,095.
2007-LA-1007           The Housing Authority of the County of Los Angeles Did Not
                       Adequately Conduct Housing Quality Standards Inspections, Los
                       Angeles, CA, 04/03/2007. Better Use: $11,542,524.
2007-LA-1008           The Navajo Housing Authority Should Discontinue Its Use of
                       Subgrantees for Development Projects or Implement Additional
                       Program Controls, Window Rock, AZ, 04/09/2007. Better Use:
                       $53,419,143.
2007-LA-1010           The Housing Authority of the County of Contra Costa Admitted an
                       Overincome Family to the Section 8 Housing Choice Voucher Program,
                       And Did Not Adequately Screen and Document Eviction Histories,
                       Martinez, CA, 05/07/2007. Questioned: $2,559.
2007-LA-1014           The Housing Authority of the County of San Mateo Did Not Use HUD
                       Program Funds in Accordance with HUD Requirements, San Mateo,
                       CA, 07/27/2007. Questioned: $3,913,830; Unsupported: $1,400,000.
2007-LA-1015           The Housing Authority of the City of North Las Vegas Significantly
                       Underleased Its Section 8 Housing Choice Voucher Program, North Las
                       Vegas, NV, 09/04/2007. Better Use: $4,419,629.
2007-NY-1004           Family Self-Sufficiency and Section 8 Programs Weaknesses at the City
                       of Poughkeepsie, NY, 04/02/2007. Questioned: $783,371; Unsupported:
                       $750,000; Better Use: $162,697.
2007-NY-1006           The Housing Authority of the City of Asbury Park Requires Improved
                       Controls Over Capital Funds, Salary, and Maintenance, Asbury Park,
                       NJ, 05/24/2007. Questioned: $1,605,030; Unsupported: $48,246; Better
                       Use: $278,361.



Audit Reports Issued                                                                     159
2007-NY-1011                 The Hoboken Housing Authority Requires Improved Controls Over Its
                             Capital Fund Program and Cash Disbursement Process, Hoboken, NJ,
                             08/17/2007. Questioned: $1,788,819; Unsupported: $333,244.
2007-PH-1008                 The District of Columbia Housing Authority Did Not Adequately
                             Administer Leased Housing under Its MTW Program, Washington, DC,
                             07/13/2007. Questioned: $786,086; Unsupported: $309,914; Better Use:
                             $4,470.
2007-PH-1009                 The Newport News Redevelopment and Housing Authority Did Not
                             Effectively Operate Its Housing Choice Voucher Program, Newport
                             News, VA, 07/24/2007. Questioned: $380,660; Unsupported: $262,287;
                             Better Use: $4,086,712.
2007-PH-1011                 The Housing Commission of Anne Arundel County Did Not Always
                             Operate Its Housing Choice Voucher Program in Accordance with
                             Federal Requirements, Glen Burnie, MD, 08/14/2007. Questioned:
                             $1,065,169; Unsupported: $948,647; Better Use: $2,121,769.
2007-PH-1013                 The Harrisburg Housing Authority Did Not Properly Administer Its
                             Low-Rent Public Housing Program, Harrisburg, PA, 09/27/2007.
                             Questioned: $834,969.
2007-SE-1003                 The Vancouver Housing Authority Lacks Quality Control Processes in
                             Its Housing Choice Voucher Program, Vancouver, WA, 09/05/2007.


Audit-Related Memorandums2
Housing (1 Report)
2007-FW-1801                 Security National Mortgage Company, Dallas, TX, 07/30/2007.
                             Questioned: $48,729; Unsupported: $48,729.




2
 The memorandum format is used to communicate the results of reviews not performed in accordance with generally
accepted government audit standards, to close out assignments with no findings and recommendations, to respond to
requests for information, to report on the results of a survey, to report results, or to report the results of civil actions or
settlements.


160                                                                                                  Audit Reports Issued
Appendix 2




  Tables
                                   Table A
        Audit Reports Issued Prior to Start of Period with No
               Management Decision at 09/30/2007
          * Significant Audit Reports Described in Previous Semiannual Reports
Report Number               Reason for Lack of                      Issue Date/Target
& Title                     Management Decision                     for Management
                                                                    Decision
2006-SE-0001                See Chapter 9, page 149                              01/07/2007
Single Family
Mortgage Insurance
Claims




162                                                                                   Tables
                                   Table B
              Significant Audit Reports Described in Previous
         Semiannual Reports For Which Final Action Had Not Been
                        Completed as of 09/30/2007
    Report          Report Title                  Issue       Decision      Final
    Number                                        Date         Date        Action

2001-CH-1007     Detroit Housing Commission,     05/16/2001   09/13/2001 06/30/2011
                 Hope VI Program, Detroit, MI

2002-KC-0002     Nationwide Survey of HUD’s      07/31/2002 11/22/2002 03/31/2008
                 Office of Housing Section 232
                 Nursing Home Program

2002-PH-1005     Philadelphia Regional Alliance 09/30/2002    03/31/2003 04/01/2008
                 of HUD Tenants, Outreach
                 and Training Assistance
                 Grant and Intermediary
                 Technical Assistance Grant,
                 Philadelphia, PA

2003-SE-1002     Tenants Union, Outreach and 12/02/2002 03/31/2003 04/01/2008
                 Training Assistance Grant
                 and Intermediary Training
                 Assistance Grant, Seattle, WA

2003-DE-0001     HUD Offices of Multifamily      03/31/2003   03/31/2003      Note 1
                 Housing Assistance
                 Restructuring’s Oversight of
                 the Section 514 Program
                 Activities

2003-NY-1005     Empire State Development        09/30/2003 01/28/2004     12/31/2007
                 Corporation, CDBG Disaster
                 Assistance Funds, New York,
                 NY

2004-BO-1004     Danbury Housing Authority,      12/05/2003 04/05/2004 12/01/2008
                 Capital Fund Program,
                 Boston, MA

2004-FO-0003     HUD Financial Statements        12/19/2003 07/20/2004 10/15/2007
                 FY 2003 and 2002

2004-AO-0001     Award and Administration of 02/06/2004 06/30/2004 04/01/2008
                 Lead-Based Paint Hazard
                 Reduction Grants

2004-PH-1003     The Congress of National      02/19/2004 06/18/2004       11/15/2008
                 Black Churches, Incorporated,
                 Housing Counseling Program,
                 Washington, DC

2004-DP-0002     Application Control Review      02/25/2004 07/14/2004 08/30/2008
                 of the Tenant Rental
                 Assistance Certification
                 System

Tables                                                                              163
      Report       Report Title                   Issue     Decision      Final
      Number                                      Date       Date        Action

2004-PH-1008   Safe Haven Outreach               06/03/2004 08/31/2004 03/28/2008
               Ministry, Incorporated,
               Washington, DC

2004-AT-1012   Housing Authority of the          08/02/2004 11/29/2004 12/31/2020
               City of Durham, NC

2004-CH-1803   Somerset Point Nursing            08/09/2004 08/09/2004 07/31/2009
               Home, Multifamily Equity
               Skimming, Shaker Heights,
               OH

2004-CH-1008   Cornerstone Mortgage Group, 09/10/2004 01/05/2005            Note 2
               Limited Non-Supervised Loan
               Correspondent, Inverness, IL

2004-PH-1012   Mortgage America Bankers,         09/10/2004 01/06/2005      Note 2
               LLC, Non-Supervised Loan
               Correspondent, Kensington,
               MD

2004-FW-1009   Mays Property Management,         09/17/2004 02/23/2005 05/15/2008
               Inc., Multifamily
               Management Agent, Little
               Rock, AR

2004-LA-1008   United States Veterans            09/27/2004 03/31/2005 04/15/2013
               Initiative, Inc., Inglewood, CA

2005-AT-1004   Housing Authority of the          11/19/2004 03/15/2005   03/15/2015
               City of Durham, NC

2005-CH-1003   Royal Oak Township Housing        11/29/2004 03/29/2005   10/31/2007
               Commission, Public Housing
               Program, Ferndale, MI

2005-AT-1005   Pan American Financial            01/27/2005 05/17/2005   01/31/2008
               Corporation, Non-Supervised
               Direct Endorsement Lender,
               Guaynabo, PR

2005-FW-1004   American Property Financial,      01/28/2005 05/27/2005      Note 2
               Non-Supervised Loan
               Correspondent, San Antonio,
               TX

2005-AT-1007   Interstate Financial Mortgage     03/15/2005 08/04/2005 12/30/2007
               Group Corporation, Non-
               Supervised Direct
               Endorsement Lender, Miami,
               FL

2005-PH-0001   Criteria Governing Local     03/29/2005 07/27/2005           Note 2
               Government Participation in
               HUD’s Single Family Property
               Disposition Discount Sales
               Program

164                                                                           Tables
    Report         Report Title                 Issue     Decision       Final
    Number                                      Date       Date         Action

2005-DE-1004    Aspen Home Loans, American 05/06/2005 08/31/2005           Note 2
                Fork, UT

2005-DE-0001    HUD’s Controls Over FHA        05/12/2005 09/09/2005       Note 2
                Claims Payments

2005-FW-1010    Broad Street Mortgage        05/26/2005 07/13/2006         Note 2
                Company, Subsidiary of
                Fieldstone Mortgage Company,
                San Antonio, TX

2005-CH-1012    Savanna Trace Apartments       08/04/2005 12/28/2005 02/29/2008
                Multifamily Equity
                Skimming, Kalamazoo, MI

2005-CH-1013    Ivan Woods Senior              08/05/2005 12/28/2005 02/29/2008
                Apartments Multifamily
                Equity Skimming, Lansing,
                MI

2005-BO-1006    The Hartford Housing           09/06/2005 01/03/2006    01/31/2008
                Authority Improperly Used
                $3.7 Million in Public
                Housing Operating Subsidies
                for Its State and Other
                Federal Programs, Hartford,
                CT

2005-LA-0001    Single Family Preforeclosure   09/13/2005 01/10/2006       Note 2
                Sale Program

2005-AT-1013    Corporacion Para el Fomento 09/15/2005     01/11/2006   11/21/2007
                Economico de la Ciudad
                Capital Did Not Administer
                Its Independent Capital Fund
                in Accordance with HUD
                Requirements, San Juan, PR

2005-SE-1007    City Bank Puyallup, WA         09/16/2005 12/20/2005 12/20/2007

2005 -SE-1008   Idaho Housing and Finance      09/16/2005 03/31/2006       Note 2
                Association, Boise, ID

2005-CH-1017    Flint Housing Commission,      09/23/2005 01/20/2006 01/20/2016
                Section 8 Housing Program,
                Flint, MI

2005-FW-1018    The Housing Authority of the 09/27/2005 01/24/2006      12/31/2007
                City of Houston Violated
                HUD Regulations Concerning
                Section 8 Housing Choice
                Voucher Tenants and Units,
                Houston, TX




Tables                                                                           165
      Report      Report Title                 Issue     Decision      Final
      Number                                   Date       Date        Action

2005-AT-1015   The Municipality of San Juan   09/29/2005 01/12/2006   10/31/2007
               Housing Authority Did Not
               Properly Administer its
               Section 8 Housing Choice
               Voucher Program, San Juan,
               PR

2005-CH-1020   Housing Authority of the       09/29/2005 01/25/2006   12/31/2052
               City of Gary, Section 8
               Housing Program, Gary, IN

2005-BO-0002   HUD Did Not Conduct a         09/30/2005 12/20/2005    12/31/2007
               Front-End Risk Assessment
               and, Therefore, Fully
               Implement Controls for the
               Public Housing Mortgages
               and Security Interest Program

2006-CH-0001   Real Estate Assessment         11/30/2005 01/10/2006   11/30/2008
               Center’s Physical Condition
               Assessment Was
               Compromised

2006-PH-1003   The Franklin Redevelopment     11/30/2005 03/28/2006 04/01/2008
               and Housing Authority Did
               Not Adequately Administer
               Its Section 8 Program,
               Franklin, VA

2006-PH-0001   HUD Did Not Properly           12/07/2005 08/25/2006      Note 2
               Award FY 2004 Healthy
               Homes and Lead Hazard
               Control Grants

2006-PH-1005   The Housing Authority of the   01/10/2006 04/28/2006   10/31/2007
               County of Butler Used HUD
               Assets Improperly to Develop
               and Support Its Nonfederal
               Entities, Butler, PA

2006-AT-1004   The Housing Authority of the   01/13/2006 04/25/2006   12/31/2008
               City of Prichard Did Not
               Ensure Section 8 Subsidy
               Payments Were for Eligible
               Units, Tenants, and
               Landlords, Prichard, AL

2006-KC-1004   Major Mortgage Improperly      01/20/2006 05/08/2006      Note 2
               Submitted Late Requests for
               Endorsement of FHA Loans,
               Cheyenne, WY




166                                                                        Tables
    Report        Report Title                 Issue     Decision      Final
    Number                                     Date       Date        Action

2006-SE-1001   Idaho Housing and Finance      01/26/2006 05/23/2006   12/31/2008
               Association Did Not Monitor
               Subsidized Multifamily
               Projects in Accordance with
               Regulations or Its Annual
               Contributions Contract with
               HUD, Boise, ID

2006-DP-0003   Vulnerability Assessment of    01/31/2006 04/19/2006 06/30/2008
               HUD’s Computer Network

2006-NY-1002   WomenRising, Inc., Did Not     01/31/2006 05/11/2006 10/30/2007
               Always Comply with HUD’s
               Supportive Housing Program,
               Jersey City, NJ

2006-NY-1003   The Housing Authority of the   02/14/2006 08/17/2006   12/31/2008
               City of Newark’s Controls
               Over Bond Financing
               Activities, Obtaining
               Supporting Documentation,
               and Legal Settlements
               Require Improvement,
               Newark, NJ

2006-AT-1006   The Municipality of San Juan   02/23/2006 05/15/2006 12/30/2007
               Housing Authority Did Not
               Ensure Section 8 Assisted
               Units Were Decent, Safe, and
               Sanitary, San Juan, PR

2006-LA-1009   Fontana Native American        03/03/2006 03/17/2006 09/15/2008
               Indian Center Did Not
               Adequately Administer Its
               Supportive Housing Program
               Grant, Fontana, CA

2006-LA-1010   The Owner and Agent of       03/03/2006 06/23/2006     11/30/2007
               Holiday Apartments, LA PRO
               30, and Two Worlds II
               Mismanaged Project Finances
               and Operations, Los Angeles,
               CA

2006-BO-1005   Hartford Housing Authority     03/10/2006 07/07/2006 07/31/2008
               Had Housing Choice Voucher
               Program Deficiencies
               Resulting in More Than $2.6
               Million in Costs Exceptions,
               Hartford, CT

2006-CH-1007   Huntington National Bank,      03/15/2006 09/18/2006 08/10/2008
               Supervised Lender, Generally
               Complied with Requirements
               Regarding Submission of Late
               Requests for Endoresement
               and Underwriting of Loans,
               Columbus, OH
Tables                                                                         167
      Report      Report Title                  Issue     Decision     Final
      Number                                    Date       Date       Action

2006-PH-1009   The Housing Autority of the     03/23/2006 05/24/2006 04/30/2008
               City of Annapolis Did Not
               Adequately Administer Its
               Section 8 Waiting List,
               Annapolis, MD

2006-FW-1006   America’s Mortgage Resource, 03/28/2006 07/14/2006     12/31/2007
               Inc., Branch Manager Formed
               an Identity-of-Interest Entity
               That Provided Gift Funds;
               and Did Not Always Meet
               HUD Loan Origination and
               Quality Control Plan
               Requirements. Metairie, LA

2006-AT-1007   The Housing Authority of the 03/30/2006 07/20/2006     07/31/2011
               City of Winston-Salem Used
               More Than $4.9 Million in
               Operating Subsidies for Other
               Programs, Winston-Salem,
               NC

2006-CH-1008   US Bank NA, Supervised          03/31/2006 09/18/2006 08/14/2008
               Lender, Did Not Always
               Comply with HUD’s
               Requirements Regarding Late
               Requests for Endorsements
               and Underwriting of Loans,
               Minneapolis, MN

2006-FW-1007   BSM Financial LP Originated     03/31/2006 08/18/2006 10/01/2007
               Loans on Overvalued
               Properties to Less Than
               Creditworthy Borrowers,
               Putting Borrowers and HUD
               at Risk, Allen, TX

2006-CH-1009   The Youngstown               04/18/2006 08/16/2006 03/30/2008
               Metropolitan Housing
               Authority Did Not Use Public
               Housing Operating Funds
               Effectively and Efficiently,
               Youngstown, OH

2006-FW-1010   Deer Creek Apartments’          05/11/2006 05/11/2006 10/24/2007
               Previous Management Agent
               Paid Itself Unsupported Fees,
               Houston, TX

2006-LA-1011   Sundial Care Center Used        05/18/2006 09/14/2006 07/20/2008
               $659,746 in Project Funds for
               Ineligible and Undocumented
               Costs and Was Unable to
               Account for Revenue Totaling
               $407,454, Modesto, CA



168                                                                        Tables
    Report        Report Title                  Issue     Decision      Final
    Number                                      Date       Date        Action
2006-PH-0002   HUD Improperly Admitted         05/31/2006 10/24/2006 10/24/2007
               the Housing Authority of
               Baltimore City into the MTW
               Demonstration Program,
               Baltimore, MD
2006-NY-0001   HUD’s Controls Over the         06/08/2006 01/08/2007 04/30/2008
               Reporting, Oversight, and
               Monitoring of the Housing
               Counseling Assistance
               Program Were Not Adequate
2006-FW-1011   Premier Mortgage Funding,       06/16/2006 12/20/2006   10/31/2007
               Inc. and Its Sponsor,
               JPMorgan Chase, Did Not
               Comply with HUD
               Underwriting Requirements
               and Did Not Meet All Quality
               Control Requirements,
               Austin, TX
2006-KC-0003   HUD Did Not Ensute That         06/19/2006 09/13/2006 09/30/2008
               the Omaha Housing
               Authority Repaid Its Public
               Housing Programs $2.7
               Million, Omaha, NE
2006-KC-1011   The Owner of Wellston           06/29/2006 09/06/2006 05/31/2008
               Townhouses in St. Louis
               County Violated Its
               Regulatory Agreement,
               Wellston, MO
2006-KC-1012   The Owner of HDC                06/29/2006 08/31/2006 10/30/2007
               Retirement Village in St.
               Louis Violated Its Regulatory
               Agreement, St. Louis, MO
2006-BO-1008   Hall Commons Inc. Did Not    06/30/2006 10/25/2006 10/25/2007
               Administer Its $4.1 Million
               Section 202 Capital Advance
               Construction Grant in
               Accordance With Federal
               Requirements, Bridgeport, CT
2006-NY-1008   The Freeport Housing            06/30/2006 12/01/2006   10/31/2007
               Autority Has Financial and
               Management Control
               Weaknesses, Freeport, NY




Tables                                                                          169
      Report      Report Title                  Issue       Decision      Final
      Number                                    Date         Date        Action

2006-BO-1009   The Rhode Island Housing     07/06/2006 10/24/2006 12/01/2009
               and Mortgage Finance
               Corporation Incorrectly Made
               More Than $1.8 Million in
               Section 8 Subsidy Payments
               and Released More Than
               $900,000 from Restricted
               Residual Receipts Accounts,
               Providence, RI
2006-BO-0001   HUD Incorrectly Approved        07/11/2006   10/13/2006 10/01/2008
               $42 Million in Operating
               Subsidies for Phase-Down for
               Demolition Add-On Funding
2006-CH-0002   PIH is Taking Action to         07/13/2006 07/13/2006     12/31/2009
               Oversee the Section 202
               Mandatory Conversion
               Program, Washington, DC
2006-LA-1013   The Child Abuse Prevention      07/17/2006 11/09/2006     11/08/2007
               Council of Sacramento Did
               Not Adequately Administer
               Its Healthy Homes Initiative
               Grant, North Highlands, CA
2006-LA-1015   Institute for Urban Research    07/19/2006   11/16/2006   11/16/2007
               and Development Did Not
               Properly Administer Its
               Supportive Housing Program
               Grants, El Monte, CA
2006-CH-0003   The Congressional Grants     07/21/2006      11/16/2006 10/20/2007
               Division’s Oversight of
               Economic Development
               Initiative-Special Purpose
               Grants Needs to be Improved,
               Washington, DC
2006-CH-1013   The Ann Arbor Housing           07/21/2006   11/15/2006   12/31/2016
               Commission’s
               Administration of Its Section
               8 Housing Choice Voucher
               Program Needs to be
               Improved, Ann Arbor, MI
2006-LA-1017   The Housing Authority of the    07/21/2006 11/09/2006 10/30/2007
               City of Las Vegas Did Not
               Comply with Contracting
               and Grant Use Requirements,
               Las Vegas, NV
2006-AT-1015   The Municipality of Bayamon     07/27/2006   11/17/2006   11/17/2007
               Housing Authority Did Not
               Ensure Section 8-Assisted
               Units Were Decent, Safe, and
               Sanitary, Bayamon, PR

170                                                                           Tables
    Report        Report Title                 Issue       Decision      Final
    Number                                     Date         Date        Action

2006-AT-1016   The Municipality of Humacao 07/28/2006      11/17/2006 11/02/2007
               Did Not Administer Its
               CDBG in Accordance with
               HUD Requirements,
               Humacao, PR

2006-SE-0002   The Office of Single Family    08/16/2006 03/30/2007        Note 2
               Housing Expanded Late
               Endorsement Eligibility
               Without Studying Associated
               Risks

2006-KC-1013   The Columbus Housing           08/30/2006   10/17/2006   12/31/2007
               Authority Improperly
               Expended and Encumbered
               Its Public Housing Funds,
               Columbus, NE

2006-DP-0005   Review of HUD’s Information    08/31/2006   11/17/2006   12/31/2007
               Technology Contingency
               Planning and Preparedness

2006-FW-1015   The Housing Authority of the   09/01/2006 02/01/2007     10/31/2007
               City of Austin Overhoused
               Tenants and Paid Excessive
               HAPs in the Section 8
               Housing Choice Voucher
               Program, Austin, TX

2006-AT-1019   The Municipality of Tao Baja   09/06/2006   12/11/2006   12/11/2007
               Did Not Administer Its
               Section 108 Loan Guarantee
               Assistance Program in
               Accordance with HUD
               Requirements, Tao Baja, PR

2006-PH-1013   The Commonwealth of            09/18/2006   01/16/2007   01/11/2008
               Virginia Did Not Ensure
               HOME Funds Were
               Disbursed and Used in
               Accordance with Federal
               Regulations, Richmond, VA

2006-NY-1010   Orange City Housing            09/20/2006   01/18/2007   10/31/2007
               Authority Has Weakness in
               Its Housing Choice Voucher
               Program, Orange, NJ

2006-NY-1011   Orange City Housing            09/20/2006   01/18/2007   10/31/2007
               Authority Incorrectly Paid the
               City’s Street Lighting Costs
               and Improperly Wrote-off a
               Receivable, Orange, NJ




Tables                                                                           171
      Report       Report Title                 Issue       Decision      Final
      Number                                    Date         Date        Action

2006-DP-0802   Assessment of HUD’s             09/21/2006 11/24/2006 10/30/2007
               Compliance with OMB
               Memorandum M-06-16,
               “Protection of Sensitive
               Agency Information”


2006-NY-1012   The Housing Authority of the 09/22/2006      01/19/2007 08/30/2037
               City of Passaic Has
               Allegations of
               Mismanagement That Need
               to be Addressed, Passaic, NJ

2006-PH-1014   The Housing Authority of the 09/25/2006 01/22/2007        01/15/2014
               City of McKeesport Needed to
               Improve Its Low-Rent
               Housing Maintenance
               Program, McKeesport, PA

2006-CH-1016   Pickaway Metropolitan           09/26/2006   12/18/2006   12/18/2007
               Housing Authority
               Improperly Used
               Homeownership Sales
               Proceeds to Fund Its
               Nonprofit Development
               Activities, Circleville, OH

2006-CH-1017   Community Cantral Bank,      09/26/2006 03/12/2007 03/31/2009
               Supervised Lender, Generally
               Complied with HUD’s
               Requirements Regarding
               Underwriting of Loans but
               Not Its Quality Control
               Reviews, Mount Clemens, MI

2006-KC-1014   The Columbus Housing        09/27/2006       01/11/2007   01/31/2008
               Authority Improperly Spent
               and Encumbered Public
               Housing Funds for Its Non-
               HUD Development Activities,
               Columbus, NE

2006-CH-1018   Saginaw Housing                 09/28/2006   01/19/2007   12/31/2021
               Commission Improperly
               Used Public Housing Funds
               to Purchase Property,
               Saginaw, MI

2006-CH-1021   Housing Authority of the        09/30/2006 01/26/2007 09/30/2037
               County of Cook Had Weak
               Controls Over Its Section 8
               Housing Choice Voucher
               Program, Chicago, IL

2007-KC-1001   The City of St. Louis Did Not   10/11/2006 02/06/2007 04/30/2008
               Meet HUD's Requirements
               for Creating and Retaining
               Jobs, St. Louis, MO
172                                                                           Tables
    Report        Report Title                 Issue     Decision      Final
    Number                                     Date       Date        Action

2007-DE-1001   The City and County of         10/18/2006 02/09/2007   10/18/2007
               Denver, CO, Did Not Comply
               with HOME Investment
               Partnerships Program
               Requirements, Denver, CO

2007-LA-1001   The Associates Group Pioneer   10/20/2006 02/15/2007 02/15/2008
               Pines Park Did Not Follow
               the Provisions of the
               Regulatory Agreement,
               Bakersfield, CA

2007-PH-1001   The Housing Authority of the   10/31/2006 02/22/2007 02/28/2008
               County of Beaver Needed to
               Improve Controls over HUD
               Assets, Beaver, PA

2007-AT-1002   Pine State Mortgage            11/03/2006 03/02/2007   11/30/2007
               Company Did Not Always
               Comply with FHA
               Underwriting and Quality
               Control Requirements,
               Atlanta, GA

2007-KC-1003   PlainsCapital McAfee           11/06/2006 04/13/2007 03/31/2008
               Mortgage Did Not Follow
               HUD Underwriting
               Requirements and Originated
               Loans from Unregistered
               Branch Offices, Lubbock, TX

2007-FO-0002   Audit of the FHA's Financial   11/08/2006 04/10/2007      Note 2
               Statements for FY 2006 and
               2005

2007-LA-0001   Tax Credit Project Owners    11/08/2006 07/05/2007     10/01/2010
               Are Allowed to Charge Higher
               Rents for Tenant-Based
               Section 8 Voucher Households
               than Non-Voucher
               Households

2007-FO-0003   Additional Details to          11/14/2006 03/07/2007   10/31/2007
               Supplement Our Report on
               HUD's FY 2006 and 2005
               Financial Statements

2007-FW-1002   The Lubbock Housing            11/28/2006 03/19/2007 02/11/2008
               Authority Inappropriately
               Advanced Federal Funds to
               Support Its Nonprofit
               Entities, Lubbock, TX




Tables                                                                         173
      Report      Report Title                Issue      Decision      Final
      Number                                  Date        Date        Action

2007-BO-1002   Mortgage Amenities             12/01/2006 03/23/2007 12/01/2007
               Corporation Did Not Comply
               with Certain HUD
               Requirements in
               Administering Its FHA
               Insured Loan Programs,
               Lincoln, RI

2007-LA-1002   First Magnus Financial         12/12/2006 04/10/2007   11/30/2007
               Corporation Did Not Comply
               with HUD Guidelines When
               Operating and Managing Net
               Branches, Scottsdale, AZ

2007-LA-1003   The City of Long Beach Did     12/12/2006 04/10/2007 04/10/2008
               Not Administer Its
               Continuum of Care
               Supportive Housing Program
               in Compliance with HUD
               Requirements, Long Beach,
               CA

2007-CH-1001   The Marion Housing             12/13/2006 04/05/2007 07/01/2027
               Authority Improperly Used
               HUD Funds for Nonprofit
               Development Activities,
               Marion, IN

2007-PH-1002   The Montgomery County          12/13/2006 04/12/2007 02/08/2008
               Housing Authority
               Improperly Used HUD Funds
               to Purchase, Renovate, and
               Maintain Its Main Office,
               Norristown, PA

2007-LA-1004   The Housing Authority of the   12/15/2006 02/27/2007 02/27/2008
               County of Contra Costa Did
               Not Adequately Determine
               and Support Section 8 Rents,
               Martinez, CA

2007-NY-1002   The City of Amsterdam Needs 12/20/2006 04/18/2007 10/05/2007
               to Make Improvements in
               Administering Its Section 108
               Loan Guarantee Program,
               Amsterdam, NY

2007-SE-1001   The YWCA of Seattle, King      01/12/2007 05/10/2007 03/31/2008
               and Snohomish Counties, Did
               Not Properly Administer Its
               Supportive Housing Program
               Grants, Seattle, WA

2007-DP-0002   Review of HUD's Information    01/18/2007 05/25/2007 05/30/2008
               Technology Services
               Contracts


174                                                                        Tables
    Report        Report Title                  Issue     Decision      Final
    Number                                      Date       Date        Action

2007-CH-1002   Benton Harbor Housing           01/25/2007 05/25/2007 12/15/2008
               Commission Did Not
               Effectively Manage Its Public
               Housing Program and Has
               Not Used Special Purpose
               Grant Funds It Received
               More Than Nine Years Ago,
               Benton Harbor, MI

2007-DP-0003   Review of HUD's                 01/25/2007 05/25/2007   12/31/2008
               Procurement Systems

2007-KC-0002   HUD Can Improve Its Use of      01/29/2007 01/29/2007 10/15/2007
               Residual Receipts to Reduce
               Housing Assistance Payments

2007-AT-1003   Gwinnett County                 01/31/2007 03/26/2007   12/31/2007
               Subrecipients Did Not
               Provide Funds Required by
               Their Contracts,
               Lawrenceville, GA

2007-BO-0001   The Hartford CPD Did Not   02/12/2007 04/02/2007 11/05/2007
               Always Adequately Monitor
               CDBG Program Participants
               or Follow HUD Requirements

2007-CH-1003   The Housing Authority of the 02/13/2007    06/11/2007   12/31/2016
               City of Evansville Needs to
               Improve Its Section 8 Housing
               Choice Voucher Program
               Administration, Evansville,
               IN

2007-LA-1005   Oakland Housing Authority   02/14/2007 06/14/2007 01/01/2009
               Did Not Comply with
               Procurement and Contracting
               Requirements, Oakland, CA

2007-DP-0004   FY 2006 Review of               02/22/2007 06/21/2007 09/30/2008
               Information Systems
               Controls in Support of the
               Financial Statements Audit

2007-FW-1005   The Housing Authority of    02/22/2007 05/23/2007       12/31/2007
               Bexar County Overhoused
               Tenants and Paid Excessive
               Housing Assistance Payments
               in the Section 8 Housing
               Choice Voucher Program, San
               Antonio, TX




Tables                                                                          175
      Report       Report Title                  Issue     Decision     Final
      Number                                     Date       Date       Action

2007-FW-1006   Aberdeen Villa Apartments,       03/07/2007 05/22/2007 07/23/2008
               Formerly Asbury Square
               Apartments, FHA #118-
               35200, Spent Almost $35,000
               in Project Funds on Ineligible
               and Unsupported Costs,
               Tulsa, OK

2007-AT-1004   The Wilmington Housing           03/09/2007 06/25/2007 06/28/2010
               Authority Needs to Improve
               Internal Controls Over Its
               Program, Wilmington, NC

2007-CH-1004   The Columbus Metropolitan        03/15/2007 05/24/2007 02/28/2008
               Housing Authority Failed to
               Adequately Operate Its
               Section 8 Housing Choice
               Voucher Program, Columbus,
               OH

2007-LA-1006   The Housing Authority of the     03/16/2007 09/28/2007 09/28/2008
               County of Santa Clara Did
               Not Adequately Determine
               and Support Section 8 Rents,
               San Jose, CA

2007-BO-1003   The Office of Community          03/21/2007 07/19/2007 10/30/2007
               Development, City of
               Chicopee, Did Not Properly
               Award and Administer CDBG
               and HOME Funds Used for
               its Housing Activities,
               Chicopee, MA

2007-BO-1004   Harris Health Center Did Not 03/22/2007 05/24/2007 12/27/2007
               Ensure That Renovations
               Were Properly Completed,
               Paid $21,729 for Unnecessary
               and Nonproject Costs, and
               Did Not Calculate
               Management Fees Properly,
               East Providence, RI

2007-CH-1005   The Housing Authority of the 03/23/2007 07/19/2007      12/31/2056
               City of Gary Lacked Adequate
               Controls over Refunding
               Savings, Gary, IN

2007-CH-1006   Colony Mortgage                  03/26/2007 09/27/2007 08/31/2009
               Corporation, Supervised
               Lender, Did Not Always
               Comply with HUD's
               Requirements Regarding
               Underwriting of Loans and
               Quality Control Reviews,
               Fairview Park, OH


176                                                                         Tables
    Report             Report Title               Issue       Decision      Final
    Number                                        Date         Date        Action

2007-AT-1005      The Puerto Rico Department     03/29/2007 07/16/2007 06/30/2008
                  of Housing Did Not
                  Effectively Administer Its
                  Section 8 Housing Program,
                  San Juan, PR

2007-FW-1007      The Jacksonville Housing       03/30/2007 05/30/2007 03/30/2008
                  Authority Mismanaged
                  Public Housing Capital Fund
                  Program Funding,
                  Jacksonville, AR



    AUDITS EXCLUDED:                            NOTES:

    43 audits under repayment plans             1 Management did not meet the
                                                  target date. Target date is over
    33 audits under formal judicial               1 year old.
    review, investigation, or legislative
    solution                                    2 Management did not meet the
                                                  target date. Target date is under
                                                  1 year old.

                                                3 No Management decision.




Tables                                                                                177
                                                Table C
           Inspector General Issued Reports with Questioned and
                     Unsupported Costs at 09/30/2007
                                                    (Thousands)
 Audit Reports                                        Number of              Questioned          Unsupported
                                                    Audit Reports              Costs                Costs
A1     For which no management                               22                   15,974                 10,849
       decision had been made by the
       commencement of the reporting
       period

A2 For which litigation, legislation                         11                   28,022                 17,182
   or investigation was pending at
   the commencement of the
   reporting period
A3 For which additional costs were                            -                     887                    99
   added to reports in beginning
   inventory

A4 For which costs were added to                              1                     200                    0
   non-cost reports

B1     Which were issued during the                          50                   47,986                 24,291
       reporting period

B2     Which were reopened during                            0                       0                     0
       the reporting period

                             Subtotals (A+B)                 84                   93,069                 52,421
C      For which a management                                381                  22,087                 14,859
       decision was made during the
       reporting period

       (1) Dollar value of disallowed
           costs:
          - Due HUD                                          112                   3,749                  2,105
          - Due program participants                         28                   16,490                 12,402
       (2) Dollar value of costs not                         63                    1,848                  352
           disallowed
D      For which management decision                         11                   29,630                 17,230
       had been made not to determine
       costs until completion of
       litigation, legislation or
       investigation
E      For which no management                               35                  41,352                  20,332
       decision had made by the end of                     <106>4               <41,009>4               <20,300>4
       the reporting period
1 24 audit reports also contain recommendations with funds be put to better use.
2 1 audit report also contains recommendations with funds due program participants.
3 6 audit reports also contain recommendations with funds agreed to by management.
4 The figures in brackets represent data at the recommendation level as compared to the report level.
  See Explanations of Tables C and D.

178                                                                                                             Tables
                                               Table D
     Inspector General Issued Reports with Recommendations That
               Funds be Put to Better Use at 09/30/2007
                                                    (Thousands)
 Audit Reports                                                       Number of                     Dollar
                                                                    Audit Reports                  Value
 A1 For which no management decision had                                     18                     350,514
    been made by the commencement of the
    reporting period
 A2 For which litigation, legislation or                                      9                     116,946
    investigation was pending at the
    commencement of the reporting period

 A3 For which additional costs were added to                                  -                           0
    reports in beginning inventory

 A4 For which costs were added to non-cost                                    0                           0
    reports

 B1 Which were issued during the reporting                                   49                     192,727
    period

 B2 Which were reopened during the reporting                                  0                           0
    period

                                            Subtotals (A+B)                  76                     660,187
 C       For which a management decision was                                 371                    236,102
         made during the reporting period
         (1) Dollar value of recommendations that
             were agreed to by management:
            - Due HUD                                                        152                    207,678
            - Due program participants                                       24                     26,367
         (2) Dollar value of recommendations that                            63                         2,057
             were not agreed to by management
 D       For which management decision had been                               9                         90,852
         made not to determine costs until
         completion of litigation, legislation or
         investigation

 E       For which no management decision had                                30                     333,233
         made by the end of the reporting period                            <58>4                 < 333,233>4

1 24 audit reports also contain recommendations with questioned costs.
2 3 audit reports also contain recommendations with funds due program participants.
3 5 audit reports also contain recommendations with funds agreed to by management.
4 The figures in brackets represent data at the recommendation level as compared to the report level.
  See Explanations of Tables C and D.




Tables                                                                                                           179
Explanations of Tables C and D
     The Inspector General Act Amendments of 1988 require Inspectors General and
agency heads to report cost data on management decisions and final actions on audit
reports. The current method of reporting at the "report" level rather than at the
individual audit "recommendation" level results in misleading reporting of cost data.
Under the Act, an audit "report" does not have a management decision or final action
until all questioned cost items or other recommendations have a management decision
or final action. Under these circumstances, the use of the "report" based rather than the
"recommendation" based method of reporting distorts the actual agency efforts to
resolve and complete action on audit recommendations. For example, certain cost items
or recommendations could have a management decision and repayment (final action)
in a short period of time. Other cost items or nonmonetary recommendation issues in
the same audit report may be more complex, requiring a longer period of time for
management's decision or final action. Although management may have taken timely
action on all but one of many recommendations in an audit report, the current "all or
nothing" reporting format does not take recognition of their efforts.

    The closing inventory for items with no management decision on Tables C and D
(Line E) reflects figures at the report level as well as the recommendation level.




180                                                                                Tables
Appendix 3




  Index
                            Index
 State                  Page Numbers

 Alabama                64
 Arizona                9, 15, 22, 34, 44, 57, 132, 136, 139
 California             14, 16, 18, 19, 20, 23, 27, 29, 48, 50, 51, 52, 53, 55,
                        56, 60, 62, 63, 66, 67, 80, 81, 94 95, 97, 114, 115, 116,
                        131, 135, 137, 138, 139, 141, 142, 143
 Colorado               14, 15, 20, 21, 64, 135, 136, 140
 Connecticut            19, 43, 65, 76, 80, 83
 Delaware               79
 District of Columbia   27, 37, 67, 120, 121, 123, 130, 138, 139, 150
 Florida                43, 45, 49, 50, 58, 70, 75, 98, 136
 Georgia                17, 22, 39, 49, 130, 131
 Illinois               15, 17, 18, 22, 23, 24, 33, 34, 41, 42, 48, 51, 53, 55,
                        60, 92, 130, 131, 133, 134, 137, 138, 140, 141
 Indiana                31, 47, 58, 134
 Iowa                   81, 137
 Kansas                 20, 61, 64, 65, 69, 81, 83, 140, 142, 143
 Kentucky               64, 80
 Louisiana              16, 42, 46, 49, 62, 69, 82, 106, 114, 115, 116, 117, 133,
                        138, 144
 Maine                  55, 63, 65, 66, 100, 136
 Maryland               21, 30, 56, 61, 67, 101, 125, 132, 135, 144
 Massachusetts          16, 32, 52, 53, 57, 60, 61, 63, 70, 82, 88, 90, 97, 99,
                        100, 135, 138, 140
 Michigan               31, 32, 38, 45, 56, 59, 68, 141, 142, 143
 Mississippi            57, 97, 112, 113, 116, 117, 134, 137
 Missouri               9, 69, 82, 135, 137, 143, 144
 Montana                57, 59, 70
 Nevada                 29, 52, 55, 57, 70, 134, 141
 New Hampshire          139
 New Jersey             14, 15, 17, 18, 19, 35, 42, 46, 69, 87, 91, 92, 97, 99, 141
 New Mexico             44, 45, 53, 62, 135
 New York               14, 17, 19, 24, 44, 46, 47, 48, 49, 60, 79, 80, 83, 88, 89,
                        90, 98, 132, 134
 North Carolina         36, 45, 46, 51, 54, 62, 66, 68, 124, 125, 139, 140, 143
 Ohio                   29, 37, 50, 54, 75, 83, 93
 Oklahoma               42, 76, 79, 143, 144
 Pennsylvania           10, 12, 36, 41, 56, 58, 59, 65, 77, 82, 139



182                                                                           Index
 State           Page Numbers

 Puerto Rico     87
 Rhode Island    79, 81, 141
 South Dakota    42
 Texas           11, 20, 21, 22, 41, 65, 68, 69, 78, 98, 113, 116, 118, 130,
                 132, 133, 136, 143
 Utah            22, 45, 58
 Virginia        18, 21, 22, 23, 28, 41, 53, 62, 63, 64, 71, 81, 100, 101, 132
 Washington      10, 50, 57, 58, 61, 68, 92, 116, 140
 West Virginia   142
 Wisconsin       18, 93, 133




Index                                                                      183
HUD OIG Operations
 Telephone Listing
Office of Audit
Headquarters Office of Audit, Washington, DC                      202-708-0364

Region 1             Boston, MA                                   617-994-8380
                     Hartford, CT                                 860-240-4800

Region2              New York, NY                                 212-264-4174
                     Albany, NY                                   518-464-4200
                     Buffalo, NY                                  716-551-5755
                     Newark, NJ                                   973-622-7900

Region 3             Philadelphia, PA                             215-656-0500
                     Baltimore, MD                                410-962-2520
                     Pittsburgh, PA                               412-644-6372
                     Richmond, VA                                 804-771-2100

Region 4             Atlanta, GA                                  404-331-3369
                     Miami, FL                                    305-536-5387
                     Greensboro, NC                               336-547-4001
                     Jacksonville, FL                             904-232-1226
                     Knoxville, TN                                865-545-4369
                     San Juan, PR                                 787-766-5202

Region 5             Chicago, IL                                  312-353-7832
                     Columbus, OH                                 614-469-5745
                     Detroit, MI                                  313-226-6190

Region 6             Fort Worth, TX                               817-978-9309
                     Houston, TX                                  713-718-3199
                     Oklahoma City, OK                            405-609-8606
                     San Antonio, TX                              210-475-6898

Regions 7/8          Kansas City, KS                               913-551-5870
                     St. Louis, MO                                 314-539-6339
                     Denver, CO                                    303-672-5452

Regions 9/10         Los Angeles, CA                              213-894-8016
                     Phoenix, AZ                                  602-379-7250
                     San Francisco, CA                            415-489-6400
                     Seattle, WA                                  206-220-5360

Gulf Coast Region                                                 504-671-3715




186                                            HUD OIG Operations Telephone Listing
Office of Investigation
Headquarters Office of Investigation, Washington, DC   202-708-0390

Region 1                Boston, MA                     617-994-8450
                        Hartford, CT                   860-240-4800
                        Manchester, NH                 603-666-7988

Region 2                New York, NY                   212-264-8062
                        Buffalo, NY                    716-551-5755
                        Newark, NJ                     973-776-7347

Region 3                Philadelphia, PA               215-656-3410
                        Baltimore, MD                  410-962-4502
                        Pittsburgh, PA                 412-644-6598
                        Richmond, VA                   804-882-4890

Region 4               Atlanta, GA                     404-331-3359
                       Miami, FL                       305-536-3087
                       Greensboro, NC                  336-547-4000
                       Knoxville, TN                   865-545-4000
                       San Juan, PR                    787-766-5868
                       Tampa, FL                       813-228-2026

Region 5                Chicago, IL                    312-353-4196
                        Cleveland, OH                  216-522-4421
                        Columbus, OH                   614-469-6677
                        Detroit, MI                    313-226-6280
                        Indianapolis, IN               317-226-5427
                        Minneapolis-St. Paul, MN       612-370-3130

Region 6                Arlington, TX                  817-652-6980
                        Houston, TX                    713-718-3196
                        Oklahoma City, OK              405-609-8601
                        San Antonio, TX                210-475-6819

Region 7/8             Kansas City, KS                 913-551-5866
                       St. Louis, MO                   314-539-6559
                       Denver, CO                      303-672-5276
                       Billings, MT                    406-247-4080
                       Salt Lake City, UT              801-524-6090

Region 9/10             Los Angeles, CA                213-894-0219
                        San Francisco, CA              415-489-6683
                        Phoenix, AZ                    602-379-7255
                        Sacramento, CA                 916-930-5691
                        Las Vegas, NV                  702-366-2144
                        Seattle, WA                    206-220-5380



HUD OIG Operations Telephone Listing                              187
Gulf Coast Region   New Orleans, LA                      504-671-3701
                    Arlington, TX                        817-978-5440
                    Baton Rouge, LA                      225-334-4913
                    Hattiesburg, MS                      601-299-4279
                    Houston, TX                          713-718-3196
                    Jackson, MS                          601-965-5772
                    Washington, DC                       202-708-0390




188                                   HUD OIG Operations Telephone Listing
Report fraud, waste, and mismanagement
  in HUD programs and operations by:


    Calling the OIG Hotline: 1-800-347-3735

     Faxing the OIG Hotline: 202-708-4829

       Sending written information to:
   Department of Housing and Urban Development
          Inspector General Hotline (GFI)
                 451 7th Street, SW
              Washington, DC 20410

 E-mailing the OIG Hotline: hotline@hudoig.gov

                   Internet:
 http://www.hud.gov/complaints/fraud_waste.cfm



     All information is confidential,
    and you may remain anonymous.
Semiannual Report to Congress
April 1, 2007, through September 30, 2007

www.hud.gov/offices/oig

No. 58    HUD-2007-04-OIG
